<html>
<title> - AN OVERVIEW OF THE FISCAL YEAR 2012 RESEARCH AND DEVELOPMENT BUDGET PROPOSALS AT THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION AND THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  AN OVERVIEW OF THE FISCAL YEAR 2012 RESEARCH AND DEVELOPMENT BUDGET 
 PROPOSALS AT THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION AND 
                                  THE 
                    ENVIRONMENTAL PROTECTION AGENCY 

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2011

                               __________

                            Serial No. 112-5

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-050 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY



















                            C O N T E N T S

                        Thursday, March 10, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    12
    Written Statement............................................    14

                               Witnesses:

Dr. Jane Lubchenco, Administrator, National Atmospheric and 
  Oceanic Administration
    Oral Statement...............................................    15
    Written Statement............................................    17

Dr. Paul Anastas, Assistant Administrator, Office of Research and 
  Development (ORD), U.S. Environmental Protection Agency
    Oral Statement...............................................    41
    Written Statement............................................    43

Discussion.......................................................    44

             Appendix I: Answers to Post-Hearing Questions

Dr. Jane Lubchenco, Administrator, National Atmospheric and 
  Oceanic Administration.........................................    68

Dr. Paul Anastas, Assistant Administrator, Office of Research and 
  Development (ORD), U.S. Environmental Protection Agency........    84


  AN OVERVIEW OF THE FISCAL YEAR 2012 RESEARCH AND DEVELOPMENT BUDGET 
 PROPOSALS AT THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION AND 
                  THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        THURSDAY, MARCH 10, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

  An Overview of the Fiscal Year 2012 Research and Development Budget 
                       Proposals at the National

Oceanic and Atmospheric Administration and the Environmental Protection 
                                 Agency

                        thursday, march 10, 2011
                              10:00-12:00
                   2318 rayburn house office building

                                PURPOSE

    On Thursday, March 10, 2010 at 10:00 a.m. the House Committee on 
Science, Space, and Technology will hold a hearing to examine the 
Administration's Fiscal Year 2012 budget requests for the Environmental 
Protection Agency's (EPA) Science and Technology (S&T) Programs and the 
National Oceanic and Atmospheric Administration (NOAA).

                               WITNESSES

Panel I

        <bullet>  Dr. Jane Lubchenco, Administrator, National 
        Atmospheric and Oceanic Administration

Panel II

        <bullet>  Dr. Paul Anastas, Assistant Administrator, Office of 
        Research and Development (ORD), U.S. Environmental Protection 
        Agency

                               BACKGROUND

OVERALL FY 2011 BUDGET REQUEST FOR NOAA

    The President's FY 2012 budget request for the National Oceanic and 
Atmospheric Administration (NOAA) is $5.49 billion, a 15.8 percent 
increase above the fiscal year (FY) 2010 levels.
    NOAA's core mission and activities include weather forecasting, 
climate prediction, and management of fisheries, coastal and ocean 
resources, as well as cross-cutting research to support and advance 
these operational areas. NOAA carries out this mission through five 
major line offices:

        <bullet>  National Ocean Service (NOS), responsible for mapping 
        and charting coastal areas and providing other navigation 
        support services.

        <bullet>  National Weather Service (NWS), responsible for 
        weather forecasts and warnings.

        <bullet>  National Environmental Satellite Service (NESS \1\), 
        responsible for development and operation of satellites that 
        monitor and transmit data for weather forecasting, climate 
        prediction, space weather forecasting, and earth and ocean 
        science research.
---------------------------------------------------------------------------
    \1\ The NESS line office was formerly known as the National 
Environmental Satellite, Data, and Information Service, NESDIS.

        <bullet>  Office of Oceanic and Atmospheric Research (OAR), 
        responsible for research in support of most NOAA missions 
        including atmospheric, coastal, and oceanic sciences, climate 
        and air quality research, ecosystem research, and fisheries and 
---------------------------------------------------------------------------
        marine mammal research.

        <bullet>  National Marine Fisheries Service, responsible for 
        stewardship of living marine resources through the 
        conservation, management, and promotion of healthy ecosystems.

    As part of the FY 2012 budget request, the Administration is 
proposing a major reorganization of NOAA that would include the 
establishment of a seventh line office. Assets from the Office of 
Oceanic and Atmospheric Research (OAR), the National Weather Service 
(NWS), and the National Environmental Satellite Service (NESS) would be 
transferred into a new Climate Service (CS) line office.
    Table 1 shows the primary accounts or line offices of the agency's 
budget. The FY 2012 budget request includes increases above the FY 2010 
enacted levels for Program Support, the National Environmental 
Satellite Service (NESS), and the Climate Service (CS). The 
Administration's budget proposes to decrease funding for National Ocean 
Service (NOS), the Office of Atmospheric and Oceanic Research (OAR), 
the National Weather Service (NWS) and the National Marine Fisheries 
Service (NMFS).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Climate Service (CS)

    In February 2010, NOAA announced its intention to create a new 
Climate Service (CS) to provide public and private sector decision-
makers with improved and expanded climate-related information. The FY 
2012 budget request formalizes this intention, requesting $346.2 
million for the CS, which would include assets consolidated from OAR, 
NWS, and NESS. This proposal represents the largest reorganization of 
NOAA since its creation in 1970. Specifically, the proposal would move 
more than half of OAR assets into the new CS, including the Climate 
Program Office, the Geophysical Fluid Dynamics Laboratory (climate 
modeling), and most of the Earth Systems Research Laboratory. From the 
NWS, CS would gain the Climate Prediction Center, the Regional U.S. 
Historical Climate Network, and the TAO array (monitoring). Finally, 
from NESS, the CS would gain the data and information centers that 
house the observational data from satellites, land and sea monitors.
    The proposed CS was subject to a National Academy of Public 
Administration (NAPA) review at the behest of the FY 10 Appropriations. 
The scope of the study included an assessment of:

        <bullet>  how best to provide information at the global, 
        regional, and state levels over varying timescales;

        <bullet>  the interaction among the government and various 
        users, stakeholders, researchers, and information providers of 
        climate information in both the private and public sectors;

        <bullet>  the development and distribution of products and 
        information that will support decision-making;

        <bullet>  the coordination and alignment of existing programs 
        and resources internal and external to NOAA; and,

        <bullet>  provide estimates on projected funding 
        levels.Although the NAPA study endorsed the concept of a 
        Climate Service, it was quite clear that it did not evaluate 
        the impacts that the creation of a Climate Service would have 
        on the rest of the NOAA research enterprise, and on OAR in 
        particular. The Committee has not yet had the opportunity to 
        hold hearings on the proposed climate service.


National Weather Service (NWS)

    NWS provides weather, hydrologic, and climate forecasts and 
warnings for the United States, adjacent waters, and ocean areas, and 
maintains a national infrastructure of observing systems that gather 
and process data worldwide from the land, sea, and air.
    The FY 2012 request for NWS is $988 million, a decrease of $11.8 
million, or one percent, below FY 2010 levels. The Administration is 
requesting a $4.7 million increase for the NWS Operations, Research and 
Facilities (ORF) accounts and $16.5 million decrease for the NWS 
Procurement, Acquisitions and Construction (PAC) accounts. A 
substantial amount of the decrease is attributed to the movement of 
assets to the newly formed CS and the elimination of congressionally 
directed projects.
    As part of the proposed reorganization, NWS would transfer to CS 
the following assets: the Climate Prediction Center (CPC), the Tropical 
Atmosphere Ocean (TAO) observation array, and the Historical Climate 
Network (HCN). The CPC produces operational predictions of climate 
variability from one-week forecasts to seasonal forecasts. The TAO 
array is a series of bouys in the Pacific Ocean that transmit 
oceanographic and meterological data instrumental in NOAA's prediction 
of El Nino events. The HCN is a network of more than 1200 weather 
stations across the contiguous United States.
    The Administration requested increase in the ORF accounts is within 
the Local Warning and Forecasts Program for: (1) National Data Buoy 
Center for operations and maintenance of damaged buoys, (2) Next 
Generation Air Transportation System (NextGen) development activities, 
and (3) supercomputing capabilities for more timely and accurate 
weather forecasts.
    The requested increases in the ORF accounts are partially offset by 
decreases in funding. There are several programs proposed for 
elimination that are designated by Congress for funding and are 
routinely eliminated by the Administration as ``Congressional 
earmarks.'' This includes the National Mesonet Network, a 
Congressionally mandated program to explore the use of using integrated 
commercial and government meteorological data to improve forecasting. 
NOAA maintains that it will still be able to use data collected from 
existing observational systems and obtain additional observational data 
from networks that provide data free of charge ($19 million). Another 
program proposed for elimination includes the Weather Radio Improvement 
Project (WRIP). NOAA has completed the WRIP program, and has finished 
replacing weather radios ($5.4 million).
    The President's FY 2012 request proposes to continue support in the 
following areas: complete the acquisition of global positioning system 
(GPS) radiosondes (i.e. weather balloon instruments) for 102 Upper Air 
observing stations ($9.0 million); support the initial operational 
deployment of a 4-dimensional (4-D) Weather Data Cube used for aviation 
weather ($26.9 million); improve IT security for the national critical 
space weather system ($11.6 million); and operation and maintenance of 
the Advanced Weather Interactive Processing System (AWIPS) ($24.4 
million), the Automated Surface Observing System (ASOS) ($11.3 
million), and the Next Generation Weather Radar (NEXRAD) ($46.7 
million). AWIPS is specialized software that assists forecasters in 
preparation of accurate, timely weather forecasts and warnings. ASOS is 
composed of the sensors needed to measure and record significant 
weather conditions. NEXRAD is the radar system that shows patterns and 
movement of weather conditions.

National Environmental Satellite Service (NESS)

    The President's budget request for the National Environmental 
Satellite Service (NESS) is $2.015 billion, a 44 percent increase over 
FY 2010 levels. Due to the movement of assets from NESS into the new 
CS, the Administration request would reduce the NESS Operations, 
Research and Facilities (ORF) account by $81.3 million (41 percent) 
relative to FY 2010 levels, and increase the NESS Procurement, 
Acquisition and Construction (PAC) account by $699 million (58 percent) 
over FY 2010.

NESS ORF

    The ORF budget for NESS is for Environmental Satellite Observing 
Systems, and contains programmatic funding for management and 
processing of data received from all of NOAA's ground- and space-based 
weather monitoring equipment. The requested increases of $5.1 million 
over the FY 2010 appropriation would support the routine replacement 
and upgrading of ground based equipment and software and to increase 
security protocols on NESS computer systems.

NESS PAC

    The budget for NESS is dominated by acquisitions for NOAA's two 
weather satellite systems: the Polar-Orbiting Environmental Satellites 
(POES), which orbit the earth and provide information for medium to 
long-range weather forecasts; and the geostationary satellites (GOES), 
which gather data above a fixed position on the earth's surface and 
provide information for short-range warnings and current weather 
conditions. To maintain the continuity of weather forecasting data as 
older satellites retire, a new series of satellites are under 
development for both systems.
    Increases and decreases in the PAC account reflect different phases 
of satellite acquisition. For example, there is a proposed decrease of 
$50.1 million from the FY 2010 budget for the current series of GOES 
satellites, GOES-R, due to a rephrasing of program resources and 
continue instrument, spacecraft and ground system development for GOES 
R and S. Cost overruns and delays have plagued this program. Originally 
scheduled for launch in 2014, GOES-R has been delayed until 2015, and 
its projected cost has grown by $5 billion from the original estimate 
of $6.2 billion. NOAA consequently restructured the program to achieve 
cost reductions, and obtained independent cost estimates for the 
program. The Administration now estimates the cost of the new GOES 
series at $7.62 billion through 2028. Cost savings were achieved by 
reducing the number of satellites in the series (from four to two) as 
well as removing one of the satellite's major sensors.
    The PAC account also reflects the $687.8 million requested increase 
for the Joint Polar Satellite System (JPSS). The JPSS total request of 
$1.07 billion comprises most of the nearly 52% increase of the NESS 
line office over FY 10 levels. This increase is a sizable portion of 
the agency's total $750 million proposed growth in FY 2012.
    JPSS evolved from a tri-agency effort to develop a satellite system 
known as NPOESS \2\. NPOESS data and products are considered ``mission-
critical'' for both civilian and military weather forecasting and 
climatology needs; however, the program had major problems throughout 
its existence. Since 2002, oversight by Congressional Committees, 
Government Accountability Office (GAO) reports, and independent review 
teams have documented problems with satellite instrumentation, 
cooperation among the agencies involved, and the program's life-cycle 
cost; GAO's most recent testimony to the S&T Committee indicated that 
total cost estimates had grown to between $15 billion and $16.5 billion 
and were not yet stabilized.
---------------------------------------------------------------------------
    \2\ NOAA, the National Aeronautics and Space Administration (NASA), 
and the Department of Defense (DoD) collaborated to develop NPOESS. 
This tri-agency effort was abandoned in February 2010.
---------------------------------------------------------------------------
    Due to these serious management issues, schedule slips, and cost 
over-runs, the Administration's FY 2012 budget reflects the major 
restructuring of NPOESS that occurred in 2010. The decision dissolved 
the integrated program into two separate programs: a military program 
managed by the Department of Defense, and a civilian program managed by 
NOAA/NASA. The NOAA/NASA program known as JPSS is responsible for 
satellites flying in the afternoon orbits while DoD satellites are 
responsible for the morning orbits. The United States will rely on 
European satellites for operational weather observations for the 
remaining late-morning orbit. Satellite procurement will be separated 
for each program; however, both programs will deliver data to a common 
ground system, and NOAA will continue to operate all satellites while 
in orbit. \3\
---------------------------------------------------------------------------
    \3\ NOAA has been operating the Defense Meteorological Satellites 
for DoD since May 1998.
---------------------------------------------------------------------------
    Part of this program included a research satellite, the NPOESS 
Preparatory Project (NPP) that was intended to be launched during the 
last years of the original POES satellites in order to compare 
instrument functionality and usefulness and to calibrate data coming 
from the new instruments against the data from existing instruments. 
Due to the delays this program has experienced, the initial May 2006 
launch of NPP has slipped to an October 2011 launch date. Instead of 
acting as a research tool, NPP has now been designated an operational 
satellite in order to ensure continuity of data, given that the first 
JPSS satellite is not schedule to launch until 2016. In addition to 
procuring these satellite systems, the Administration is requesting 
$30.4 million to restore high priority climate sensors that were de-
manifested from the NPOESS program in 2006 as a result of the Nunn-
McCurdy mandated restructuring of the program.
    NOAA oversees several satellite systems in addition to GOES and 
POES. The Deep Space Climate Observatory (DSCOVR), formerly known as 
Triana, has a request of $47.3 million to initiate refurbishment of the 
satellite and to develop a Coronal Mass Imager (CME) to maintain 
continuity of solar wind data used for geomagnetic storm warnings. The 
total life cycle of DSCOVR is projected to be $85 million. The JASON 
satellite series is managed in partnership with the European 
Organization for the Exploitation of Meteorological Satellites 
(EUMETSAT). The JASON-3 satellite FY 2011 budget request is a $33 
million increase over the FY 2010 level of $20 million to continue the 
development of this altimetry satellite that will provide data for 
ocean climatology and hurricane intensity forecasting.

Oceanic and Atmospheric Research (OAR)

    The office of Oceanic and Atmospheric Research (OAR) is the primary 
research arm of NOAA, conducting the scientific research, environmental 
studies, and technology development necessary to improve NOAA 
operations. OAR activities are carried out at NOAA and via extramural 
research activities at 30 National Sea Grant colleges and universities. 
The proposed formation of the Climate Service would reduce the size of 
OAR by more than half, to $212 million for FY 2012. The Administration 
proposes to reduce funding for OAR by $237.1 million, approximately a 
53 percent decrease below the FY 2010 $549 million level.
    Notable budget changes at the remaining programs at OAR include:

        <bullet>  An increase of $6 million in the Phased Array Radar 
        and Tornado Severe Storm Research.

        <bullet>  An increase of $2 million in Weather and Air Quality 
        Research for wind boundary-layer research to support renewable 
        energy.

        <bullet>  An increase of $1 million in Sea Grant to conduct 
        risk assessment research for coastal communities preparing for 
        and responding to natural hazards and extreme events.

        <bullet>  The Administration requests $11.6 million in funding 
        for the Integrated Ocean Acidification Research program. This 
        work is aimed at enhancing current knowledge to improve 
        adaptive strategies and management of living marine resources 
        impacted by ocean acidification.

        <bullet>  A decrease of $3 million from Unmanned Aircraft 
        Systems.

        <bullet>  A decrease of $1.3 million from the U.S. Weather 
        Research Program (reflecting the completion of some research 
        projects).

        <bullet>  A $19.5 million decrease for Congressionally Directed 
        Programs.

National Ocean Service (NOS)

    The National Ocean Service (NOS) protects the National Marine 
Sanctuaries and advocates coastal and ocean stewardship. The NOS also 
introduced electronic nautical charts which interface with Global 
Positioning Systems (GPS) to enhance the safety and efficiency of 
navigation of U.S. waterways. The President's FY 2012 request of $558.6 
million would reduce overall funding for NOS programs by $20.5 million, 
or 3.5 percent, compared to the FY 2010 level.
    The NOS ORF account is reduced by $11 million. The Ocean Resources, 
Conservation and Assessment account has a proposed net reduction as 
compared to the FY 2010 enacted budget of $7.4 million. This includes a 
$8 million reduction in the Ocean Assessment Program (OAP), and an 
increase of $2.9 million for Response and Restoration oil spill 
research. The Ocean Assessment Program includes an increase in funding 
for the Integrated Ocean Observing System (IOOS) Surface Current 
Mapping of $5 million, an increase of $8.5 million for IOOS Regional 
Observations for marine sensor technology innovations. The FY 2012 
budget request includes a $1.2 million increase for the National 
Centers for Coastal Ocean Science (NCCOS), and a decrease of $1.2 
million for energy licensing and appeals. The NOS-PAC accounts are also 
reduced by $9 million. This includes a cut in the Marine Sanctuaries 
Construction ($7.5 million) and a decrease of $2.2 million in the 
acquisition and construction activities of the National Estuarine 
Research Reserve System.

Program Support

    The Program Support line office supports corporate services and 
agency management. This includes the Under Secretary's office, the 
office of the Chief Financial Officer, the Program, Planning and 
Integration Office, and the NOAA Education Program. Overall, the 
Administration requests an increase in the Program Support account of 
$6.2 million, for a total of $301.2 million, a two percent increase 
over the FY 10 level.

Overall FY 2012 Budget Request for EPA

    The President's FY 2012 budget request for the Environmental 
Protection Agency (EPA) is $8.97 billion, a reduction of 12.9 percent 
below FY 2010 levels. The Committee on Science, Space, and Technology 
has jurisdiction over the Science and Technology budget listed in Table 
2 below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


FY 2011 Science & Technology Account: Office of Research and 
                    Development

    The Administration's budget request for S&T is $826 million. This 
includes $584 million for the Office of Research and Development (ORD), 
S&T activities conducted by other program offices (e.g. Office of Air, 
Office of Water), as well as $27 million requested for S&T activities 
associated with the Superfund program. In the past, the Superfund S&T 
funds were drawn primarily from the Superfund trust that was funded by 
the dedicated Superfund tax. Since the expiration of the tax, this fund 
no longer exists and all funds must be appropriated from general 
revenues.
    Approximately 71 percent of S&T funding is for EPA's ORD, which is 
the primary research arm of the agency. Typically, most of the 
remaining S&T funds go to the Office of Air and Radiation, and a 
smaller amount to the Office of Water and to the other program offices.
    ORD conducts and sponsors both fundamental research in 
environmental science and more targeted research to inform EPA's 
regulatory programs. For example, ORD provides scientific information 
to support and implement the Clean Water Act. ORD also develops the 
scientific risk information for the agency's Integrated Risk 
Information System (IRIS), a database of human health effects of 
certain chemicals. This program is used by EPA, individual states, and 
other government agencies to determine hazardous waste site clean-up, 
drinking water, and other health-based standards. ORD develops the 
scientific underpinning for EPA's air quality standards in areas such 
as particulate matter and ozone. ORD also investigates the 
environmental implications of emerging areas such as nanotechnology and 
endocrine disruptors.
    ORD carries out these responsibilities by conducting intramural 
research at EPA's laboratories, awarding contracts, and supporting 
fellowships and research at colleges and universities through the 
Science to Achieve Results (STAR) grant program. The table above 
provides breakouts of ORD funds among the various research programs at 
ORD.
    Within the context of a decrease in funding for EPA as a whole, the 
FY 2012 budget proposes funding for a range of intramural and 
extramural research and development activities.

        <bullet>  $86 million for the STAR Program, a $24.7 million 
        increase over FY 2010 enacted levels, to invest in the next 
        generation of environmental scientists and to leverage wider 
        scientific community expertise on key issues.

        <bullet>  $83.1 million for clean air research and $20.8 
        million for global change research.

        <bullet>  $5.4 million in for research into electronic waste 
        and green chemistry.

        <bullet>  $4.4 million to study the impact of hydraulic 
        fracturing technology on ground water quality and implications 
        for public health and the environment.

        <bullet>  An increase of $17.8 million for Chemical Safety and 
        Sustainability Activities. A budget request of $16.9 million 
        for endocrine disrupting chemicals research and $ 21.2 million 
        for computational toxicology. Both are important for human 
        health and ecological risk assessment.

        <bullet>  $2 million for a long-term lab study

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order. Good morning to everyone. We 
welcome you. This hearing is entitled ``An Overview of the 
Fiscal Year 2012 Research and Development Budget Proposals at 
the National Oceanic and Atmospheric Administration, and the 
Environmental Protection Agency.'' In front of you are packets 
containing the written testimony, biography, and truth in 
testimony disclosure for today's witnesses. Our first panel 
will feature NOAA Administrator Dr. Jane Lubchenco. Our second 
panel will feature EPA Assistant Administrator for the Office 
of Research and Development, Dr. Paul Anastas.
    I recognize myself for an opening statement.
    I want to welcome everyone here today for the hearing on 
the President's fiscal year 2012 budget request for the 
National Oceanic and Atmospheric Administration, that is NOAA, 
and the Environmental Protection Agency, the EPA.
    In the first two months of the year, the President made two 
important praiseworthy announcements. He called for a review of 
the unnecessary regulations, such as those under which the 
benefits don't justify the cost, or those not grounded in sound 
science. Then he announced during his State of the Union speech 
that he would be willing to eliminate whatever spending we can 
honestly afford to do without. The President has followed these 
announcements by proposing a budget with over $1 trillion in 
deficit spending, and pushing a bevy of job-killing 
regulations, without heed to current economic conditions. In 
light of his stated priorities, the President's actions on the 
budget and regulations are appearing to be empty promises.
    The President's fiscal year 2012 budget request for NOAA 
contains few surprises, with several concerns. The 
administration has proposed the largest reorganization in NOAA 
history in order to create a new climate service. As I said at 
last year's budget hearing, I am not supportive of this change 
and am concerned that it has not been properly vetted by 
Congress. I do, however, want to acknowledge to the 
administrator that I appreciate that this proposal was made 
through the budget process this year. This is a regular order 
we were requesting a year ago.
    Nevertheless, this Committee has not yet had the 
opportunity to fully examine the implications of transition in 
the fundamental climate research in the operational office. 
Until then, unless Congress reviews and approves the proposal, 
I don't expect NOAA to continue to operate as it did prior to 
the February 2010 announcement. There should be no changes in 
the existing management matrix, no changes in decision-making 
or reporting lines within the line offices, and no authorities 
changed under the guise of transition.
    Another area of the President's budget that concerns me is 
the proposed increases for the Joint Polar Satellite System. 
This Committee has been engaged in the oversight of this 
program since it was the dysfunctional tri-agency mess subject 
to recertification under Nunn-McCurdy.
    It has been more than a year since the Office of Science 
and Technology Policy proposed splitting this program into two 
elements: one controlled by NOAA and NASA, and a separate one 
controlled by the Department of Defense. In all this time, we 
still have not seen how the division of this program has 
worked, and whether or not it will reduce the risk of a 
potential gap in weather and climate data. Furthermore, we have 
still not seen the baseline cost estimate of these two separate 
programs. I look forward to hearing from the Administration on 
this subject.
    Our second panel, we will hear about EPA's fiscal year 2012 
research and development budget request. We are all well aware 
of the great impact that EPA regulatory actions can have. Often 
overlooked in this debate, however, is agency process and how 
it affects the quality of underlying science that these 
regulations are based on. This is the purview of the Committee 
and an issue I am committed to pursue in further detail.
    For example, since our last EPA budget hearing, more 
information has come to light that the science used to justify 
the finding that carbon dioxide is a danger to public health or 
welfare is not as solid as was originally claimed. The numerous 
admitted mistakes, questionable data sets and lack of 
transparency in the process has only intensified the questions 
and doubts that this decision was made as a result of politics 
instead of science.
    Unfortunately, climate is not the only area in which EPA 
science is a concern. I was very disappointed with the release 
of the draft hydraulic fracturing study. The questions EPA 
posed to answer would hardly be helpful to a decision-maker. 
This study is focused on the impact possibilities of hydraulic 
fracturing on drinking water, without even looking at the 
possibilities of such an impact occurring. It seems about as 
useful as studying the possible impacts of getting hit by a bus 
without ever even considering the probability of such an event 
occurring even when existing laws and simple precautionary 
steps are taken. Accordingly, I look forward to hearing further 
from EPA on the factors driving its hydraulic fracturing study.
    There is a lot of work to be done to put our country back 
on the right track, and the President's budget request is not 
the roadmap that will get us there.
    [The prepared statement of Mr. Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall
    I want to welcome everyone here today for this hearing on the 
President's Fiscal Year 2012 budget request for the National Oceanic 
and Atmospheric Administration (NOAA) and the Environmental Protection 
Agency (EPA).
    In the first two months of the year, the President made two 
important praiseworthy announcements. He called for a review of 
unnecessary regulations, such as those under which the benefits don't 
justify the costs or those not grounded in sound science.
    Then he announced during his State of the Union speech that he 
would be willing to eliminate whatever spending we can honestly afford 
to do without.
    The President has followed those announcements by proposing a 
budget with over a trillion dollars in deficit spending and pushing a 
bevy of job-killing regulations without heed to current economic 
conditions. In light of his stated priorities, the President's actions 
on the budget and regulations are appearing to be empty promises.
    The President's FY 2012 budget request for NOAA contains few 
surprises, but several concerns. The Administration has proposed the 
largest reorganization in NOAA history in order to create a new Climate 
Service. As I said at last year's budget hearing, I am not supportive 
of this change and concerned it has not been properly vetted by 
Congress. I do however want to acknowledge to the Administrator that I 
appreciate that this proposal was made through the budget process this 
year. This is the regular order I was requesting a year ago.
    Nevertheless, this Committee has not yet had the opportunity to 
fully examine the implications of transitioning fundamental climate 
research into an operational office. Until and unless Congress reviews 
and approves this proposal, I expect NOAA to continue to operate as it 
did prior to the February 2010 announcement. There should be no changes 
in the existing management matrix, no changes in decision-making or 
reporting lines within the line offices, and no authorities changed 
under the guise of transition.
    Another area of the President's budget that concerns me is the 
proposed increases for the Joint Polar Satellite System. This Committee 
has been engaged in the oversight of this program since it was a 
dysfunctional, tri-agency mess subject to recertification under Nunn-
McCurdy.
    It has been more than a year since the Office of Science and 
Technology Policy proposed splitting this program into two elements: 
one controlled by NOAA and NASA, and a separate one controlled by the 
Department of Defense. In all this time, we still have not seen how the 
division of this program has worked to reduce the risk of a potential 
gap in weather and climate data. Furthermore, we have still not seen 
the baseline cost estimates of these two separate programs. I look 
forward to hearing from the Administrator on this subject.
    On our second panel, we will hear about EPA's FY 2012 research and 
development budget request. We are all well aware of the great impact 
that EPA regulatory actions can have. Often overlooked in this debate, 
however, is agency process and how it affects the quality of the 
underlying science that these regulations are based on. That is the 
purview of this Committee and an issue I'm committed to pursuing in 
further detail.
    For example, since our last EPA budget hearing, more information 
has come to light that the science used to justify the finding that 
carbon dioxide is a danger to public health or welfare is not as solid 
as was originally claimed. The numerous admitted mistakes, questionable 
data sets and lack of transparency in the process has only intensified 
the questions and doubts that this decision was made as a result of 
politics instead of science.
    Unfortunately, climate is not the only area in which EPA science is 
a concern. I was very disappointed with the release of the draft 
hydraulic fracturing study. The questions EPA posed to answer would 
hardly be helpful to a decision-maker. The study is focused on the 
impact possibilities of hydraulic fracturing on drinking water, without 
ever looking at the probabilities of such an impact occurring. It seems 
about as useful as studying the possible impacts of getting hit by a 
bus without ever considering the probability of such an event occurring 
within existing laws and when simple precautionary steps are taken. 
Accordingly I look forward to hearing further from EPA on the factors 
driving its hydraulic fracturing study.
    There is a lot of work to be done to put our country back on the 
right track, and the President's budget request is not the roadmap that 
will get us there.
    I now recognize Ranking Member Johnson for five minutes for an 
opening statement.

    Chairman Hall. I now recognize the Ranking Member, Mrs. 
Johnson, for five minutes, or whatever time she might require 
on her opening statement.
    I thank you, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Hall, and let me also 
wish to welcome the witnesses, Dr. Lubchenco and Dr. Anastas, 
to the Science, Space, and Technology Committee.
    While the two sides of the aisle might not always agree on 
the appropriate resources and directions for NOAA and EPA, I 
think that we all agree that good policy begins with good 
science.
    Testifying today are two of the Nation's top scientists, 
running two of our premier science agencies. Not only is this 
hearing a venue for Members to ask questions and express 
concerns, it should serve as an opportunity for our witnesses 
to convey the importance of what these agencies do for the 
American people.
    From forecasting the weather and assessing the impacts of a 
changing climate on our economy, to protecting public health by 
ensuring cleaner air and water, and the development of safer 
chemicals, in these and in a host of other ways, NOAA and EPA 
conduct science to benefit our lives every day, in ways often 
too easily overlooked in the fog of partisan politics.
    It is important to note that the unique jurisdiction that 
this Committee has in EPA and acknowledge that with the Office 
of Research and Development and all of the Science and 
Technology activities, EPA is not just a regulatory agency. We 
must not lose sight of the contribution that science activities 
at EPA have provided to the public for decades. Our environment 
does not just get better by itself, it requires all of us 
working together to protect every American's right to clean air 
and water, and a healthier environment.
    We are here today to discuss the President's fiscal year 
2012 budget request for NOAA and EPA. However, it is difficult 
to discuss the outlook for the next fiscal year when we have 
not yet determined funding levels for this current fiscal year 
and assess the full extent of the damage that the lack of a 
fiscal federal budget is causing.
    In these challenging economic times, we need not sacrifice 
everything for the sake of making cuts. With vision and 
perseverance, we can be fiscally responsible while still making 
the necessary investments to keep the American economy 
competitive and our people and environment healthy.
    The President has already made some tough decisions in the 
2012 budget request for these agencies. However, the much 
deeper cuts included in H.R. 1 that passed the House three 
weeks ago would put these and other agencies at risk of failing 
to meet their missions.
    At the least, we must ask ourselves whether the very 
negligible effect these cuts will have on the national deficit 
warrants the devastation it would cause to our core scientific 
programs, their critical workforce, infrastructure, their 
capacity to address natural disasters, and protect public 
health and the environment.
    If cuts on the order of those in House Bill H.R. 1 were 
enacted, thousands of research scientists, graduate students, 
technical and administrative staff, contractors, and other 
support staff across the country would be laid off or 
furloughed; and at a time when we are trying to protect 
American jobs.
    Critical research activities to develop new technologies 
and methods to protect the public from environmental hazards 
and monitor long-term environmental change will be stopped or 
curtailed.
    Weather forecasting systems may fail, creating gaps in 
critical weather data and eroding weather services that every 
American relies on. We would no longer see the two or three day 
advance warnings of extreme events, putting lives, property and 
critical infrastructure at risk.
    These cuts don't take us back to 2008; they will turn the 
clock back and take us back to relying on weather forecasts and 
capabilities, and environmental protection standards from over 
two decades ago.
    America wants us to be fiscally responsible, but if they 
can't breathe clean air, and drink clean water, or help 
communities and industries prepare for harsh weather and 
natural disaster, what does that really mean?
    Dr. Lubchenco and Dr. Anastas, as you testify today, 
perhaps the most important assistance you can give to this 
Committee is a real understanding of how the proposed cuts will 
affect your agency's ability to protect the health and well-
being of our citizens and communities, and why you believe the 
President's request will move our Nation science enterprise in 
the right direction.
    Chairman Hall and all the Members of this Committee, I look 
forward to working with you in the months ahead, and I look 
forward to hearing our witnesses.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Chairman Hall. I also wish to welcome the witnesses, Dr. 
Lubchenco, and later, Dr. Anastas, to the Science, Space, and 
Technology Committee.
    While the two sides of the aisle might not always agree on the 
appropriate resources and directions for KOAA and EPA, I think that we 
would all agree that good policy begins with good science. Testifying 
today are two of the nation's top scientists running two of our premier 
science agencies. Not only is this hearing a venue for Members to ask 
questions and express concerns, it should serve as an opportunity for 
our witnesses to convey the importance of what these agencies do for 
the American people.
    From forecasting the weather and assessing the impacts of a 
changing climate on our economy, to protecting public health by 
ensuring cleaner and water and the development of safer chemicals--in 
these and a host of other ways, NOAA and EPA conduct science to benefit 
our lives every day, and in ways often too easily overlooked in the fog 
of partisan politics.
    It is important to note the unique jurisdiction that this Committee 
has in EPA and acknowledge that, with the Office of Research and 
Development and all of the Science and Technology activities, EPA is 
not just a regulatory agency. We must not lose sight of the 
contribution that science activities at EPA have provided to the public 
for decades. Our environment does not just get better by itself; it 
requires all of us working together to protect every America's right to 
clean air and water and a healthier environment.
    We are here today to discuss the President's fiscal year 2012 
budget request for KOAA and EPA. However, it is difficult to discuss 
the outlook for the next fiscal year when we have yet to determine 
funding levels for this current fiscal year and assess the full extent 
of the damage that the lack of a final budget is causing.
    In these challenging economic times we need not sacrifice 
everything for the sake of making cuts. With vision and perseverance, 
we can be fiscally responsible while still making me necessary 
investments to keep the American economy competitive and our people and 
environment healthy.
    The President has already made some tough decisions in the 2012 
budget request for these agencies. However, the much deeper cuts 
included in H.R.l that passed the House three weeks ago would put these 
and other agencies at risk of failing to meet their missions.
    At the least we must ask ourselves whether the very negligible 
effect these cuts will have on the national deficit warrants the 
devastation it will cause to our core scientific programs, their 
critical workforce and infrastructure, and their capacity to address 
natural disasters and protect public health and the environment.
    If cuts on the order of those in the House-passed H.R.1 were 
enacted:

        <bullet>  Thousands of research scientists, graduate students, 
        technical and administrative staff, contractors, and other 
        support staff across the country will be laid-off or 
        furloughed, and at a time when we are trying to protect 
        American jobs.

        <bullet>  Critical research activities to develop new 
        technologies and methods to protect the public from 
        environmental hazards, and monitor long-term environmental 
        change will be stopped or curtailed.

        <bullet>  Weather forecasting systems may fail, creating gaps 
        in critical weather data and eroding weather services that 
        every American relies on. We would no longer see the 2-3 day 
        advance warnings of extreme events, putting lives, property, 
        and critical infrastructure at risk.

    These cuts don't just take us back to 2008; they will turn back the 
clock and take us back to relying on the weather forecasting 
capabilities and environmental protection standards from over two 
decades ago.
    Americans want us to be fiscally responsible. But if they can't 
breathe clean air and drink clean water, or help communities and 
industries prepare for harsh weather and natural disasters, what does 
that mean?
    Dr. Lubchenco and Dr. Anastas, as you testify today, perhaps the 
most important assistance you can give to this Committee is a real 
understanding of how the proposed cuts will affect your agencies' 
ability to protect the health and well-being of our citizens and 
communities, and why you believe the President's request will move our 
nation's science enterprise in the right direction.
    Chairman Hall and all of the Members of this Committee, I look 
forward to working with you in the months ahead.

    Chairman Hall. Thank you, Ms. Johnson. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    Let me say, we are going to try to stay with the five 
minute rule. It is not fair to those at the end. Mr. Sarbanes, 
for example, has stayed, I think, 2-1/2 hours and didn't get to 
ask a question last time. I am inclined to give him my time, he 
is so patient, or give him the award for patience here. Nobel 
Prize for patience.
    I will introduce the first panel witness, and ask the 
witnesses to be as direct as you can. Please do your best to 
stay with the five minutes, but if you can't, we are honored to 
have you here and we will be lenient with the gavel.
    At this time, I would like to introduce our first panel 
witness, Dr. Jane Lubchenco. I hope I am saying that right. 
People mispronounce Hall every now and then, put an ``e'' in it 
where there is an ``a'', but I don't like that.
    Prior to her service as Administrator at NOAA, she served 
as President of the American Society for the Advancement of 
Science, a professor at Harvard and Oregon State University, 
and she was also on the Board of Directors for the National 
Science Foundation. She was sworn in on March 20, 2009, and 
this is the third time she has appeared before the Committee. 
We thank you for being here.
    As our witnesses should know, spoken testimony is limited 
to five minutes, after which the Members of the Committee will 
have five minutes each to ask questions. Before I recognize Dr. 
Lubchenco, I want to ask you to please do your best to stay 
within that. Thank you.
    We recognize you now, ma'am.

   STATEMENT OF DR. JANE LUBCHENCO, ADMINISTRATOR, NATIONAL 
             ATMOSPHERIC AND OCEANIC ADMINISTRATION

    Dr. Lubchenco. Thank you very much, Mr. Chairman.
    Members of the Committee, Chairman Hall, I greatly 
appreciate your leadership and your support for NOAA. As you 
know, we are one of the Nation's premier environmental science 
and stewardship agencies. Your continued support for our 
program is appreciated as we work within the Department of 
Commerce to improve science, products, and services that are 
vital to supporting America's businesses, communities, and 
people. At NOAA, our work is everyone's business.
    I am honored to be here today to discuss the President's 
fiscal year 2012 budget request, which promotes innovation in 
American competitiveness, and lays the foundation for long-term 
economic growth, while making responsible reductions.
    The budget recognizes the central role that science and 
technology play in creating jobs and improving the health and 
security of Americans. I wish in my oral remarks to highlight 
five lynchpins of our fiscal year 2012 request: key savings, 
climate services, research and innovation, weather, and 
satellites.
    Savings highlights. As part of the Administration's 
Administrative Efficiency Initiative, NOAA analyzed its 
administrative costs and reduced non-essential spending by 
$67.7 million. We conducted a rigorous review of our programs 
and activities and identified additional savings. The 2012 
request is $5.5 billion dollars, a decrease from fiscal year 
2011 request, an increase above fiscal year 2010 enacted, due 
primarily to our requirements to execute the restructured civil 
polar satellite program.
    The fiscal year 2012 request includes a proposed budget-
neutral reorganization that brings together NOAA's existing but 
widely dispersed climate capabilities under a single line 
office management structure, called the Climate Service.
    The Climate Service, if approved by Congress, would have a 
budget of $346 million. A key point to keep in mind is that 
many people think of climate as something that is far down the 
road, something way in the future. However, the word 
``climate'' generally refers to long-term weather, 
specifically, anything longer than two weeks. People are 
anxious to have information to plan for the months and years 
ahead, and we believe the Climate Service can assist in a 
meaningful fashion.
    The proposed reorganization would also strengthen world 
class fundamental science for which NOAA is justly known. This 
Committee has repeatedly said that this goal is important to 
you. It is equally important to NOAA and to me. Without 
continued advances in basic science that supports our mission, 
the quality of our services will degrade.
    The climate services we provide demonstrate the intuity of 
continually improving our scientific capacity. For example, 
through collaboration with the National Association of 
Homebuilders and HUD, NOAA developed an air freezing index that 
the homebuilding industry estimates saves $300 million annually 
in construction costs, and the equivalent of nine million 
gallons of gasoline. Advances in science make it possible for 
us to provide useful information about the months to year 
timeframe, something that has the potential to be of immense 
utility to businesses, communities, and military operations.
    Parallel to creating the Climate Service, NOAA would 
strengthen and realign its core research line office. The 
Office of Oceanic and Atmospheric Research will focus its work 
to be the innovator and incubator of new science technologies 
and application within NOAA, and an integrator of science and 
technology across all of NOAA, consistent with the President's 
call for science and innovation.
    NOAA'S request includes $212 million to continue 
strengthening core capacities such as our understanding of 
ocean acidification and its impacts, and promoting conservation 
and use of America's coastal resources to our renowned Sea 
Grant Program.
    The National Weather Service provides critical information 
to communities and emergency managers, and it is the Nation's 
first line of defense against severe weather. The fiscal year 
2012 request for the Service is $988 million. This includes a 
$26.9 million increase to modernize our aviation weather 
forecasts and warnings to support NextGen developmental 
activities.
    NOAA's satellites provide the data and information for 
forecasters that are vital to every citizen. They enable smart 
construction in emergency rescue missions, safe transportation, 
whether it is on land, water, or in the oceans and Great Lakes. 
The fiscal year 2012 budget request for the satellite service 
is $2 billion, which we will invest in multiple satellite 
acquisition programs for the continuity of critical weather, 
climate, and oceanographic data. This includes an increase of 
$687 million for the Joint Polar Satellite System. This program 
is essential if we are to maintain the quality of our severe 
storm warnings, provide long-term forecasts, and receive 
emergency distress signals in a timely fashion.
    In closing, Mr. Chairman, I would like to note that I am 
holding a nickel in my hand here. I believe that this nickel 
represents one of the best bargains I know of. It costs 
Americans--each American less than 5 cents a day to run NOAA, 
and for this nickel, you get the best weather information in 
the world. This nickel means that our oceans and coasts are 
healthy and vibrant, and in turn, our coastal communities are 
more prosperous. This nickel gives mariners the confidence that 
their distress signals will be received. This nickel allows us 
to save lives and property when severe storms strike. This 
nickel helps business owners succeed: from the farmers in the 
Heartland, to fishermen on the coasts, and everyone in between. 
This nickel helps keep our homeland secure. At NOAA, our work 
is everyone's business. We take our work seriously because we 
know that citizens and businesses depend upon us each and every 
day.
    I look forward to working with Members of the Committee and 
our constituents to achieve these goals I have laid out through 
the implementation of the 2012 budget, and I am happy to 
respond to any questions that the Committee might have.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Lubchenco follows:]
   Prepared Statement by Dr. Jane Lubchenco, Administrator, National 
                 Atmospheric and Oceanic Administration
    Chairman Hall and Members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the support 
you have shown the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA), one of the Nation's premier 
environmental science and stewardship agencies. Your continued support 
for our programs is appreciated as we work to improve the products and 
services that are vital to supporting America's businesses, 
communities, and people. I am honored to be here as the Under Secretary 
of Commerce for Oceans and Atmosphere at NOAA to discuss the 
President's FY 2012 budget.
    Secretary Locke is singularly focused on how the Department of 
Commerce can help American businesses compete for the jobs of the 
future. As part of the Commerce Department, NOAA generates value for 
the Nation by providing the information and services that communities, 
managers, businesses, and individuals rely on every day to make 
decisions about their lives and businesses. NOAA touches the lives of 
every single American; we work 24/7 to keep families safe, property 
protected, living marine resources vibrant, communities thriving, and 
businesses strong. NOAA works everywhere, in every state, and from the 
surface of the sun to the depths of the ocean. Our research informs our 
many services and science guides our stewardship of the oceans, coasts, 
and Great Lakes.
    The President's FY 2012 budget request promotes innovation and 
American competitiveness and lays the foundation for long-term economic 
growth, while making responsible reductions. In particular, the budget 
recognizes the central role that science and technology play in 
stimulating the economy, creating new jobs, and improving the health 
and security of Americans.

FY 2012 BUDGET REQUEST AND FY 2010 HIGHLIGHTS

    Secretary Locke has brought a dedicated focus on efficiency and 
good management to the Department of Commerce. As part of the 
Administration's Administrative Efficiency Initiative, an aggressive 
government-wide effort to curb non-essential administrative spending, 
NOAA analyzed its administrative costs and reduced non-essential 
spending by $67.7 million. Beyond administrative savings, NOAA engaged 
in a rigorous review of its programs and activities and identified 
additional savings that were achievable. For example, we were able to 
reduce the cost of operating our current satellite programs, and we 
restructured our international portfolio of climate research. Further, 
as a member of the newly established Gulf Coast Ecosystem Restoration 
Task Force we are working with federal and state agencies to find 
efficiencies, improve coordination and accountability in restoring Gulf 
Coast ecosystems.
    In short, the FY 2012 budget for NOAA reflects our efforts to focus 
on program needs, identify efficiencies, and ensure accountability. It 
sustains core functions and services, and proposes increases for only 
the most critical programs, projects, or activities necessary to 
address the growing demand for NOAA's science, services, and 
stewardship. The FY 2012 request is $5.5 billion, which is a decrease 
from the FY 2011 request. The FY 2012 request is an increase above FY 
2010 enacted due primarily to our requirements to execute the 
restructured civil polar satellite program. As I will discuss later, 
this new generation of satellites is needed to replace satellites that 
will go out of service in the years to come. They are essential for 
both routine weather forecasts on which the private weather industry 
depends, and for storm warnings and watches that only the government 
can issue. The expenditures on satellites are mission critical for 
NOAA. People's lives and property depend on them. This year 21 people 
have been rescued because of NOAA satellite tracking, and 91 have been 
rescued since last October. Beyond weather forecasts, fishermen and 
recreational boaters count on NOAA satellites to keep them safe in the 
event of an emergency at sea.
    The FY 2012 NOAA budget recognizes that environmental and economic 
sustainability go hand in hand. We learned through the BP Deepwater 
Horizon oil spill and other events that we cannot have healthy 
economies without healthy communities and healthy ecosystems and that 
good science and stewardship is good business. NOAA's 2012 budget makes 
the investments needed to save lives and livelihoods, to understand 
these critical connections, and to ensure sustainable communities, 
economies, and ecosystems.
    Now I will turn to the details of the FY 2012 budget request and 
outline areas of significant investment.

Climate Service

    The FY 2012 budget request includes a proposed budget-neutral 
reorganization that brings together NOAA's existing widely dispersed 
climate capabilities under a single line office management structure 
called the Climate Service. The proposed organization mirrors the 
structure recommended by the National Academy of Public Administration 
expert panel that, at Congress' request, completed a study on options 
for a climate service in NOAA. The principal goal of this budget-
neutral reorganization is to better align NOAA's existing assets under 
a unified leadership to more efficiently and effectively respond to the 
rapidly increasing public demand for climate services. The Climate 
Service would provide reliable and authoritative climate data, 
information, and decision-support services, and to more effectively 
coordinate with other agencies, partners, and the private sector. And--
important to this Committee and to me--the proposed structure would 
strengthen the world-class science for which NOAA is justly known. 
Without continued advances in the science that supports our mission, 
the utility of services will degrade with time. Hence, the success of 
this organization requires attention to strengthening our core science 
capacity, strengthening the service-provision capacity and 
strengthening the connections between the two.
    NOAA is continually improving our scientific and technological 
capacity to develop and deliver a range of science and services. For 
example, NOAA's improved maximum precipitation predictions have been 
used to develop new standards for dam design that are being implemented 
around the Nation to improve dam safety and reliability. Similarly, 
through collaboration with the National Association of Home Builders 
and the Department of Housing and Urban Development, NOAA developed an 
Air Freezing Index that the home building industry estimates saves $300 
million annually in construction costs and the equivalent of 9 million 
gallons of gasoline.
    The budget-neutral realignment of resources within the current NOAA 
budget would not change staffing levels, would not require employee 
relocations, physical relocation of programs or labs, any new 
facilities, and would not increase the size of NOAA's overhead. The 
Climate Service headquarters would be located in Silver Spring, 
Maryland.
    The NOAA Climate Service, if approved by Congress, would have a 
budget of $346.2 million. Of this amount, NOAA proposes $3.0 million to 
support the Regional Climate Centers (RCC) in FY 2012. This funding 
will maintain support for RCCs as critical NOAA partners in the 
development and delivery of regional climate services. The RCCs will be 
aligned with the six NOAA Climate Service Regions and fully integrated 
as core components of NOAA's regional climate services partnership. 
Each center will function as a source of expertise in the region, 
working to identify stakeholder needs and matching these needs with the 
emerging science and decision support services flowing from the Climate 
Service's core capabilities. For example, this work could improve 
products for farmers, who already rely on NOAA climate data, 
particularly in El Nino/Southern Oscillation years, to make smart 
decisions about what variety of seed to plant and the amount of 
fertilizer to use. These types of forecasts can potentially provide a 
$500-$960 million per year benefit to the U.S. agriculture industry.

National Weather Service (NWS)

    NOAA's National Weather Service (NWS) is the Nation's first line of 
defense against severe weather. NOAA provides weather, hydrologic, and 
climate forecasts and warnings for the United States, its territories, 
and adjacent waters for the protection of life and property and the 
enhancement of the national economy. More sectors of the U.S. economy 
are recognizing the impacts of weather, water, and climate on their 
operations and are becoming more sophisticated at using weather-related 
information to make better decisions. The NWS provides critical 
information to communities and emergency managers. In 2010, the United 
States experienced a number of extreme weather events including the 
historic winter blizzards in the Northeast early in the year, historic 
flooding in the Midwest and Tennessee, and the third most active 
Atlantic hurricane season on record.
    The FY 2012 request for NWS is $988 million. The request envisions 
using cost-cutting and cutting-edge technologies to better support the 
programs necessary to achieve NOAA's vision of delivering more reliable 
forecasts, reducing weather-related fatalities, and improving the 
economic value of weather, water, and climate information.
    Weather-related air traffic delays cost the U.S. economy over $41 
billion in 2007, according to the Congressional Joint Economic 
Committee. Two thirds of these delays could be avoided with more 
accurate and better-integrated weather information for decision-making. 
To meet the rising demands of the air transportation industry, NOAA is 
involved in a collaborative partnership with the Federal Aviation 
Administration (FAA) and other Federal agencies to create the Next 
Generation Air Transportation System (NextGen). NOAA requests a $26.9 
million increase to modernize our aviation weather forecasts and 
warnings. This funding supports NextGen development activities, 
allowing for better integration of weather information into decision-
making solutions for the FAA--potentially reducing the number of air 
delays.
    Wind shear is hazardous to aviation and critical to hurricane 
formation and intensity. The Nation's upper air (UA) network enables 
unmatched ability to detect this wind shear and enables much improved 
ability to define the jet stream core by providing approximately 78,000 
atmospheric profiles (wind, humidity, temperature, pressure and 
altitude) per year from ground level to up to 60,000 feet. To improve 
the UA network, NOAA requests a $5 million increase for new GPS 
radiosondes to provide a 50 percent improvement in wind measurement 
accuracy and a 6-fold improvement in vertical resolution. With this 
investment, NOAA will fully fund the purchase of GPS radiosondes for 
all 102 UA observing stations, ensuring improvements to weather models.
    Large maritime data voids exist where no meteorological or 
oceanographic data are routinely sampled due to poorly maintained 
buoys. This lack of data makes it difficult for forecasters to make 
accurate and timely marine warnings and forecasts and to measure the 
accuracy of their forecasts. NOAA currently operates 101 moored weather 
observation buoys and 49 coastal marine automated network stations. 
However, over the last eight years, system performance has trended 
downward to the current low of 67 percent data availability as of 
February 2011. This trend will continue downward to 65 percent data 
availability by 2011 without increased support. NOAA requests a $4 
million increase to provide operations and maintenance funding for 
damaged and destroyed buoys and to comply with new international 
regulations. Funds will also be used to begin reducing the backlog of 
deferred maintenance by employing charter vessels to supplement the 
diminishing availability of U.S. Coast Guard ship time for servicing 
the weather buoy network.
    Finally, the underpinning of NOAA's products and services mentioned 
previously is the model-based guidance of NOAA's operational high 
performance computing (HPC). HPC provides models and model-based 
estimates of both current and future states of the Earth's environment, 
which are a key component of modern weather forecasts. NOAA requests an 
$11 million increase towards transitioning NOAA's HPC to a new 
contract, as well as continuing regular improvements to our numerical 
weather prediction modeling.

National Environmental Satellite Service (NESS)

    NOAA's satellites provide the data and information for forecasts 
that are vital to every citizen in our Nation. From safe air, land, and 
marine transportation to construction and emergency rescue missions, we 
all use satellite products in our everyday lives. In FY 2010, our 
satellite program saw a major milestone accomplished with the launch of 
Geostationary Orbiting Environmental Satellite (GOES)-15, the final 
spacecraft in the latest series. GOES-15 joined three other GOES 
spacecraft in assisting the Agency's forecasters to more accurately 
track life-threatening weather from tornadoes, floods, and hurricanes 
to solar activity that can impact satellite-based electronics, 
communications, and power industries. In FY 2010, NOAA satellites also 
provided key support in the rescue of 281 people throughout and near 
the United States by providing their location to emergency responders.
    The proposed reorganization would also affect some programs within 
the National Environmental Satellite, Data, and Information Service 
(NESDIS), which would be renamed the National Environmental Satellite 
Service (NESS), as all three of its Data Centers would be transferred 
to the Climate Service. The FY 2012 budget request for NESS is $2 
billion, which we will invest in multiple satellite acquisition 
programs for the continuity of critical weather, climate, and 
oceanographic data. NOAA requests an increase of $687.8M for the Joint 
Polar Satellite System (JPSS), which is NOAA's responsibility under the 
former National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) program. Polar satellites provide critical weather 
forecasting for the $700 billion maritime commerce sector and provide a 
value of hundreds of millions of dollars to the fishing industry. The 
satellites save approximately $200 million each year for the aviation 
industry in ash forecasting alone and provide drought forecasts worth 
$6-8 billion to farming, transportation, tourism and energy sectors. 
Both civilian and military users will use JPSS data and products, which 
will continue to fulfill NOAA's requirements to provide global 
environmental data used in numerical weather prediction models for 
forecasts. On behalf of NOAA, the National Aeronautics and Space 
Administration (NASA) will serve as the lead acquisition agent for 
JPSS, which supports the afternoon mission requirements. The Department 
of Defense will continue the acquisition of early morning orbit assets. 
NOAA is committed to working with our partners to complete the 
transition from the NPOESS program and to assure the continuity of 
Earth observations from space.
    The GOES-R series satellites will provide critical weather 
observations for severe weather events, such as hurricanes, and also 
provide key enhancements in observational capabilities for climate, 
oceans and coasts, and the space environment. This program is the next-
generation of geostationary satellites and provides mission continuity 
through 2036. NOAA continues to support the GOES-R program with a re-
phasing, taking us from a two-satellite program to a four-satellite 
program with the addition of two optional satellites (GOES-T&U), while 
still providing continued satellite engineering development and 
production activities for GOES-R and GOES-S.
    An uninterrupted climate record is critical to understanding global 
sea level rise, which directly threatens coastal communities and 
ecosystems through increased exposure and erosion, more intense storm-
surge and tidal flooding, and loss of natural habitat due to drowned 
wetlands. Therefore, NOAA is requesting an additional $33.0 million to 
continue development of the Jason-3 satellite, which will provide 
continuity of sea surface height measurements, ensuring an 
uninterrupted climate record of over 20 years. The Jason-3 mission is a 
joint U.S.-European funded partnership. NOAA requests an $11.3 million 
increase to partner with the Taiwan National Space Organization for the 
launch of 12 satellites to replenish and upgrade the Constellation 
Observing System for Meteorology, Ionosphere, and Climate (COSMIC) 
satellite constellation. This program is a cost effective means of 
obtaining information about temperature and moisture in the atmosphere 
around the globe, which will improve forecasting accuracy.
    In addition, a requested increase of $47.3 million will support, in 
cooperation with NASA, refurbishing the existing NASA Deep Space 
Climate Observatory (DSCOVR) satellite and its solar wind sensors and 
developing a Coronal Mass Ejection Imager. The data and information 
provided by DSCOVR will support the operations of the Space Weather 
Prediction Center, which generates accurate and timely 1 to 4 day space 
weather forecasts and warnings. Space observations of geomagnetic 
storms are vital to reduce negative effects to power grids, GPS, 
telecommunications, the health and safety of astronauts, and the 
viability of satellite systems.

Oceanic and Atmospheric Research (OAR)

    The major change as a result of the proposed reorganization to 
create a Climate Service (described above) is that NOAA would also 
strategically realign its existing core research line office, the 
Office of Oceanic and Atmospheric Research (OAR), to strengthen the 
agency's overall science enterprise and advance the atmospheric and 
ocean, coastal, and Great Lakes research and applied science goals 
expressed in the America COMPETES Reauthorization Act of 2010. OAR will 
refocus its work to serve as an innovator and incubator of new science, 
technologies, and applications, and an integrator of science and 
technology across all of NOAA.
    NOAA is committed to strengthening and integrating NOAA's science 
enterprise consistent with the President's call for science and 
innovation. NOAA's request includes $212 million for OAR to continue 
strengthening core capabilities, such as improving our understanding of 
ocean acidification and its impacts, and promoting conservation and use 
of America's coastal resources through our renowned Sea Grant Program, 
one of our many direct links to universities, citizens, and communities 
around the Nation. NOAA will also invest in the future by supporting 
innovation in weather forecasting science that can inform clean, 
renewable energy generation, which is related to an MOU with the 
Department of Energy. In FY 2012, NOAA requests $2 million to support 
research in targeted wind resource regions across the Nation. Funding 
will advance weather forecast accuracy and quality to allow for more 
efficient implementation of wind power usage in the United States.
    Another core capability at NOAA is exploration. The NOAA Ship 
Okeanos Explorer is among the most technologically advanced research 
vessels and platforms for ocean exploration in the United States. In FY 
2012, NOAA is requesting an additional $1.5 million to advance the 
operations of the Okeanos Explorer with the operation of telepresence 
technology, which enables scientists, educators, and others to 
participate and lead ocean exploration missions from remote shore-based 
Exploration Command Centers; to operate and upgrade the ship's 
autonomous and remotely-operated vehicles; provide additional 
scientific days at sea; and reduce our huge knowledge gap of what lies 
in the deep ocean.

National Marine Fisheries Service (NMFS)

    NMFS conserves, protects, and manages living marine resources to 
sustain marine ecosystems, affords economic opportunities, and enhances 
the public's quality of life. Rebuilding our Nation's fisheries is 
essential to preserving the livelihoods of fishermen and related 
industries. In 2008, U.S. commercial and saltwater recreational 
fisheries supported 1.9 million full- and part-time jobs and generated 
$163 billion in sales impacts.\1\ In FY 2012, NOAA requests $1.001 
billion to support fisheries and protected resource management to 
ensure an optimal balance between conservation objectives and economic 
opportunities.
---------------------------------------------------------------------------
    \1\ Fisheries Economics of the United States, 2008: http: //
www.st.nmfs.noaa.gov/st5/publication/
fisheries<INF>-</INF>economics<INF>-</INF>2008.html
---------------------------------------------------------------------------
    NOAA is making important strides to end overfishing, improve 
fishery management, and put fisheries on a path to sustainability. 
Working with the Regional Fishery Management Councils, in FY 2010, four 
fisheries stocks were rebuilt. Based on estimates, rebuilding U.S. 
fisheries would increase the current dockside value by an estimated 
$2.2 billion (54 percent) annually from $4.1 billion to $6.3 billion 
annually. In FY 2012, NOAA will continue to maximize the potential of 
the Nation's most economically important fish stocks through sound 
science and management. NOAA will invest $67 million to expand annual 
stock assessments to continue to ensure Annual Catch Limits (ACL) are 
based on the best available science. ACLs and accountability measures 
(AM) are required under the 2007 reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act for all non-exempt fish 
stocks, including overfished stocks, by the end of 2011 to end 
overfishing. This investment will help verify that NOAA successfully 
ended overfishing ensuring ACLs are set at the most optimal level 
possible so that the return for fishermen is maximized while 
maintaining the health of the resource.
    NOAA will invest $3 million to improve the timeliness and quality 
of catch monitoring in recreational fisheries to ensure recreational 
fisheries are not unnecessarily restricted due to a lack of data. This 
is part of a broader effort to work more closely with the recreational 
fishing community.
    In addition to sound science, robust management strategies are 
vital to sustainable fisheries. In 2010, NOAA released the National 
Catch Share Policy, and we will continue to support consideration of 
catch share management by the Councils. Catch share programs, which 
include limited access privilege programs and individual fishing 
quotas, dedicate a secure share of fish to individual fishermen, 
cooperatives, or fishing communities. In the United States, catch 
shares are currently successfully implemented in 15 fisheries from 
Alaska to Florida, and local Fisheries Management Councils are in the 
process of developing them in several additional fisheries. Catch share 
programs are difficult and sometimes controversial to implement, and we 
recognize that some in Congress are concerned about them. But they have 
yielded significant financial and ecological benefits to the fisheries 
that utilize this system. Both here and in other countries, catch 
shares help to eliminate overfishing and achieve annual catch limits, 
improve fishermen's safety and profits, and reduce the negative 
biological and economic effects of the traditional ``race for fish.'' 
This budget includes $54 million to support the voluntary establishment 
of catch share programs by those Councils that want to utilize this 
tool to achieve the Magnuson-Stevens Act requirements. We want to 
support those Councils that believe that catch shares are the way to 
better manage their fisheries but need assistance in designing and 
implementing them.
    In addition to fisheries, NOAA manages protected resources, such as 
marine mammals and turtles. This requires balancing conservation 
objectives and economic opportunities, including commercial fishing 
activities and energy development. Investments in priority research in 
recovery actions are required to mitigate harm and maximize economic 
potential. In FY 2012, NOAA will invest an additional $2.5 million 
dollars to increase NOAA's capacity for protected species stock 
assessments that provide the foundation of information for decision 
makers. We will continue supporting the Species Recovery Grants Program 
with a requested $8.0 million increase to provide grants to states and 
tribes to conduct priority recovery actions for threatened and 
endangered species, including restoring habitat, monitoring population 
trends, developing conservation plans, and educating the public.
    Managing fisheries and protected species to their full biological 
and economic potential requires additional efforts focused on 
maintaining habitat and ecosystem functioning. NOAA requests $24 
million for the Community Based Restoration Program, including a new $5 
million effort to address larger restoration projects. NOAA plans to 
increase fish passage, spawning, and rearing habitat by implementing 
large-scale ecological restoration in targeted areas such as wetlands. 
To support the restoration and protection of the Chesapeake Bay, we 
request a $5 million increase for regional studies in the Bay. NOAA 
supports the President's Executive Order to restore the Chesapeake Bay 
by providing enhanced understanding of the relationships between the 
Bay's living resources and habitat, coordinating protection and 
restoration of key species and habitats across jurisdictional lines, 
and supporting a coordinated system of monitoring platforms distributed 
across the Bay.

National Ocean Service (NOS)

    In July 2010, President Obama signed Executive Order Number 13547 
that adopted the Final Recommendations of the Interagency Ocean Policy 
Task Force and established the National Policy for the Stewardship of 
the Oceans, Coasts, and the Great Lakes--reinforcing the notion that 
``healthy oceans matter.'' NOS supports this policy by translating 
science, tools, and services into action to address coastal threats 
such as climate change, population growth, port congestion, and 
contaminants in the environment. A pivotal event in 2010 was the 
explosion of the BP Deepwater Horizon oil rig on April 20. Within 
hours, NOAA responded, providing targeted weather forecasts and oil 
spill trajectory maps and mobilizing personnel and assets to respond to 
what evolved into the largest oil spill in U.S. history. The Office of 
Response and Restoration (OR&R) played a critical role in our response 
and is leading our efforts to assess damage caused by the event. Over 
half of the U.S. Gross Domestic Product is generated in coastal 
counties,\2\ and it is expected that the Nation's coastal population 
will grow to more than 11 million by 2015 so NOS' services will become 
more vital to the coastal environment and economy.\3\ Increasing 
population density, growing economies, and increased vulnerability to 
damages from hazards such as sea level rise or storms, habitat loss, 
and other threats makes the task of managing coastal resources more 
difficult. The President's FY 2012 Budget includes $559.6 million to 
enable NOAA to continue delivering a dynamic range of nationwide 
coastal and Great Lakes scientific, technical, and resource management 
services to meet the vision of being a Nation with safe, healthy, 
resilient, and productive oceans and coasts.
---------------------------------------------------------------------------
    \2\ Kildow, J. T., C. S. Colgan, and J. Scorse. 2009. State of the 
U.S. Ocean and Coastal Economies 2009. National Ocean Economic Program.
    \3\ Population Trends Along the Coastal United States: 1980-2008, 
NOAA 2004
---------------------------------------------------------------------------
    Human uses of ocean resources (e.g., ocean-based energy, marine 
aquaculture, commercial and recreational fishery products, shipping and 
navigation services, and other activities) need to be managed 
holistically. In FY 2012, NOAA requests $6.8 million to develop an 
agency-wide capability to conduct and support Coastal and Marine 
Spatial Planning (CMSP) in U.S. waters. CMSP will help us manage ocean 
resources in a systematic way by evaluating competing ocean uses, 
assessing opportunities and potential cumulative impacts, and working 
with industry, state and local decision makers and other stakeholders, 
to explicitly make trade-off decisions. CMSP is designed to focus on up 
front planning. There are no regulations involved. It does not add 
another layer of government but is designed to be more efficient, 
effective, and reduce redundancies in decision making. With the new 
Ocean Policy we are already witnessing efficiencies in our mapping and 
data collection across the Federal government, with data and 
information from the Departments of Defense and the Interior, and from 
Coast Guard, being integrated into a common database, which will be 
available to the public in the future.
    The Final Recommendations of the Interagency Ocean Policy Task 
Force include a framework for implementing CMSP across the United 
States in a manner that respects regional variation of issues and 
priorities. This initiative will significantly advance the Nation's 
capability to effectively and transparently match competing human uses 
to appropriate ocean areas. To further support CMSP and regional ocean 
governance, NOAA requests $20 million to establish a competitive grants 
program that will support regional ocean partnerships, such as the Gulf 
of Mexico Alliance, South Atlantic Governor's Alliance, and the West 
Coast Governor's Agreement on Ocean Health that are vital for advancing 
effective ocean management. In addition, a proposed increase of $1 
million in our mapping program will significantly improve the 
accessibility of integrated ocean and coastal mapping data.
    The BP Deepwater Horizon oil spill is a stark reminder that spills 
of national significance can occur despite the many safeguards and 
improvements that have been put into place since the Oil Pollution Act 
of 1990 was enacted. The risk of oil spills remains a concern given 
increases in marine transportation, pressures to develop domestic areas 
for drilling offshore, aging infrastructure susceptible to sea level 
rise and violent storms in U.S. coastal areas, and opening the Arctic 
to both shipping and oil development. NOAA's OR&R is the lead trustee 
for the public's coastal natural resources and an international 
scientific leader for oil spill response, assessment, and restoration. 
NOAA requests $2.9 million to develop an oil spill research and 
development program within OR&R to advance response technologies and 
capabilities, especially in deep water and Arctic environments. With 
this funding, NOAA will support external grants for essential research 
to provide useful information, methods, and tools for planners, oil 
spill responders, and assessment practitioners. Also in support of oil 
spill response, NOAA requests a $5.0 million increase to implement the 
U.S. Integrated Ocean Observing System (IOOS) Surface Current Mapping 
Plan using high frequency (HF) radar surface current measurements. HF 
radar provides information vital to oil spill response, national 
defense, homeland security, search and rescue operations, safe marine 
transportation, water quality and pollutant tracking, and harmful algal 
bloom forecasting.
    The BP Deepwater Horizon oil spill made it apparent that the 
economic and social well being of our coastal communities depends on 
the environmental suitability of our coastal resources. Numerous 
coastal communities, not only in the Gulf but all along our coasts, are 
being impacted by the loss of fishing opportunities. In FY 2012, NOAA 
requests $8 million to create a National Working Waterfronts grant 
program to assist fishing-dependent coastal communities. These grants 
will assist distressed or at-risk fishing communities by providing 
resources for planning, capacity building, and other activities to 
support economic diversity, resource conservation, and economic capital 
growth.

Program Support

    To deliver sound science and services, NOAA must continue to invest 
in its information technology (IT) infrastructure, the maintenance and 
construction of NOAA facilities, and the specialized aircraft and ships 
that complete NOAA's environmental and scientific missions. A requested 
$9.1 million increase will reduce the risk of cyber attacks by 
enhancing security monitoring and response capabilities and consolidate 
our IT infrastructure into a single enterprise network. This budget 
includes an additional $10 million to support major restoration and 
modernization projects to address critical facility condition 
deficiencies and to improve safety and operating conditions in support 
of NOAA's mission. The FY 2012 request ensures that NOAA's fleet of 
vessels is able to provide reliable, compliant, and high-quality ship 
support to NOAA programs through several increases. For example, $3.4 
million is requested to support environmental compliance costs, 
including ensuring that NOAA ships are not contributing to water 
quality degradation. Efforts to extend and maintain the life of the 
NOAA ships will be supported through an $11.6 million increase for 
repair periods.
    Also critical to the execution of NOAA's mission is our investment 
in the future. Students in K-12 we support today become our workforce 
of the future; undergraduate and graduate fellowship recipients provide 
immediate dividends; and each and every citizen touched by our literacy 
and outreach efforts become stewards of our natural resources. These 
down payments help to fulfill the President's commitment to education. 
The FY 2012 budget includes $20.8 million for NOAA's Office of 
Education to implement and manage scholarship programs aimed at 
fostering competitiveness in science, technology, engineering and math 
by providing quality educational opportunities.

Conclusion

    Overall, NOAA's FY 2012 budget request reflects the commitment that 
Secretary of Commerce Gary Locke and I have made to the President to 
out-educate, out-build, and out-innovate our competitors in support of 
robust economic job growth. We have made tough choices to cut lower 
priorities and identify cost-savings measures. The resources that are 
requested in this budget are critical to the future success of meeting 
our needs in climate, fisheries, coasts, and oceans. I look forward to 
working with you, the Members of this Committee, and our constituents 
to achieve the goals I have laid out here through the implementation of 
the FY 2012 budget. Thank you for the opportunity to present NOAA's FY 
2012 budget request. I am happy to respond to any questions the 
Committee might have.

    Chairman Hall. Alright, thank you very much for your 
testimony. Again reminding committee rules that we stay within 
the five minutes.
    Chair recognizes himself for five minutes for questions.
    First, I would like to ask you, NOAA is requesting, I 
think, more than $2 billion for the National Environmental 
Satellite Service, but it is not all just for Joint Polar 
Satellite System or Geostationary Operation and Environmental 
Satellite, or better known as JPSS or GOES, arguably, NOAA's 
two highest priority systems. If you are prioritizing missions 
in this very difficult economy, why aren't you spending 
resources on JASON III, which is the satellite that measures 
sea level rise, climate change observation, while at the same 
time, warning Congress if we do not spend money on weather 
satellites there will be a data gap?
    Dr. Lubchenco. Mr. Chairman, we believe that all of the 
satellite requests in this fiscal year 2012 budget request are 
highly important and very useful to the American public. JASON 
III is a satellite program that is joint with the Europeans, 
and therefore, saves the United States a considerable amount of 
money because we pool our resources. Giving communities along 
coastal regions information about sea level rise is vitally 
important to their planning for the future. This particular 
satellite system is essential in providing that high resolution 
information that enables communities to plan in a way that is 
smart planning.
    Chairman Hall. I thank you for that answer, but you know 
that you can't have both. I know you need to prioritize within 
this economy, and we know we can't afford everything, so can't 
you prioritize it--and I ask you that question with your 
knowing how I feel about it. I think weather is by any 
reasonable person more important than sea level change. We 
can't have everything we want, and I know you want the best for 
the country, but can't you prioritize a little?
    Dr. Lubchenco. Mr. Chairman, we have prioritized the items 
that are in the budget. There were a number of other very 
important satellite programs that were not included in this 
request, and so what we have reflected here is, in fact, a 
prioritization.
    The Joint Polar Satellite System to which you refer is, 
without doubt, one of the most important satellite programs 
that we have. It is essential for us to be able to have the 
information it provides to do long-term forecasts, to predict 
severe storms such as hurricanes, to provide the search and 
rescue information that--to receive the beacons that search and 
rescue operations entail, and to provide weather information in 
general for Alaska. So it is an absolutely critical system. 
That doesn't mean that Jason is unimportant; it is important 
for a different reason.
    Chairman Hall. I don't agree with your answer, but I 
respect you for not taking my full five minutes. I don't want 
you to filibuster me now.
    I have another question I hope I can get in five minutes. 
As you may be aware, my amendment to the Continuing Resolution 
would prohibit NOAA from using funds to ``implement a NOAA 
Climate Service''. It passed 233 to 187 by the Congress 
formerly established in the House of Representatives, opposite 
position against a NOAA climate service in fiscal year 2011. 
You are aware of that, yes or no?
    Dr.. Lubchenco. Yes, sir.
    Chairman Hall. And in my statement on the House Floor, I 
argued that I was concerned that implementation of the climate 
service was already underway in the form of significant 
planning, transition and reorganization.
    Can you give me a yes or no answer to that? Is that true?
    Dr. Lubchenco. Mr. Chairman, before this administration 
began------
    Chairman Hall. Can you give a yes or no to that?
    Dr. Lubchenco. Planning began the last administration for a 
climate service, and planning continues, but we have not 
implemented a climate service because Congress has not 
approved.
    Chairman Hall. Just to reiterate the assurances you wrote 
to me in a letter this January, ``NOAA is not yet implementing 
the climate service.'' Is this correct?
    Dr. Lubchenco. That is correct.
    Chairman Hall. And the lines of reporting for daily 
operations of NOAA have not changed from the structure that was 
in place January 2010, is this correct?
    Dr. Lubchenco. Yes, sir.
    Chairman Hall. Last question. NOAA will wait for 
congressional approval before implementing any such climate 
service. Is this a yes?
    Dr. Lubchenco. Yes, sir, it is. Absolutely.
    Chairman Hall. I thank you. I have eight seconds left. That 
is just enough time for me to recognize Mrs. Johnson. I thank 
you for your answers.
    Dr. Lubchenco. Thank you, Mr. Chairman.
    Ms. Johnson. Satellite coverage is essential for us to 
monitor Earth, forecast weather, and protect lives and 
property. You know, I fly back and forth home just about every 
weekend, as many other Members here do, and very often, we 
depend on the forecast to determine whether we can--have to 
change our plans or go later or land somewhere that is not 
home. I am wondering--I was told by Mr. Bolden that these 
satellites were getting rather old, and that while we can't 
predict the life of them, they are far beyond what had been 
predicted. And so I am wondering now about the development of 
the next generation of this polar-orbiting weather satellite.
    GAO has indicated that JPSS has an inadequate funding plan, 
and I am concerned that both the Continuing Resolution made 
over the fiscal year 2011 budget, and the House passed H.R. 1 
will lead to new costs growth and schedule delays that will set 
the program back even further.
    What impact is the 2011 Continuing Resolution budget having 
on your ability to making progress to keep us safe?
    Dr. Lubchenco. Congresswoman, thank you so much for asking 
about the Joint Polar Satellite System. It is a vitally 
important tool that we have that provides essential information 
to do a number of things. This program is vital to the American 
public in many different ways. It is essential--these polar 
orbiting satellites are essential for our ability to predict 
severe storms. If we want to be--our ability today to provide a 
hurricane forecast that are as accurate as they are today with 
two to three day advance warning are a direct result of the 
information that we get from the polar orbiting satellites. So 
too is the information from those satellites to provide long-
term weather forecasts. The short-term weather information that 
we have comes from different satellites, the ones we call 
geostationary. But the polar orbiting satellite of which we're 
speaking now is essential for the long-term forecasts, and that 
is very, very important for the military in making decisions 
about troop deployments or refueling planes in air. It is also 
essential for farmers deciding what crops to plant, or when.
    So both severe storm warnings and the long-term forecasts 
depend on these polar orbiting satellites.
    Also very important to many individuals, especially 
mariners, is the ability of these satellites to receive signals 
from emergency distress beacons. Without this satellite system, 
we would probably at least double the response time for search 
and rescue missions, and obviously in an emergency, a matter of 
minutes is often critically important, and so doubling your 
response time is certainly problematic.
    So for all of those reasons, the polar orbiting satellite 
system is critically important. We currently need, in this 
fiscal year, in fiscal year 2011, $910 million to keep this 
program underway. That is not an insignificant amount. I fully 
appreciate what a large number that is, but the consequences of 
not having it are very severe. For every dollar that we do not 
spend this year on this program, it will cost us $3 to $5 in 
the future to build this program back up. If we don't have 
those resources this year, we terminate contracts, we lose 
people that have the expertise, and the consequences of that 
will not be pretty.
    Ms. Johnson. Thank you very much. My time is about expired. 
Thank you, Mr. Chairman.
    Chairman Hall. Thank you very much. Recognize the 
gentleman, long time Member of this Committee, very valuable 
member, Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me note that my very first job when I was a go-for in the news 
business was to read the following into a machine when I 
arrived in the morning, five o'clock the morning at the news 
bureau. ``Good morning. This is the National Weather Service 
forecast for Los Angeles and vicinity. Today, the high will be 
at Civic Center 75 degrees. Low expected tonight at 62. Coastal 
Orange County, high as well will be 72 degrees, a low of 65--'' 
et cetera, et cetera, et cetera. I appreciated that job, and--
----
    Chairman Hall. Do we have a new reading--another reading of 
that?
    Mr. Rohrabacher. Well, I thought--I was very proud to give 
the National Weather Service forecast, and that was very 
important news, actually. We got all kinds of hits on that--it 
was a telephone service--and thousands and thousands of people 
called in every day from Los Angeles to get their weather. I 
would hope that what you are doing now in your restructuring of 
NOAA, so that you now have a climate service, that that does 
not distract from the important work that your organization has 
been doing in terms of weather.
    So I guess maybe what I should ask is will this change of 
name and structure into the Climate Service--will it in any way 
distract from the resources? Will you then be transferring 
resources from weather to spending those resources on things 
like a human adaptation for the change in climate that may take 
centuries in order to see that change?
    Dr. Lubchenco. Congressman Rohrabacher, thank you for 
highlighting how important the National Weather Service is. It 
is vitally important to save lives and property, and it is 
widely recognized as being so. The 122 weather forecast offices 
we have around the Nation will be delighted to-- have heard-- 
your rendition and to recognize their importance. The budget 
request for the National Weather Service for this year 
increases the number of very important areas that are essential 
for the investments in fundamental science that enable us to 
continue to get better and better at our forecasts. In fact, we 
have seen significant improvements in our forecasts, but there 
is ample room for more, and this budget requests a number of 
items to advance that agenda.
    Aviation weather, which is vitally important, is--we have 
an increase targeted for that for operation and maintenance of 
our weather buoys that give us vital information about what is 
happening over the ocean. For weather and climate, super 
computers. I would highlight those three areas where there 
are------
    Mr. Rohrabacher. How much money would you expect--all these 
things I support. That is great. We all do. They are very 
significant to the jobs and well-being of Americans. But when 
you get to the idea of predicting the climate so that you will 
have adaptation--and of course, my reading of that is that we 
are talking about ocean rise, which may take a century or 2 
centuries for us to see it. Where is the money coming--how much 
is being spent on adaptation versus weather, and where is the 
money coming from if it is not coming from what you were doing 
in weather?
    Dr. Lubchenco. Congressman, the creation of the climate 
service--the proposed creation of the climate service entails 
an internal reorganization that does not change the basic 
functions of the different offices that they are currently 
executing. It puts those offices together in a way that they 
can be more effective in delivering the kind of--not just 
short-term, 10-day weather, but longer term weather information 
that is properly called climate, but that is actually months to 
years out.
    For example, you know that this is a La Nina year, and 
therefore, we can analyze past La Nina years and------
    Mr. Rohrabacher. Right.
    Dr. Lubchenco. --predict that under these circumstances, we 
know that this will be--you know, we can tell you something 
about precipitation for southern California.
    Mr. Rohrabacher. And that is very important to a lot of 
people, especially in California. Let us hope that with that 
type of service that you provide so well now, isn't undercut by 
some of the more trendy frou-frou things like we have seen--I 
won't go into detail, but we have seen that here. So thank you 
very much.
    Chairman Hall. Thank you. Gentleman's time is expired. Now 
I recognize Mr. Miller, the gentleman from North Carolina, the 
ranking member on Energy and Environment, for five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Dr. Lubchenco, one of the certainly difficult tasks that 
the Administration faced is dealing with an oil spill that 
wasn't supposed to happen, and in some ways the administration 
equated itself well, and in others, less well. But could you 
please explain how you are going to work with other agencies to 
monitor and understand what the effect of the oil has been in 
the long term? We have heard a lot about how well it is being 
dispersed, how it is being absorbed, degrading, whatever. What 
is the plan going forward?
    Dr. Lubchenco. Congressman, part of NOAA's responsibilities 
with respect to not only Deepwater Horizon spill, but other oil 
spills, is to participate actively in the process that is known 
as the Natural Resource Damage Assessment Process, or NRDA. 
This is a legal, scientific, and economic process that is done 
in conjunction with the federal trustees of which NOAA and the 
Department of Commerce, the Department of Interior, Department 
of Defense, are the three federal trustees, and there are five 
state trustees. Those trustees work collectively together to 
evaluate the impact that the spill had on natural resources in 
the Gulf, and the public's loss to those natural resources, and 
build a court case to take, if necessary, to court in order to 
get the resources to do restoration. NOAA is providing much of 
the scientific underpinnings for that evaluation of the damage 
that was done because of the spill to these natural resources 
and the public's loss to them. That is a process that is well 
under way. Some damages are very easy to see, oiled birds, 
oiled turtles or dolphins. Others are much more difficult to 
measure directly, impacts of small droplets of oil on fish eggs 
or fish larvae, for example, or crabs or shrimp.
    And so this is a process that necessarily needs to take the 
appropriate amount of time. We are conducting multiple research 
expeditions on ship as well as very considerable activities on 
the shore, and have been pretty much since the beginning of the 
spill, in order to evaluate the damage that was done.
    Mr. Miller. Dr. Lubchenco, unlike Mr. Rohrabacher, I have 
never depended for my livelihood on your weather products, but 
I recognize their importance. Could you tell us how what you do 
in weather forecasting or weather generally is going to be 
affected by the proposed cuts that were included by H.R. 1, the 
continuing resolution that the House passed a few weeks ago?
    Dr. Lubchenco. Congressman Miller, I don't--the cuts--it is 
difficult to say the exact consequences of H.R. 1 on specific 
programs, because we don't have that fine-tuned information. 
What I can tell you is that it is likely to be very devastating 
to our ability to continue to provide the kind of weather 
information that Americans depend upon to save lives, to save 
property.
    The cuts are of a nature that there would be significant 
hits throughout NOAA's programs, and we have very grave 
concerns about exactly what those would look like.
    Mr. Miller. Okay. You distinguished in your testimony 
between climate and weather. Can you tell us how weather 
forecasting really fits in with climate forecasting, and is it 
important that we have climate predictions and why?
    Dr. Lubchenco. Congressman, there really is a continuum 
between weather and climate. I think Mark Twain famously said 
that climate is what you expect and weather is what you get. 
And in fact, it really is a continuum. The ways that scientists 
go about making predictions and forecasts about either weather 
or climate entail different types of models. Weather 
forecasting models are fundamentally different from climate 
forecasting models. The weather models are very short-term. 
They are initialized with current immediate conditions. They 
take into account changes in the atmosphere, they are happening 
now, and look out a number of days to a week or so. So we have 
7- to 10-day forecasts. Those are different types of models 
from climate models, which are farther out, so 15 days and 
farther out are a different type of model, which is why we say, 
you know, distinguish between climate and weather.
    Both are vitally important and one of the major research 
challenges now is to bring those models together so that we 
have better resolution of what is happening in the near--not 
just the short-term, but the medium scale that has been very, 
very difficult because of the need to merge those models. Both 
are very, very important.
    We are getting absolutely inundated with requests for 
information that is months to years to decades out, not 
centuries, but people want to plan and know what--water 
managers, for example, or city planners or farmers are trying 
to evaluate what should they plan for for next year or for the 
next year, and it is that type of information where we see a 
huge opportunity to provide what we call climate services that 
will help in that type of planning.
    Mr. Miller. Thank you.
    Chairman Hall. At this time, recognize Congressman 
Bartlett, the gentleman from Maryland.
    Mr. Bartlett. Thank you very much. As you know, there is an 
indisputable fact that atmospheric CO<INF>2</INF> is rising. 
Nobody disagrees on that. The facts are in considerable 
dispute. The number of people that believe that because 
CO<INF>2</INF> is a greenhouse gas that it will warm the Earth, 
absent other causes, this will cause short-term climate changes 
and acidification of the ocean. Climate changes could be 
disruptive. The acidification of the ocean could be 
catastrophic in the long run. Ultimately, if we really do get 
warmer, the sea levels will rise.
    There are a number of people who think this is all a bunch 
of hooey, and they keep criticizing us, but I want to point out 
that there are two other constituencies that have common cause 
in wanting exactly the same solution that the folks who are 
concerned about CO<INF>2</INF> footprint want, and that is to 
move away from fossil fuels to renewables, because it reduces 
CO<INF>2</INF> released into the atmosphere. One of those other 
groups are those who are concerned about national security. We 
have only two percent of the world's oil. We use 25 percent of 
the world's oil. We import two-thirds of what we use. The 
obvious solution to that is exactly the same solution that 
those people have who are concerned about CO<INF>2</INF> 
increase and climate change and so forth. It is to move away 
from fossil fuels to renewables.
    The third group that has common cause with this are those 
who understand, as Hymen Rickover did more than 50 years ago 
that oil is finite. It will run out. The world almost certainly 
has now reached what we call peak oil, that is, its maximum 
ability to produce oil. It is about 84, 85 million barrels a 
day. We are stuck there which is why our economy is in trouble. 
It is not going to rise. The solution to that problem obviously 
is to move away from fossil fuels to renewables so that the 
fossil fuels will last us longer and we will have an energy for 
our activities now.
    I hope that these three groups will stop sniping at each 
other's premise and lock arms and march forward, because 
although they have three very different agendas, they have 
exactly the same solution to these very different problems.
    Now for a question. I am on the Armed Services Committee, 
and obviously we have an enormous interest in climate and 
weather as we plan. What are you doing to make sure that your 
efforts are collaborative and you don't have duplicative 
efforts with the Department of Defense for weather?
    Dr. Lubchenco. Congressman, we work very closely with the 
Department of Defense, and in particular, with the Navy on a 
number of--in a number of different ways. Those include both 
oceanographic information, weather information, and climate 
information on all of those fronts. We have active exchanges of 
information and we--as far as I know, there is no duplication 
of information. It is nicely complimentary. We keep them 
informed of what we are doing, they keep us informed, at least 
to some extent, to what they are doing, and there are a number 
of venues in which--that exist to keep that flow of information 
going.
    We know from what the Navy in particular, but DoD more 
generally, have told us is that what we provide to them is 
essential for their planning purposes, both short-term as well 
as long-term.
    I had the pleasure of visiting the aircraft carrier, the 
Harry S. Truman, about a year and a half ago now, and was 
amazed when I walked around inside, the room that had all of 
the equipment to give them state-of-the-art information about 
what the conditions were when they were running war game 
exercises, and a vast number of the computers in the room were 
showing NOAA information, whether it was oceanographic models 
that they were running or weather information or whatever, 
nautical charts. And so we clearly have, even at the scale of a 
ship, a very tight collaboration and interaction. I think it is 
a very productive exchange. They are very concerned about this 
Joint Polar Satellite System and the potential loss of that 
system to our ability to provide the long-term weather forecast 
for them that are very important in making decisions about 
troop deployments, for example.
    So although I am sure there is always room for improvement 
in terms of interactions, I think we have a very productive 
interaction and exchange with the Department of Defense, but I 
would highlight the Navy in particular.
    Mr. Bartlett. Thank you, and I yield back.
    Chairman Hall. Thank you. Chair now recognizes the 
gentleman from California, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Thank you, Dr. 
Lubchenco, for coming here this morning.
    One of the things that I am concerned about is the 
reliability--the long-term reliability and the short-term 
reliability of the existing satellites, and how important this 
program is to making sure that we have reliable information.
    I hope I am not beating a dead horse, but could you comment 
on that?
    Dr. Lubchenco. Congressman, are you referring specifically 
to the Joint Polar Satellite System, or satellites in general?
    Mr. McNerney. No, the Joint Polar Satellite System.
    Dr. Lubchenco. There currently are polar satellites that 
are in space now that provide--there is one satellite that 
provides us with much of the information I described earlier 
that is absolutely essential for severe weather forecasts, for 
long-term weather forecasts, for search and rescue, and for 
weather in Alaska. These satellites orbit the poles and give us 
a very different type of information from a different type of 
satellite system, which are geostationary satellites.
    Those geostationary satellites, there is one that sits 
pretty much over the East Coast and sees the eastern half of 
the country, there is one that sits over the West Coast, and 
they stay in place and constantly see the same place. They are 
very high up. The polar orbiting satellites orbit at a much 
lower orbit, and are essential to tracking what is coming 
across the Pacific, for example, or following storms as they 
are developing. POES,the current satellite that is up there 
will not--it has a finite life span, and this Joint Polar 
Satellite System is to build the satellite and the instruments 
to replace that satellite when it is no longer functional.
    The current C.R. has already resulted in a delay in that 
program of around 12 months. Additional delays because of lack 
of resources will delay that program even further. What that 
means is that down the road, we will inevitably have a gap 
where we will not have the ability to do severe storm warnings 
as we do today.
    Mr. McNerney. So you are saying that this is inevitable at 
this point, that we will absolutely have a gap because of the 
longevity of the current polar satellites?
    Dr. Lubchenco. It is highly likely we will have a gap, and 
the longer we wait, the longer that gap gets. If you consider 
that for each dollar that we don't spend this year on this 
program, it will cost $3 to $5 to bring that program up. Even 
those additional resources will not close that gap, so there is 
great urgency in addressing this problem.
    Mr. McNerney. Thank you. Another thing I would like to ask 
is about the need for a federal clearinghouse for climate data. 
What I would like to see is a lack of overlap or lack of 
duplication in that regard. Do you see NOAA becoming a key 
player or a key--a central player in terms of providing data to 
federal agencies and other agencies that are interested in 
climate data?
    Dr. Lubchenco. Congressman, we currently serve that 
function. We house much of the climate data and make it all 
publicly available. We routinely do peer reviews and quality 
checks to ensure that it is of the highest quality. We share 
that information very broadly.
    Last year, we reorganized the information that is available 
through our website to create a more user-friendly way to 
access all the data and information that we have that concerns 
climate. There is ample opportunity to improve in that regard, 
and we will continue to do that, and the requests in the 
current budget are in part designed to help move that ahead.
    Mr. McNerney. Has there been any criticism of the 
objectivity of that data or the accuracy of that data?
    Dr. Lubchenco. Every investigation of those programs has 
concluded that it is very well run, that the data are 
trustworthy. They are, in fact, widely considered to be the 
gold standard.
    Mr. McNerney. Thank you, my time is up. I yield back.
    Chairman Hall. Chair recognizes gentleman from Maryland, 
Dr. Harris.
    Mr. Harris. Thank you very much. Thank you, Dr. Lubchenco, 
for coming before the Committee.
    I have four questions I am going to ask.
    First is when I look at the chart of the request, the 
fiscal year 2012 request is about 35 percent more than the 
fiscal year 2008 request, is that right? Fiscal year 2008 is 
$4.07 billion, fiscal year 2012 is $5.49 billion.
    Dr. Lubchenco. That is correct.
    Mr. Harris. Okay. So it is--so what you are asking for is 
the American people, at a time when everybody is tightening 
their belt, we are tightening everybody's belt, you want 35 
percent more, okay? And I will go through the justifications in 
your testimony.
    Let me talk a little bit about some of that spending, 
because one of it goes to a satellite called Discover, which in 
my understanding is going to spend tens of millions of dollars 
to put an 11-year-old satellite bus. You know, you got to put 
new sensors on it, but you know, technology--why would we 
choose that path, spending tens of millions of dollars to 
refurbish an 11-year-old satellite bus instead of doing what I 
understand is available, which is letting a private company 
launch the same sensors and just buy the information? I mean, 
why are we doing something that a private company can do?
    Dr. Lubchenco. Congressman, the Discover satellite has been 
essentially kept in good shape, and the analyses that we did 
suggest this is the most cost-effective way to get critically 
important information, by refurbishing it and then flying it.
    Mr. Harris. Can you provide me a copy of that analysis?
    Dr. Lubchenco. Yes, sir.
    Mr. Harris. Specifically versus going to a private------
    Dr. Lubchenco. Yes, sir.
    Mr. Harris. Okay, thank you very much.
    Let me go on to one other issue--two other issues that 
regard the fisheries. One is this idea of catch shares, because 
I think there is, again, tens of millions of dollars going into 
establishing catch shares. My understanding in talking with 
fishermen in Maryland, we have fishermen both in the bay and in 
the ocean, that one of the results has been to force smaller 
fishermen basically out of business. They just put them out of 
business. They can't afford to buy the catch shares to make a 
living that they would have to otherwise, so they end up 
selling them to larger corporations, literally corporations who 
then go and just hire fishermen to catch. So we are kind of 
putting the--I hate to say mom and pop fishermen, but mom and 
pop fishermen kind of out of business as small business owners. 
Is that, in fact, what does occur? I don't say all the time, 
but is that occurring? Is that what we have been observing to 
occur where we have established catch shares?
    Dr. Lubchenco. Congressman, thanks for raising that issue 
because I think it is a common misconception about catch 
shares. Any particular catch share program depends on the way 
it is designed, and much of our focus now is helping to ensure 
that they are designed in a way that reflects the wishes of the 
fishermen in the area, and I think there is broad recognition 
that preventing consolidation is highly desirable. We are very 
strong champions of and believe that we need a diverse fleet, 
and that the small boat fishermen are a vital component of 
that.
    Mr. Harris. But my question is, is that--has that been 
observed, the fact that the smaller boat fishermen, in fact, 
are driven out of the business as primary owners? I mean, they 
may end up working for one of these corporations that hold the 
catch share licenses, but is that--you know, I met with a group 
who were put out of business in the scallops fishery off the 
Maryland coast. You know, I sat across the table from him so I 
know it exists. I mean, what is the experience nationally, 
though? Does that occur? Is that one of the things that has 
occurred? I know you are concerned in minimizing it, but is 
that------
    Dr. Lubchenco. In some catch share programs that were not 
well-designed there have been individuals who have not been 
allocated a share. I think it is important to realize that 
fishermen don't have to buy a share. They are given a share 
that is based on their past fishing history. But the rules of 
design for a catch-chare problem are determined by the fishery 
management councils on which fishermen sit, and so they have 
the opportunity------
    Mr. Harris. I understand some fishermen sit on it. I 
understand that, and again, it just kind of politicizes what is 
going on in the private sector.
    Finally, there is a request for a $5 million increase for 
regional studies in the Chesapeake Bay. Are these grants? Who 
are going to get these? And second one is, you know, it says we 
are going to understand the relationship between some of the 
things that have to do with cleaning up the bay and the next 
panel will have someone--I am going to ask specifically about 
TMDL's, but don't you do the research before you establish the 
policies? I mean, what are we studying here with this $5 
million and who is that money going to?
    Dr. Lubchenco. Congressman, I frankly don't recall that 
specific program and I would be happy to get that information 
to you. I know that we collaborate closely with other agencies 
as part of a larger focus on the Chesapeake, but I will get you 
information on exactly what our request is.
    Mr. Harris. Thank you. In light of the GAO study that 
reports on multiple duplications, I would love to see that, and 
I thank you, Mr. Chair.
    Chairman Hall. Thank you. At this time I recognize the 
gentleman from Oregon, Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman, and I would also like to 
thank the gentlelady from Maryland for her courtesy in 
permitting me to ask a couple of questions, and also then fit 
in a few constituent meetings.
    Dr. Lubchenco, thank you for your service to our Nation. We 
in the Pacific Northwest are very proud of your service. We 
followed your career earlier at Oregon State. It is a fine 
academic background, and we are very proud of your national 
service now.
    In particular, I would like to comment that in my studies 
of the catch share program, my fishermen are generally in favor 
of implementing a catch share program and I would like to thank 
you, and I would like to thank Secretary Locke for making some 
adjustments so that our catch share program in the Pacific 
Northwest can be implemented sooner, which is what my fishermen 
would prefer to have happen.
    Secondly, with respect to this satellite program that has 
been the subject of some discussion, I would just like to 
insert in the record that as the former chair of the 
Subcommittee with jurisdiction over that satellite program, I 
have developed more knowledge of that satellite program than I 
had ever hoped--even as someone who is very interested in 
satellites, that most importantly, this is a program that has 
had a track record in three administrations. Not one, not two, 
but three administrations, a good half of the Clinton 
administration, all of the Bush administration for eight years, 
and now a little bit of run time in the Obama administration. 
While I have not agreed with all of the judgments made by each 
of the three administrations, I believe that the data from that 
satellite is necessary to establish some data independence from 
nations which may or may not always share data with us, but we 
hope that it is a sharing program and that data would permit us 
to participate in that sharing.
    I would like to ask you, Dr. Lubchenco, about a specific 
budget item in the NOAA budget, and that is that the NOAA 
budget has a specific proposal to create a structure for the 
NOAA Climate Service, and that this structure involves creating 
a new line office by performing a programmatic reorganization 
of existing resources. One of the primary line offices that is 
proposed to transfer over there is the Research and Program 
Resources from the Oceanic and Atmospheric Research Office, or 
OAR, and OAR is the research enterprise of NOAA's basic and 
innovative research. This is very, very important.
    Dr. Lubchenco, how do you plan to balance the need to 
provide climate services based on good climate research, 
balancing that with the need to ensure OAR does not lose its 
current basic and innovative science-driven research?
    Dr. Lubchenco. Congressman Wu, it is nice to see you. Thank 
you very much for your nice comments. The Catch Share Program 
in the West Coast was seven years in the making and has really 
benefited from considerable input by fishermen up and down the 
West Coast for this--the ground fish ITQ, and I am very pleased 
that it has the support that it has, and that the fishermen are 
telling you that they are pleased with it. I too have met with 
them a lot, and they are saying we can finally see the light at 
the end of the tunnel, and we are anxious to get underway with 
this program.
    You mentioned the Joint Polar Satellite System, which 
obviously is very, very high priority for us. We--Secretary 
Locke and I heard you and other Members of Congress loudly and 
clearly when we first came in, and you said this is a flawed 
program, fix it. And I am very proud of actions that we have 
taken with the White House to put this program on a path to 
success. What is critical now is that we have the funding to be 
able to deliver on this new path, and I appreciate your 
attention to it, because you recognize how vital it is.
    On your question with respect to the climate service, this 
is indeed an internal reorganization that is proposed. It would 
not change the research that anyone at NOAA is doing. It simply 
makes the research and services pieces be more tightly 
connected, so that they can be more effective in providing 
climate information, by way of services and data, to the 
American public. It does not undermine research at NOAA. That 
is a high priority of mine, to strengthen scientific research, 
and I pledge to do everything I can to continue to have 
research be very strong in every line office. But we are 
looking to the Office of Oceanic and Atmospheric Research to be 
the leader in innovation and integration of research. Thank 
you.
    Chairman Hall. Gentleman's time has expired. At this time 
recognize Mrs. Adams, gentlelady from Florida.
    Mrs. Adams. Thank you, Mr. Chair, and thank you, Dr. 
Lubchenco.
    Before I get started, I want to also reiterate what my 
colleague said about Catch Share. My fishermen too are 
concerned about that, and they have brought it to my attention, 
and I have met with several of them. They are worried about 
being put out of business by larger groups, and along that 
line, I would like to talk to you for a moment about an issue 
which is an incredibly urgent matter, and it is something that 
I find very troubling. You are probably aware of--in July of 
'08 your agency issued a letter to the South Atlantic Fishery 
Management Council that the South Atlantic red snapper stock is 
overfished and undergoing overfishing. This is a massive 
problem for the State of Florida. The decision is costing 
thousands of jobs in Florida, and again, it is about jobs in 
the economy, and throughout the country, and will potentially 
decimate a $13 billion industry. I have heard from fishermen in 
my district, and across the state, that NOAA's efforts to 
manage the fish populations are hurting fishermen in the name 
of incorrect and insufficient science--scientific data.
    Now, I was there at one of the meetings, and heard one of 
your people, one of your representatives, say that it was 
flawed. As recently as February 17, Roy Crabtree, the Southeast 
Regional Administrator for NOAA's Fishery Service said, ``The 
latest science suggests that the planned area closure is not 
necessary for the red snapper population to continue to 
improve.'' NOAA website says, ``NOAA is an agency that enriches 
life through science.'' Could you explain what science you are 
using to enrich the lives of fishermen in Florida with these 
rules to help--halt fishing red snapper, and beyond that, how 
are you even able to pay for this science when in your own 
budget request you are decreasing the amount of money being 
spent on the research?
    Dr. Lubchenco. Congresswoman, the fisheries, especially for 
the red snapper to which you refer, are vitally important ones. 
I fully appreciate how important they are to the economy, not 
only of Florida, but to the region generally. We are required 
by the Magnus and Stevens Reauthorization Act to use the best 
available information to make our determinations about the 
status of different stocks, and to set catch limits 
accordingly.
    Mrs. Adams. Can you please be very succinct? Because I have 
more questions, and I do want some answers. But your own people 
are saying your data is flawed. So if your data is flawed, and 
they recognize it, why are you implementing it without further 
research? Just quickly, shortly.
    Dr. Lubchenco. Congresswoman, the initial determination was 
based on information that was available. New information became 
available that is more current, and said that the closure is no 
longer needed. And so we are doing exactly what we have been 
told by Congress to do, which is to update decisions based on 
new information when it becomes available, and that is exactly 
what we have done.
    Mrs. Adams. So are you going to halt the closures?
    Dr. Lubchenco. Yes. It is no longer needed because we have 
new information, and we have announced that.
    Mrs. Adams. Okay. I had another question. I am trying to 
get back to it. There is just so much to ask in so little time. 
There was something in your testimony a few--I think it was 
last year's testimony, I am trying to get to it, about the 
acidification of the ocean, and I can't find it now, so I guess 
I will wait, and I will come back around when we have more 
questions.
    Chairman Hall. Are you finished? Okay. Thank you. Chair 
recognizes the gentle lady from Maryland, Mrs. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you, Dr. 
Lubcheco. It is good to see you again, and I just want to let 
you know how much we really do appreciate all of the work of 
the fine Federal workers------
    Dr. Lubchenco. Thank you.
    Ms. Edwards. --at NOAA, and the work that they do for us. I 
want to ask you for a minute, again, about the impact of some 
of the--both--some of the budget considerations that are 
floating all around Capitol Hill, and particularly the 
continuing resolution that passed out of the House. And I know 
we are--continue to work on that, but I wonder if you could 
share with us what it would mean in real terms, in terms of 
staffing, for NOAA, some of the budget cuts that are projected 
for the agency. And can you confirm that you would have to 
absorb the severe cuts that are planned in the budget with 
personnel actions like furloughs?
    Dr. Lubchenco. Congresswoman, thank you for recognizing our 
Federal workers. We greatly value our folks at NOAA and know 
what a spectacular job they do day in and day out. Because we 
are about halfway through this fiscal year, the longer we go 
without having clarity about what our budget is, the more 
challenging it is to make adjustments for the remaining part of 
the year.
    It is premature to say exactly what those consequences to 
Federal workers will be. Obviously there are--lots of 
speculation, and even that speculation is very challenging to 
workers who have great uncertainty about what is down the road 
for them. So the uncertainty itself is problematic. But 
because--we are in the process of doing various scenarios, 
various planning, as are all agencies, but it is hard to be 
specific until we know exactly what the bottom line is and, you 
know, what the specific constraints are. I can tell you that it 
is looking like it would be very, very significant, very 
serious.
    Ms. Edwards. I mean, the reality is it wouldn't be--I mean, 
you can't very well cut programs. I mean, obviously we need to 
continue things like the weather service and other services, 
and so that only leaves people. But that is just my conclusion. 
I want to ask you, you know, about the end of this fiscal year, 
as we are entering hurricane season, even today, in this region 
we are, you know, I pulled up my notice from the weather 
service that tells us that I had better be on the lookout for 
floods in my neighborhood, and in neighborhoods all throughout 
this region. Those are things that we couldn't know if we 
didn't have the weather service, if we didn't have NOAA. It is 
certainly--those are certainly things that we couldn't know if 
we didn't have satellite coverage.
    And so can you describe for us what some of these--the 
longer term implications are of these budget considerations 
when it comes to leaving a gap? I mean, my understanding is 
that, with the cuts that are being proposed, there is potential 
for a 100 percent gap in satellite coverage over the long term. 
And what that means to agriculture, to commerce, to moving 
goods all around the--this country is pretty--energy, pretty 
significant. And so I wonder if you could describe from your 
testimony, when we vote to cut funding for NOAA, we are 
essentially voting to expose people to risk. Their lives, their 
businesses, their property and all the rest.
    Dr. Lubchenco. Congresswoman, the bread and butter services 
that we provide to Americans each and every day depend on those 
satellite systems. They depend on the Federal workers. They 
depend on the other observing systems, whether they be buoys or 
anything else, and those are very much at risk with some of the 
budget cuts that are being discussed. The kinds, the quality of 
weather forecasts that people take for granted today, we would 
not have that should there--should we not have funding for this 
Joint Polar Satellite System. There would inevitably be a gap. 
You cannot close that gap with more money, and we would not 
have severe storm warnings. We would not have maritime 
forecasts for shipping. We would not have long term weather 
forecasts. Search and rescue times would be increased very 
significantly. Each and every one of those is a problem. All of 
them together would be very, very significant impact.
    Ms. Edwards. Thank you very much. And I will just close, 
and I--again, I want to really say thank you very much for the 
work that NOAA does. It is incredibly important to our lives, 
to our economy, to all of our communities. And I hope that, in 
Congress, we actually recognize the danger and the jeopardy 
that we put in peoples' lives and their businesses and their 
communities when we willy-nilly cut the important science 
investigation, research, personnel and programs of the--of 
NOAA. So thank you. Thank you, Mr. Chairman.
    Chairman Hall. Chair recognizes the vice-chair of this 
Committee, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. Dr. 
Lubchenco, at a December 2, 2009 hearing on ``The 
Administration's view on the state of climate science'' before 
the former House Select Committee on Energy Independence and 
Global Warming, Representative Inslee asked you if there was 
anything about the CRU e-mails that affect ocean acidification 
at all. You replied, ``Congressman, I haven't read all of the 
e-mails, but I have seen nothing in them in those that I have 
read about ocean acidification. It is really not an area that 
is something that that particular research group was focused 
on.''
    Your response to Mr. Inslee indicated that you had read at 
least some of the e-mails, yet on page nine of the enclosure to 
the DOE Inspector General response, it is stated, ``Dr. 
Lubchenco told us she could not be sure whether she had seen 
any of the CRU e-mails or received a briefing from her staff on 
the results of NOAA's CRU e-mail review prior to testifying 
before the House Select Committee.'' Now, can you please 
explain this apparent discrepancy? Had you or had you not read 
any of the CRU e-mails prior to December 2, 2009 hearing?
    Dr. Lubchenco. Congressman, to the best of my knowledge, I 
had read some of them, but certainly not all of them.
    Mr. Sensenbrenner. Then why did you tell Mr. Inslee one 
thing and the Inspector General another?
    Dr. Lubchenco. When I was responding to the Inspector 
General's staff, I said I could not recall if I had read them 
or not.
    Mr. Sensenbrenner. Well, the thing says ``Dr. Lubchenco 
told us she could not be sure whether she had seen any of the 
CRU e-mails or received a briefing''. Now, I think you--what 
you have said is consistent, but the fact that there was doubt 
about this issue, doesn't that indicate that you really weren't 
concerned about the Climategate scandal that the e-mails 
exposed?
    Dr. Lubchenco. I was concerned about the Climategate e-
mails, but they--there were a large, large number of e-mails 
involved, and I simply did not have time, or think it 
appropriate for me to take time, to sit down and read through 
each and every one.
    Mr. Sensenbrenner. Well, why not? Because if the e-mails 
were correct, it indicated that the fix was on to come up with 
a certain conclusion on what the science of global warming was, 
to the exclusion of scientists that had contrary views.
    Dr. Lubchenco. Congressman, as I think you are aware, every 
single investigation has indicated that there was no 
manipulation of the climate information or the climate------
    Mr. Sensenbrenner. Well------
    Dr. Lubchenco. --data.
    Mr. Sensenbrenner. --that depends upon how the 
investigations were put together. You know, certainly the e-
mails indicated that, when there was a suggestion that people 
be fired in scientific journal--from scientific journal 
editorial boards, that whenever there was a contrary viewpoint, 
the people on the other side, you know, basically denigrated 
the scientific credentials of those who came up with that. And 
none of those internal investigations actually did the type of 
peer review that is needed for those of us who are not 
scientists to be able to reach a conclusion.
    Now, you know, it seems to me that what you have just 
testified to indicates a very callous lack of concern over the 
consequences of what the e-mails said, because apparently 
folks, and I am not sure whether you were one of them or not, 
had already decided the fact that the e-mails were to be, you 
know, completely denigrated and not even look for an 
investigation. Now, you know, maybe all this came out of a 
White House science advisor's office, because when he was at 
MIT his name was on those e-mails. I don't think you have 
really blown away the cloud of doubt on it, and I thank you for 
your answer, and yield back the balance of my time.
    Chairman Hall. Thank the gentleman. Recognize Mrs. Fudge, 
gentlelady from Ohio, five minutes.
    Ms. Fudge. I have no questions, Mr. Chairman, thank you.
    Chairman Hall. Chair recognizes Mr. Smith, the Chairman of 
Judiciary, for five minutes.
    Mr. Smith. Thank you, Mr. Chairman. Dr. Lubchenco, I would 
like to address my first question to you, and it is related to 
the BP Deepwater Horizon oil budget report of last year. You 
are on record, and individuals in your office are on record, as 
not wanting to distinguish between oil that was dispersed 
chemically and oil that was dispersed naturally. And I have to 
say to you that a lot of people feel that that was an 
intentional effort to give the Administration more credit than 
maybe they deserve by blurring the lines between those two 
different kinds of dispersals. Can you--you are welcome to 
respond to that, but I think any reasonable person would say 
that if you are trying to blur the distinctions between the 
two, that is going to give the Administration more credit, 
rather than being scientifically accurate.
    Dr. Lubchenco. Congressman, I completely agree with you 
that it is important to distinguish between oil that was 
chemically or naturally dispersed, and, in fact, NOAA is on 
record for continuing to want to do that, and the oil budget 
report that was released, in fact, did make a distinction 
between those two types of------
    Mr. Smith. Right, but aren't you on record in e-mails with 
your Deputy Administrator as opposing distinguishing the two, 
or you are not?
    Dr. Lubchenco. No, sir.
    Mr. Smith. Okay.
    Dr. Lubchenco. The two processes by which that happen are 
very different------
    Mr. Smith. Right.
    Dr. Lubchenco. --and it is important--oil that was shooting 
out of the Macondo well------ is naturally dispersed because of 
the physical turbulence that is right where it is coming out. 
And use of chemical dispersants------
    Mr. Smith. Right.
    Dr. Lubchenco. --also broke up oil into small microscopic 
droplets------
    Mr. Smith. Um-hum.
    Dr. Lubchenco. --and we believed it was very important to 
distinguish what oil--what fraction of oil came from naturally 
versus chemically dispersed, and, in fact, that is what was in 
the report, both the initial report that was released on August 
4, as well as------
    Mr. Smith. Right.
    Dr. Lubchenco. --the much more lengthy technical documents 
that provided all the background information. That went into 
even greater detail when it was released in November.
    Mr. Smith. What percentage was chemically dispersed and 
what percentage was naturally dispersed?
    Dr. Lubchenco. The final report indicated--our initial 
estimates were that eight percent was chemically dispersed. 
That was later revised upward, with more information, to 16 
percent of the total amount of oil that was spilled. The 4.9 
billion--million barrels, plus or minus ten percent, 16 percent 
of that was chemically dispersed.
    Mr. Smith. All the government efforts were responsible for 
16 percent of the dispersal, and the rest was natural? 84 
percent natural?
    Dr. Lubchenco. I am sorry, around one-quarter of the--all 
of the oil that was spilled was dispersed. Of that------
    Mr. Smith. Right.
    Dr. Lubchenco. So 16 percent of 100 percent was chemically 
dispersed. So of--this--I am sorry, this is confusing.
    Mr. Smith. No, no, I------
    Dr. Lubchenco. Of the quarter--of the total that was 
dispersed------
    Mr. Smith. Right.
    Dr. Lubchenco. --more was dispersed chemically than 
naturally. And I can give you the precise numbers, if that 
would be useful to you.
    Mr. Smith. Okay. Appreciate that. Thank you. Thank you----
--
    Dr. Lubchenco. Thank you.
    Mr. Smith. --Mr. Chairman.
    Chairman Hall. All right. Mr. Sarbanes, my gosh, I am glad 
to see you. Recognize you for 12 or 15 minutes, whatever you 
need.
    Mr. Sarbanes. Thank you, Mr. Chairman. I am going to wait 
until the next panel, but I do understand from my staff that 
you were thinking of having me nominated for the Nobel Prize 
for patience, which my children, particularly my two teenage 
sons, would have great amusement at hearing. So--but I will not 
be------
    Chairman Hall. It would be a lot better than a bunch of 
them that have been recognized. So I thank you, Dr. Lubchenco, 
for your testimony, and I thank the Members for their 
questions. I thank you for hanging so close to the five minute 
deal. Members of the Committee may have additional questions, 
Dr. Lubchenco, and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments from Members. And you are excused, and we 
will move to our next panel, and we thank you for your very 
valuable time.
    Dr. Lubchenco. Thank you, Chairman Hall, and Members of the 
Committee. I greatly appreciate your attention to our budget.
    Chairman Hall. Okay. We will move now to our second 
panelist, Dr. Anastas from EPA, and I welcome you, Dr. Anastas. 
Prior to his services as Assistant Administrator, Dr. Anastas 
was the Director of the Center for Green Chemistry and Green 
Engineering at Yale University. He was Chief of the Industrial 
Chemistry Branch and EPA's Office of Prevention, Pesticides and 
Toxic Substances.
    This is also the third time you have appeared before the 
Committee, and I am pleased that you could be here, and I thank 
you for being here. As our witness should know, spoken 
testimony is limited to five minutes, after which the Members 
of the Committee will have five minutes each to ask questions. 
And we ask you to do your best, but your importance tells us 
that we will have some leeway there if you want to finish 
answering a question. But try and stay as close to five minutes 
as you can. I think if I were you, I would want to answer them 
and then wind it all up. How about--who is next here? Dr. 
Anastas, we recognize you now for your first five minutes.

STATEMENT OF DR. PAUL ANASTAS, ASSISTANT ADMINISTRATOR, OFFICE 
     OF RESEARCH AND DEVELOPMENT (ORD), U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Dr. Anastas. Thank you very much, and good morning, 
Chairman Hall, Ranking Member Johnson, and the Members of the 
Committee. My name is Paul Anastas. I am the Assistant 
Administrator for the Office of Research and Development at the 
U.S. Environmental Protection Agency, and the science advisor 
for the agency. I am a trained synthetic organic chemist from 
Brandeis University, and prior to my current position, I was on 
the faculty at Yale University and the Director of the Center 
for Green Chemistry and Green Engineering at Yale. It is a 
pleasure to be with you here this morning to discuss the 
President's fiscal year 2012 budget for the Office of Research 
and Development at the EPA. As the Members of this Committee 
know, the EPA is not only a regulatory agency, EPA is a science 
agency. I am happy to discuss the excellent science that is 
taking place at the EPA.
    As millions of Americans are cutting back and spending 
less, they expect the same good fiscal sense out of their 
government. The EPA research and development budget reflects 
this responsibility and the hard choices needed to support both 
the fiscal health of our nation and the research needed to 
protect the health of the American people and the environment. 
EPA research is unique. In the environmental science community 
we conduct both intramural and extramural research that spans 
across the entire spectrum of scientific disciplines in support 
of EPA's mission. And while there are other agencies that focus 
on environmental issues and other agencies that focus on public 
health, the EPA is the agency, and the Federal government deals 
with both human and environmental health, and the intersection 
of these two areas.
    The President's 2012 budget includes $584 million for the 
Office of Research and Development, a decrease of $12.6 
million. While this decreased budget reflects the tough choices 
that are needed in today's fiscal climate, it allows the EPA to 
continue conducting the research and development necessary to 
protect all Americans. We will continue to address complex 
environmental challenges of the 21st century by pursuing the 
latest science with the most cutting edge research tools 
available. We will focus on efforts to understand the 
environmental threats we face and on the innovative approaches 
that promote synergy between human health and environmental 
protection that catalyze economic growth.
    With the 2012 budget, ORD will do more with less. We will 
work to strengthen the planning and delivery of our science by 
realigning our research programs so that they are integrated 
and transdisciplinary. This strategic internal realignment will 
help us conduct the best possible science to address today's 
transdisciplinary environmental challenges. EPA will also 
enhance its outreach to the research community through its 
Science and Technology to Achieve Results Program, the STAR 
Program. This investment compliments our internal EPA expertise 
by tapping into the expertise of academia and engaging the 
broader scientific community. Excellent research that, I may 
add, is taking place in most of the districts of the Members of 
this Committee.
    The 2012 budget request also supports high priority 
research areas that are of national importance. For example, 
the budget supports work on computational toxicology, an area 
that is revolutionizing the way that we assess chemicals and 
their potential toxicity to humans and the environment. 
Computational toxicological tools can help us get critical 
information more efficiently and at a lower cost. The budget 
also supports research in the field of green chemistry, an area 
focused on the design of chemicals that are environmentally 
benign and less hazardous to people. Green chemistry practices 
have demonstrated co-benefits in both environmental protection 
and economic growth.
    The 2012 budget includes a focus on innovative aging water 
technologies to address the nation's drinking water 
infrastructure. Through collaborations with strategic partners, 
both large and small business, universities and local 
governments, we will work to develop new cost-effective 
drinking water strategies.
    STEM fellowships in science, technology, engineering and 
math are also the focus of the 2012 budget. We recognize the 
importance of teaching, mentoring, and encouraging the next 
generation of scientists and engineers who will protect our 
environment into the future. Our STAR Fellowships Program will 
help ensure maximum intellectual capability and creativity are 
applied to today's environmental challenges. And finally, the 
2012 budget supports air monitoring research, which is critical 
to the development of 21st century technologies that can 
improve measurement data and address emerging air quality 
questions.
    To conclude, I believe EPA has a strong tradition of 
excellence in science. Today our expertise and capabilities 
leave us well positioned to take environmental protection to an 
even greater level of effectiveness, even during this time of 
tough fiscal choices. For decades we have worked to protect 
human health and the environment by reducing air pollution, 
reducing water contaminants, and by cleaning up hazardous waste 
sites. In 2012 and beyond we have the opportunity to align our 
research in ways that can strengthen this legacy. Thank you for 
the opportunity to appear before you today, Chairman Hall.
    [The prepared statement of Mr. Anastas follows:]
Prepared Statement by Dr. Paul Anastas, Assistant Administrator, Office 
of Research and Development (ORD), U.S. Environmental Protection Agency
    Good morning Chairman Hall, Ranking Member Johnson, and other 
Members of the Committee. My name is Paul Anastas. I am the Assistant 
Administrator for Research and Development at the United States 
Environmental Protection Agency. It is a pleasure to be here with you 
this morning to discuss EPA's FY 2012 President's Budget for the Office 
of Research and Development (ORD).
    As millions of families are cutting back and spending less, they 
expect the same good fiscal sense out of their government. The EPA 
research and development budget reflects the hard choices needed for 
our nation's short- and long-term fiscal health, while at the same time 
allowing us to maintain critical research needed to protect public 
health and the environment.
    ORD is unique in the environmental science community because we 
conduct intramural and extramural research across the entire spectrum 
of disciplines necessary to support the mission of EPA. In addition to 
the cutting edge science that we have traditionally pursued, we will 
invest in research on innovative technologies and promote synergies 
between environmental protection, public health protection and the 
pursuits of economic growth and job production. As science advances, 
EPA is working to address the increasing complexity of the 21st 
century.
    The President's 2012 Budget includes $584 million for EPA's Office 
of Research and Development, a decrease of $12.6 million from the FY 
2010 enacted budget, to support research and innovation into new and 
emerging environmental science. With this investment, we will focus on 
enhancing and strengthening the planning and delivery of science by 
restructuring our research and development programs to be more 
integrated and cross-disciplinary. By strategic internal redirections, 
EPA will enhance its outreach to the broader scientific community 
through its Science to Achieve Results (STAR) program, which funds 
competitive research grants across a broad range of environmental 
science and engineering disciplines. This investment will bring 
innovative and sustainable solutions to environmental science 
challenges by engaging the academic research community. This request 
also supports high-priority research of national importance in such 
areas as:

        <bullet>  Computational Toxicology, which is revolutionizing 
        how chemicals are assessed for potential toxicity to humans and 
        the environment by conducting innovative research that 
        integrates advances in molecular biology, chemistry and 
        innovative computer science to more effectively and efficiently 
        prioritize chemicals, including potential endocrine disruptors, 
        based on risks.

        <bullet>  Green chemistry to develop innovative approaches and 
        tools that inform the design of chemicals throughout their life 
        cycle.

        <bullet>  Innovative drinking water technology to address the 
        Nation's aging water infrastructure by advancing new 
        technologies and working with strategic partners to help bring 
        new cost-effective technologies to the market.

        <bullet>  Science, Technology, Engineering and Mathematics 
        (STEM) fellowships to focus the best scientific minds in the 
        environmental field to focus on our hardest problems and 
        develop the next generation of scientists and engineers that 
        will provide the solutions to our Nation's environmental 
        challenges

        <bullet>  Air monitoring research to provide 21st century 
        technologies to improve measurement data to address emerging 
        air quality questions.

Conclusion

    In conclusion, we have a strong tradition of excellence in science 
at EPA-one that we are well positioned to build upon to take 
environmental protection to the next level. For decades, we have 
protected human health and the environment by reducing air pollutants 
and water contaminants, cleaning up hazardous waste sites, and many 
other significant actions. In 2012 and beyond, we have the opportunity 
to strengthen this legacy.
    I look forward to working with the Committee to address current and 
emerging environmental problems that will help our Agency protect the 
environment and human health. Thank you for the opportunity to appear 
before you today.

    Chairman Hall. Thank you for your testimony. Reminding 
Members that committee rules limit questioning to five minutes, 
the Chairman at this point will open the round of questions, 
and I recognize myself for five minutes.
    Doctor, your office has released a draft study plan to 
investigate the relationship between hydraulic fracturing and 
drinking water, right?
    Dr. Anastas. Correct.
    Chairman Hall. I am concerned about the scope, design, and 
objectivity of this study. I understand that the EPA Science 
Advisory Board is hearing from stakeholders this week regarding 
similar concerns.
    Dr. Anastas. True? The Science Advisory Board is reviewing 
the study plan this week.
    Chairman Hall. Can you commit to me that you will give 
strong and thorough consideration to all stakeholder comments 
filed on this study, and that you will proceed with it in an 
objective and transparent manner?
    Dr. Anastas. We always will take------
    Chairman Hall. This is not what you always do. Will you 
tell me you are going to do that this time?
    Dr. Anastas. As always, we will------
    Chairman Hall. Yes. Do you know how to say yes------
    Dr. Anastas. I do.
    Chairman Hall. --to me?
    Dr. Anastas. As a matter of fact------
    Chairman Hall. You never have.
    Dr. Anastas. --end of my sentence.
    Chairman Hall. Okay. All right. I understand that this 
study is expected to take a couple of years. Will you also 
commit to providing opportunities for public and stakeholder 
input, including from State regulators, industry and academic 
community on study activities after it has been initiated? Yes 
or no?
    Dr. Anastas. Yes, we--yes.
    Chairman Hall. Okay. All right. I will get to the next 
question. It will be much easier, probably, than that one. How 
will the proposed study take into account whether current State 
and Federal regulations are capable of effectively managing and 
addressing drinking water issues related to the hydraulic 
fracturing? Right now it seems to me that you are ignoring 
State regulations.
    Dr. Anastas. Chairman Hall, this is such an important 
topic. Let me just say one important thing about it. We do not 
presuppose the results of a study before it is completed. This 
is a study to understand what the potential impacts are, and it 
would be inappropriate and unscientific in order to presuppose 
what the results of that study is going to be. This is to 
determine whether or not there are impacts from this important 
area.
    Chairman Hall. Well, if potential concerns are not examined 
in the context of current rules and practices, how is the study 
going to have any value in terms of informing key decision 
makers, like the States?
    Dr. Anastas. Key decision makers are going to be involved, 
engaged, in this--have been engaged and will continue to be 
engaged in the formation of the study design, and as we go 
forward with it. But this is a research study that we are not 
presupposing the outcomes of the potential impacts, if any, on 
this important area.
    Chairman Hall. A lot of your planned study focuses on the 
possible impacts of hydraulic fracturing------
    Dr. Anastas. Correct.
    Chairman Hall. --with very little focus on the probability 
of those impacts occurring if current State level regulations 
are followed. With a million wells hydraulically fractured, and 
over half a century of history, how do you justify not 
incorporating well established risk assessment and 
characterization methodologies into this study in order for 
decision makers to quantify and better respond to any risks 
that are identified?
    Dr. Anastas. It would be impossible to calculate the 
probability of an event happening if we don't first determine 
whether or not a risk--whether or not an event, an impact, 
actually can happen. So while I understand the nature of your 
question, it is a follow up consideration after we determine if 
there are potential impacts.
    Chairman Hall. I recognize Mrs. Johnson for her five 
minutes.
    Ms. Johnson. Thank you very much. Dr. Anastas, I am a 
native Texan. We are a stubborn group, and we don't care too 
much about what people think, but I want to applaud your office 
for looking out for our future. The Office of Research and 
Development budget request highlights the Administration's goal 
to strengthen the future scientific work force by increasing 
funding for fellowships to students through Science and 
Technology to Achieve Results. That is the STAR grant, and the 
fellowship program. How is the Office of Research and 
Development leveraging the work of STAR grantees to make 
progress on the agency's research priorities, and what impact 
would the House passed 2011 funding bill have on your research 
programs, and which programs would be terminated or severely 
crippled?
    Dr. Anastas. Well, thank you very much for recognizing the 
important role that our STAR fellowship program and our STAR 
grants program plays. It is critical to complement the 
excellence and the expertise in the Office of Research and 
Development by tapping into the expertise in the broader 
scientific community. And that is research, as I mentioned in 
my opening statement, taking place in the universities and 
research institutes in the districts of many of all of you.
    In addition, the STAR fellows are our investment in the 
next generation of scientists. These fellows, which go through 
a very competitive process in order to get these fellowships, 
often become environmental professionals at universities, at 
the State level, and yes, even at the EPA, and so it is an 
extremely important role that they play. I would just say that, 
while we recognize that the proposed budget cuts are broad and 
severe, it is difficult, with the level of detail currently, to 
know exactly which programs would be curtailed or need to be 
eliminated. But it--it is important that, when we look at the 
foundation, the scientific foundation of how we protect our 
air, water, and land, that the proposed budget allows us to 
continue that important research, and some of the cuts being 
proposed would be--would severely impact that.
    Ms. Johnson. Now comes the question that reflects on where 
I am from. The Administration's budget request highlights the 
Sustainable and Healthy Communities Research Program, which 
develops innovative approaches to help communities increase 
their environmental sustainability and resilience more 
efficiently and effectively. How will EPA ensure that lower 
income communities are able to participate in this program?
    Dr. Anastas. One of the things that has been seen over the 
past years is that the impacts on low income communities are 
disproportionate to the population in general. There is study 
after study that shows that this is an important consideration. 
And what we need is the scientific basis for understanding, not 
just assessing the risk chemical by chemical, but the 
cumulative impacts on these disproportionately impacted 
communities from a variety of chemicals, a variety of different 
substances.
    And so one of the things that this budget includes, and one 
of the priorities of this Administrator, is focusing on 
environmental justice in disproportionally impacted 
communities. So what that looks at is the new scientific tools. 
As a matter of fact, this past year we held a groundbreaking 
symposium on the basic research, the basic scientific tools, 
around environmental justice, and are in the process of 
developing those types of technical guidance documents for the 
models, the tools, the scientific tools that are necessary for 
these types of analyses.
    Ms. Johnson. Thank you very much. My time is about over.
    Chairman Hall. The gentlelady yields back and I recognize 
the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I am 
sorry, I have had to run back and forth today between two very 
significant hearings, and so I will hope that the questions I 
have in mind are not repetitive of some of the points you may 
have made in your opening statement, but I will be reading your 
opening statement in its total this afternoon.
    I would like to ask about the EPA's finding of CO<INF>2</INF> 
essay, a pollutant, and thus a danger to human health. This is 
something that many of us are deeply concerned about, because 
we find that to be, at least after looking at the justification 
of that, to be a stretching of the definition of human health 
to the point that it opens up broad new areas of controls over 
peoples' lives than what people really believe does--what human 
health was all about, and--originally.
    That report--the technical support document in backing up 
that report relied heavily on the intergovernmental panel on 
climate change. In fact, 50 percent of the sources on this 
support document either were directly from the IPCC or relied 
on the IPCC. Do you think that you can rely that much on 
people--scientists that are not necessarily familiar to you 
personally to do something as dramatic as claiming the powers 
that then flow from this decision?
    Dr. Anastas. The technical support document that you refer 
to does rely on a number of sources. Certainly relies on the 
reports out of the National Academies and the National Resource 
Council of this------
    Mr. Rohrabacher. Um-hum.
    Dr. Anastas. --country, the--several studies from the 
National Academies.
    Mr. Rohrabacher. And some of the National Academy studies 
rely--if you read them, rely on the IPCC research that was then 
given to them.
    Dr. Anastas. There are both original, as well as------
    Mr. Rohrabacher. Okay.
    Dr. Anastas. --assessments in synthesis. There are also the 
studies from the U.S. Global Change Research Program, as well 
as the IPCC.
    Mr. Rohrabacher. Okay. Well--let me put it this way. After 
the disclosure of the Climategate e-mails, many of which talked 
about suppressing dissent, many of which talked about 
manipulating graphs, and as we know, one important graph by Mr. 
Hansen over at NASA eliminated an entire--what they call a 
hockey stick, an entire description of the mini-Ice Age and 
ended up saying that there wasn't a mini-Ice Age. With all of 
that--the shenanigans that were indicated by these e-mails, you 
still think that we can rely upon people who suppress dissent, 
manipulate graphs and actually limit--and manipulate computer 
input?
    Dr. Anastas. I think it is always important to ask the kind 
of questions that you are asking, Congressman. What I think we 
have seen is the--whether it is reviews from universities, 
whether it is reviews from--even the House of Commons in the 
UK, that investigation after investigation on whether any of 
these concerns have changed the science or the scientific 
conclusions, the answer is definitively no. But I can't say it 
better than the National Academies said it this past year, and 
I will quote, ``A strong credible body of scientific evidence 
shows that climate change is occurring is caused largely by 
human activities and poses significant risks for a broad range 
of human and natural systems.''
    Mr. Rohrabacher. And that climate change is something that 
now the EPA has expanded a definition of human health to 
include climate change. Mr. Chairman, I would, at this point, 
like to submit for the record a list of 10 quotes from the EPA 
Climategate documents, the e-mails that were made public that 
indicate that those involved in--the research centers being 
depended upon were engaged in manipulation of information, of 
suppressing dissent, and other unscientific activities.
    Chairman Hall. Without objection, they are admitted.
    [The appears in Appendix II:]
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
appreciate this chance to get a chance to talk to you.
    Chairman Hall. Chair now recognizes the gentleman from 
California, Mr. Miller.
    Mr. Miller. I have never been confused--have you listened 
to the way I talk? You think I am from------
    Chairman Hall. I have suffered from the way you talk.
    Mr. Miller. I would have thought you would have been 
comforted by the way I talk.
    Chairman Hall. But you are a great lawyer. I want to hear 
from you.
    Mr. Miller. Thank you. Thank you, Mr. Chairman. I am Miller 
of North Carolina. One of the issues that this Committee and 
the Oversight Subcommittee has looked at in the last few years 
has been the clusters of rare cancers in rural areas, the 
clusters of rare birth defects in lightly populated areas, that 
has to have been caused by the environmental exposure. There 
really is no other explanation, but it is very difficult to 
tell exactly what it is that led to it. The EPA has had for 
some time now the IRIS Program, the------
    Dr. Anastas. Yes.
    Mr. Miller. --registry of chemicals that are considered to 
have a public health effect, or may have a public health 
effect. The risk assessment for those, which has come under 
great criticism, although there are thousands--at least 
hundreds, certainly, and perhaps thousands of new chemicals 
entering the market every year, IRIS has really done--produced 
two or three new assessments a year. And the GAO has had the 
IRIS Program on the high risk watch for programs that simply 
are failing, and the apparent reason is the interference with 
the White House Office of Management and Budget. OMB is 
specifically--OIRA, the Office of Regulatory------
    Dr. Anastas. Information and Regulatory Affairs.
    Mr. Miller. There you go, what you said. And we have been 
promised reform of that, and what is the status of that reform? 
Were you--or what steps are you taking to get IRIS off the high 
risk watch list? What are you doing to make sure that there is 
not political interference by OMB, by OIRA, by industry or by 
the agencies that themselves use chemicals that have public 
health consequences?
    Dr. Anastas. First of all, thank you very much for the 
question, and the chance to address this topic, because it is--
it goes to the core of the scientific integrity that this 
President and this Administrator insists upon. The IRIS program 
is extremely important and was on the high risk watch list 
because of its importance and because of necessary changes that 
needed to take place. The changes that have taken place are a 
reformed IRIS process that Administrator Jackson put in place 
in May of 2009.
    Since that time, the number of IRIS assessments that have 
been produced exceeds the number of assessments from the 
previous four years combined. We made significant investments 
in fiscal year 2009 to the base of that program, an increase of 
25 percent in personnel and 40 percent of the budget back in 
2009. Because of those--the reforms of the process, because of 
the reforms of the--and the advancements made, we believe that 
IRIS is on the right path to being a--to being the type of 
solid program that we can all be proud of. But we agree that a 
program of this importance, it is appropriate to have the level 
of scrutiny that the GAO is saying to keep it on the high risk 
list.
    Mr. Miller. Thank you. Mr. Chairman, Mr. Rohrabacher moved 
into the record, without objection, quotes regarding the e-
mails from East Anglia. Those have been examined closely by 
several scientific bodies. The British House of Commons had an 
inquiry that produced a report that found that there was 
overwhelming scientific evidence of anthropogenic, in other 
words, man caused, human caused climate change, and cleared 
the--or University of East Anglia. That was by scientists. In 
addition, there was a Penn State inquiry as well that found the 
same thing. I do not have those reports with me, but I can 
gather them pretty quickly, and I would like to move those into 
the record as well.
    Chairman Hall. You don't have anything from Libya?
    Mr. Miller. I did not understand you, sir.
    Chairman Hall. I say, without objection, they will be 
admitted.
    [The appears in Appendix II:]
    Mr. Miller. Okay. Thank you. I am sorry, I do have one, 
which I will provide now, and I will provide the other later.
    Chairman Hall. Okay. I thank you. Now we recognize Dr. 
Harris from Maryland.
    Mr. Harris. Thank you very much, Mr. Chairman, and thank 
you, Doctor, for appearing for us. I have to tell you, I don't 
always listen word for word for what--our wonderful Chairman 
when he introduces witnesses, but he did use that word organic 
chemist in there. And to a physician who went through pre-med, 
it still strikes fear in our hearts. Anyway--so 
congratulations, being an organic chemist. Anyone who has been 
there will know what I am talking about.
    Doctor, you know, you mentioned--I am going to follow up 
from the gentleman from California. You know, you gave the 
quote there that said, well, you know, there are going to be 
significant impacts, but you and I both know what significant 
means, to a scientist means P less than .05 at any amount, 
okay?
    And we are going to get into TMDLs in a second, but with 
regards to CO<INF>2</INF>--see, that is the problem. I mean, 
look, I know that the temperature is increasing, and I know 
that CO<INF>2</INF> probably has a little bit to do with it. 
The question is, can we make a significant--have a significant 
effect by spending trillions of dollars doing it? So that--in 
my mind, that is the question. It is not whether there--we 
could significantly affect it. Sure, we probably can. We can 
probably make that much change, or that--I don't know, and it 
is all based on modeling.
    I am going to segue into TMDLs, the total maximum daily 
loads out of tributaries, very important to the Chesapeake Bay. 
I just need to know, did your office have anything to do with 
developing the modeling for TMDLs?
    Dr. Anastas. The Office of Research and Development works 
very closely with the Office of Water in developing underlying 
science. It is the Office of Water that then is involved with 
the determinature of the------
    Mr. Harris. Thank you. So let me get into that, because you 
say the underlying science, but my understanding is that the 
Chesapeake Bay Watershed model--and, look, I have done 
scientific research. My understanding of science is you go out, 
you make some observations, and you collect data from a group 
of observations, and you comment on those observations, and 
then postulate about the possible meaning of those 
observations.
    This Chesapeake Bay Watershed model is a computer model. I 
mean, it is modeling, and most people who know computers know 
you can kind of program it to get whatever results you kind of 
want. So it is based on--I mean, I think that is true. That is 
what my kids tell me. It is--so what you have got is you have 
got a model based on urban point sources that then have to have 
something called the scenario builder application applied to it 
to actually go and to look at agricultural non-point sources, 
and then come up with a justification for TMDLs.
    Now, I am just going to ask you do we have any evidence, 
real evidence, in any water shed anywhere that implementing a 
TMDL regulation of this magnitude, because this will cost tens 
of billions of dollars in the Chesapeake Bay Watershed. I have 
one county alone, $1.87 billion in that county. They would have 
to double or triple their property taxes to pay for it. Similar 
to the CO<INF>2</INF> speculation--I will call it speculation 
because we really don't know what that curve looks like, except 
we do know it is flatter than postulated originally.
    Given that speculation, are we, you know, how do you call 
that science if what you are doing is you are creating a 
computer model that doesn't work on real data and has no real 
data, in terms of efficacy, to prove that it is worth the 
investment of tens of billions of dollars? I mean, is this 
really just based on a computer model?
    Dr. Anastas. Thank you very much for the question, Dr. 
Harris. This is an important point. The Office of Research and 
Development plays an important role in looking at what the 
different contaminants are, what the different substances are 
that might cause adverse consequence to the environment, to the 
ecosystem, et cetera. The modeling that you discuss is 
something employed by the Office of Water in making regulatory 
determinations.
    I will suggest, just as a general comment on modeling, that 
validation of models is an essential and important part of the 
utilization of any model. And so, when we take a look at this 
model that is being used by the Office of Water to make these 
determinations, certainly sensitivity analysis modeling 
validation is crucial. And one of the other, I think, very 
important points to make is some of the basic research that is 
being developed is how do we look at the various approaches, 
for instance, in the Chesapeake Bay, of comparing the 
traditional--what is called gray infrastructure, or constructed 
facilities, to help purify the water with green infrastructure, 
the natural ways that the ecosystem does it, and------
    Mr. Harris. Sure. I understand, Doctor, and I just don't--I 
only have three seconds left, so I am just going to ask, is 
there validation, and could you share that validation? Is it 
based on real observations, and if it is, could you--are you 
willing to share that with my office, what conclusions you came 
up with, or validations?
    Dr. Anastas. I will be more than happy to go and take that 
question back to the Office of Water and get that information.
    Mr. Harris. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Hall. Thank you, Doctor. Now recognize the 
gentleman really from California, Mr. McNerney.
    Mr. McNerney. Well, thank you, Mr. Chairman. I was 
wondering if you were going to say I was from North Carolina, I 
appreciate that you didn't. Anyway, I have some very direct 
questions here.
    How do you think the continuing resolution that was passed 
would affect the agency's ability to prevent another Love Canal 
or similar type of occurrence?
    Dr. Anastas. The role of the Office of Research and 
Development is to provide the scientific basis for the actions 
that are taken, the scientific basis for the decisions that are 
made. So we know that, in general, the types of cuts that are 
being proposed would significantly impair the ability of our 
research programs on air, water, land, but it is difficult, 
with the current level of specificity, to know exactly which 
would be impacted at this time.
    Mr. McNerney. Well, one of the complaints that the majority 
has about the Environmental Protection Agency is that it will 
cost jobs, but I think that that is a false choice. We can have 
jobs, and we can have clean air, and we can have clean water. 
In fact, we have to have clean air and clean water to have 
jobs. So--and also, I think there is an effect that many jobs 
were created because of the Clean Air Act. Could you comment on 
that?
    Dr. Anastas. It is an excellent point, because we have 
heard this discussion about the tradeoff between jobs and that, 
and we know we are all concerned about job growth, especially 
at this time. When we take a look at the accomplishments that 
have taken place since the founding of the EPA, the dramatic 
improvements to air quality, the purification of the water at 
the same time that our gross domestic product has increased 207 
percent over that time. When we take a look at the study 
required by the Congress on the effect of the Clean Air Act 
that you mentioned, that--the Clean Air Act would result in $2 
trillion of benefits over the course of the life of the--since 
the passing of the Clean Air Act amendments, and a 30 to one 
return on the cost of those regulations. That is dramatically--
that is a dramatic return on return on investment.
    Mr. McNerney. Well, that is certainly dramatic. Another 
thing is that the, again, the CR's effect on the EPA's ability 
to promote stem education, science, technology, engineering, 
mathematics. Would this discourage students from getting into 
those fields, this kind of a CR, and also does it drive current 
practitioners out of the fields--of those fields?
    Dr. Anastas. Our STEM fellowships are one of the real gems 
that we are very proud about. It allows students to be involved 
in this area, and it is extremely competitive. We are able, 
because of the popularity of this particular program, to only 
fund a small percentage of those students who apply for it. But 
those students who compete successfully are the cream of the 
crop, true excellence, and are the vanguard of the scientists 
who will inform the environmental protection into the future.
    Mr. McNerney. So--I mean, it sounds to me like the majority 
party is willing to risk our ability to protect our communities 
from toxic waste, the--they are willing to risk the creation of 
new jobs, and they are willing to put--or prevent scientists 
from going into the field, and all because of a few--not a few, 
but many misguided e-mails sent by a few scientists in East 
Anglia. Thank you. That is the last of my question.
    Chairman Hall. I thank you. At this time we will recognize 
Mrs. Adams, the gentlelady from Florida, who will be given some 
excess time. She didn't get all of her answers last time, but 
we recognize you for five or five<greek-e>d a half minutes, or 
something like that.
    Mrs. Adams. Thank you, Mr. Chair.
    Well, quite honestly, I have just been listening, and I 
heard you say it was 31--30 to one return.
    Dr. Anastas. Yes.
    Mrs. Adams. Do you have what those 30 are? I mean, can you 
provide that to--my office?
    Dr. Anastas. Oh, would be happy to. As a matter of fact, 
this is a report that is required by Congress to be put out on 
the effectiveness and the costs and the benefits of the Clean 
Air Act. Would be happy to provide that, and what the number is 
in the Clean Air Act amendments, which are largely known to be 
among the most expensive regulations that the EPA puts out, 
also have the highest return, as I mentioned, $30 in benefits 
for every $1.
    Mrs. Adams. Correct, but I--as a new Member, I would love 
to see that, if you------
    Dr. Anastas. Be---
    Mrs. Adams. --get it to my office.
    Dr. Anastas. --happy------
    Mrs. Adams. You know, I was listening to Congressman Smith, 
and when he was asking about the Deepwater oil spill, and I am 
sure you heard the discussion that was being had. And one of 
the things that--the Doctor said something about--she mentioned 
this Gulf seafood and everything else, and there has been some 
discussion on whether it is safe to eat, whether it is not safe 
to eat. It has been ruled that it is safe to eat, but listening 
to discussion this morning, I wondered if the American people 
that were listening were wondering if that was now true, based 
on her comments.
    But I noticed that there has been, you know, there has been 
crossover between agencies, and--related to the August 4 
Deepwater Horizon budget report, titled ``What Happened To The 
Oil?'' An e-mail from EPA Deputy Administrator Bob--I------
    Dr. Anastas. Perciasepe.
    Mrs. Adams. There you go. Summarizes comments made by you, 
Al Venosa and Greg Williams, opposing the idea of 
distinguishing between oil that is in the ocean naturally or 
dispersed via--versus the chemical dispersions--I will say Bob, 
not real good with his last name, states, ``The physically 
dispersed versus chemically dispersed has a logical basis. 
However, that is different from saying it is accurate.'' He 
also stated, ``EPA feels that the evidence is currently not 
sufficient to enable us to distinguish accurately chemical from 
physical dispersence mechanisms.'' And, you know, blurring the 
lines between, as Mr. Moore said, what was chemically dispersed 
and what was naturally dispersed. Do you believe the 
Administration, and specifically the Administrator that just 
was here before you, was trying to give the information that 
the Federal response was greater than it was actually needed?
    And I just want to note something. There was an e-mail to 
Bob from her that said, ``Chemically dispersed is part of the 
Federal response, and naturally dispersed is not, and there is 
an interest in being able to sum up the Federal response 
efforts.''
    Dr. Anastas. So--thank you for the opportunity to speak to 
this important question. Couple of things. One, NOAA took on 
the very difficult scientific question of estimating the 
current state at the time of where the oil was going, and the 
natural scientific discussions about the approaches were an 
important discussion. The one thing------
    Mrs. Adams. I asked a question, though, and that was------
    Dr. Anastas. Oh, I am--I------
    Mrs. Adams. --was the Administration trying to give the 
impression that Federal response was greater than it actually 
was?
    Dr. Anastas. No. Let me explain why. Even with that first 
draft, it would be the exact opposite. If you wanted to 
demonstrate that the government response was more needed or 
more effective, the assumptions would have been exactly 
reversed. The revision--the later revisions and refinements of 
the data increased the amount of chemically dispersed oil. And 
so the first------
    Mrs. Adams. So you don't believe that chemically 
dispersed------
    Dr. Anastas. --in an understatement.
    Mrs. Adams. So you don't believe--because, I mean, when I 
interpret this e-mail, and it says, because naturally dispersed 
is not part of a Federal response, we need to, you know, there 
is an interest.
    Dr. Anastas. In that first draft that you are discussing, 
naturally dispersed was portrayed as being higher------
    Mrs. Adams. Okay. Why are there no EPA scientists listed on 
the August 4 BP Deepwater Horizon's oil budget report, titled 
``What Happened to the Oil?'' There were earlier drafts of the 
report listed, and at least one, Dr. Venosa was on that one.
    Dr. Anastas. Dr. Venosa was asked to comment on the report 
after it was drafted. Dr. Venosa, it is my best understanding 
that he was not involved with the drafting of the report, but 
asked to comment on it after it would, I believe, be------
    Mrs. Adams. So why are there no other EPA scientists on 
there?
    Dr. Anastas. They weren't involved with the drafting of the 
report. Commenting on the report after it is drafted probably 
isn't the best way to include somebody as an author.
    Chairman Hall. Gentleman's time expired. Recognize Mrs. 
Fudge, the young lady from Ohio, five minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    Dr. Anastas, on this Committee we talk a lot about 
innovation and technology development, and much of what we hear 
in this Congress about the EPA relates to regulatory work and 
how regulations kill jobs and hurt our economy. Last week, 
during a hearing with DOE, I asked Secretary Chu about how the 
Clean Air Act has helped compel new developments in clean 
technologies. Secretary Chu explained that regulations have 
helped spur a variety of new technological developments.
    In fact, I have a Department of Commerce report that states 
that the environmental technology and services sector have 
experienced dramatic growth since the passage of the Clean Air 
Act, and by 2008 had generated approximately $300 billion in 
revenues and supported nearly 1.7 million jobs.
    I just want you for--again, for the record, to talk about 
the impacts of the Clean Air Act on jobs and the economy, and 
how do EPA regulations and scientists spur innovation.
    Dr. Anastas. Thank you for the opportunity to speak to this 
topic, because I certainly believe that some of the most--among 
the most important jobs that we can have is jobs that do 
contribute to protecting Americans' health, protecting 
Americans' environment. And you are correct in saying not only 
has that emerging area of environmental technologies, as you 
cited, been a $300 billion market, but globally it is projected 
to be a $700 billion market, which would allow for some of the 
technologies built here in America to be an export in a growing 
market.
    Perhaps one of the most exciting areas of innovation is how 
we start thinking about our understanding of what causes us 
concern for environmental and public health, such as some of 
the chemicals that we use every day, you know, the basis of our 
society and our economy. And in addition to getting the deep 
insight about what makes some of these chemicals cause the 
problems for our health and for our environment, we are able to 
take this insight and turn it into design of next generation 
substances that both increase performance, increase 
profitability and are good for humans and the environment. This 
is the area of green chemistry that is recognized by the 
Presidential Green Chemistry Challenge Awards, with leaders in 
industry, small business and academia showing that they can use 
innovation to make themselves more profitable, while being 
environmentally beneficial.
    Ms. Fudge. Thank you very much, Doctor. Thank you for your 
testimony, and I yield back, Mr. Chairman.
    Dr. Anastas. Thank you.
    Chairman Hall. Thank you. This time recognize Vice-Chairman 
of the Committee, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Dr. Anastas.
    Dr. Anastas. Thank you.
    Mr. Sensenbrenner. I want to go back to Mr. Rohrabacher's 
line of questioning------
    Dr. Anastas. Um-hum.
    Mr. Sensenbrenner. --and I just want to reiterate some 
figures. With the technical support document released on 
December 7, 2009, there are 35 references from the IPCC and the 
Climate Change Science Program. There are an additional 43 
references for the individual chapters or summary within those 
35. There are five more studies that were incorporated into 
Chapter Seven of the 2007 Working Group One IPCC report, which 
again, is 35 mentioned--one of the 35 mentioned above, and 
there are further 29 reports from either the National Academy 
of Science or from government agencies.
    Now, the total of that is, out of the 146, 77 came from 
inside the government, or from the IPCC, or the Climate Change 
Science Program, and 69 outside. So a majority of the studies 
were from government or government related, because the IPCC is 
a UN group. Do you agree that this is a high amount of 
dependence on the IPCC?
    Dr. Anastas. I think it is important to recognize that the 
IPCC--and as I--I believe I have the figure that there is 619 
contributing authors of scientists from different universities, 
from different research institutes that contribute to the IPCC.
    Mr. Sensenbrenner. Well, I am asking you whether you think 
it is a high amount of dependence upon the ICC--IPCC and 
related sources.
    Dr. Anastas. I think what we are talking about------
    Mr. Sensenbrenner. Yes or no?
    Dr. Anastas. No.
    Mr. Sensenbrenner. Okay. What are you doing about ensuring 
that the EPA's policies are based on a diversity of sources for 
scientific input into its decisions? This doesn't look very 
diverse to me, where it is 77 from inside and 69 from outside.
    Dr. Anastas. The contributions to these assessments are 
from the primary scientific literature conducted by research 
institutes and universities. This is what makes up these 
assessments. So the diversity is not on the assessments 
themselves, it is where those assessments compile their primary 
scientific literature, the primary research.
    Mr. Sensenbrenner. There have been a lot of mistakes that 
have been, unfortunately, discovered, the worst of which was 
when the Himalayan glaciers would melt. It has gotten so bad 
that the government of India doesn't rely on the IPCC, even 
though its chairman is an Indian citizen, and they have one of 
their institutes outside of New Delhi. So, you know, I think 
there is at least one government that wants to reach 
independent conclusions from the IPCC in determining what they 
are doing.
    Now, let me ask you, sir, since you are the principal 
science advisor to the Administrator, how can you assure us 
that the data relied on meets all basic EPA data quality 
standards?
    Dr. Anastas. One of the things that the Administrator said 
to me when she approached me about taking this position was her 
commitment to scientific integrity and her insistence that I 
always do everything in my power to ensure scientific 
integrity. What we have is a framework for preserving that 
scientific integrity. It involves everything from insisting on 
peer review of the scientific analyses that are conducted, and 
it says------
    Mr. Sensenbrenner. And I am sorry, Dr. Anastas, but, you 
know, there was one report that was in one of the IPCC 
documents that was written by, you know, some student that 
appeared in a scientific magazine, it might have been 
``Nature'', or somebody else with absolutely no peer review. 
Now, have you gone back and look at how much of this stuff was 
vigorously peer reviewed and how much simply slipped through 
the cracks and was published as gospel by the IPCC without any 
peer review?
    Dr. Anastas. Of the thousands of scientific studies that 
are published in the peer review literature that contribute to 
these assessments, the data that is relied upon by the agency 
not only looks at peer review, we also look at review by a 
science advisory board. We also get input from such bodies as 
our Board of Scientific Counselors. The structure of preserving 
scientific integrity is something that is------
    Mr. Sensenbrenner. Um-hum.
    Dr. Anastas. --of paramount importance to me, and of 
paramount importance to this Administrator.
    Mr. Sensenbrenner. Well, I, you know, as you know, I 
disagree with this Administration on the job killing global 
warming thrust that I think has been sufficiently discredited. 
Even the last Congress defeated it. But let me suggest you put 
the wagons in a little bit tighter circle, because you will 
hear more about this. And I yield back.
    Chairman Hall. I thank the gentleman. Finally I recognize 
Mr. Sarbanes from Maryland.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. Thank you 
for being here, Mr. Anastas. Just on the climate change issue 
briefly, before I ask a question on another line, as I 
understand it, the mistakes that the IPCC has made along the 
way are ones that have been acknowledged, that they have 
recognized, that when you lay them against all the rest of the 
information and analysis and assessment that has been done, 
really pales in comparison to the very good work that has been 
done there. And I just want to commend you and the EPA for 
being careful in responding to criticism of the IPCC to make 
sure that you don't sort of throw the baby out with the bath 
water.
    And, frankly, having scientists acknowledge that a mistake 
may have been made here or there, but that the overall weight 
of the evidence and analysis is still very, very powerful and 
compelling, I think, frankly, will give it more credibility 
going forward, and I commend the agency on trying to make those 
distinctions, because that is how you need to proceed in order 
to make important recommendations with respect to policy 
relating to climate change. So I just did want to acknowledge 
that.
    I wanted to get back to the Chairman, when he initiated the 
questioning on this round, did refer to the fact that the EPA 
will be taking a look at this hydrofracking issue, and I am 
glad that that is the case. The folks in Maryland and the 
Chesapeake Bay Watershed, our radar is starting to go up on 
this issue as we see what is happening with the development of 
the Marcellus Shale. Frankly, my perspective is that the 
industry is moving faster than is prudent in this region right 
now. There is a kind of a pell-mell quality to the way they are 
moving. If the promise of this is what it is described as by 
the industry, and certainly there is profitability in it, from 
what I can gather, it is all that it is being touted as, then 
certainly we can afford to make sure that we are proceeding in 
a careful manner, that it is being done right, and that it is 
being based on science.
    What I was curious about is whether the study that will be 
conducted by the EPA will be taking a look at the impact with 
respect to waste water, the impact of that being released into 
tributaries within the Chesapeake Bay Watershed, the potential 
now for there to be radioactive elements. There is one concern 
now that is being looked at. Are those all things that will be 
within the boundaries of the study?
    Dr. Anastas. Thank you very much. This is an important--
another important topic that is so appropriate. When the 
American people raise these types of concerns, when their 
representatives in this Congress raise the concern to call on 
the EPA to carry out this study, I think it is so important. 
Will this study be focusing on the so-called radionuclides in 
the water? Yes, that is definitively and explicitly part of 
this study. Will this study be focusing on the impacts of 
drinking water and the vast number of questions that we are 
looking at around drinking water and water quality? Yes. Can 
this study answer all of the questions that we would like to 
have addressed, because there are quite a few that we have been 
informed about through this engagement with the stakeholders, 
with the industry, with the scientific community? This is a 
study that is going to be responsive to the charge from 
Congress, and this study will inform other research questions 
and important questions that I think need to be addressed.
    Mr. Sarbanes. Thank you. And then I wanted to just quickly 
touch on a third topic. My colleague raised the issue of the 
TMDLs, and------
    Dr. Anastas. Um-hum.
    Mr. Sarbanes. --I understand that, you know, the plan going 
forward with respect to TMDLs obviously has to rely to some 
degree on the modeling that was mentioned. My perspective is 
also that the kind of data we have available to us now is much 
more extensive and robust than we have ever had before, and 
also that we can take it down to a level of particularity that 
wasn't available before so that, in doing these models, 
building these models, we do have a robust data source out 
there that can help promote the accuracy of it. And then, 
again, as is always the goal here, inform our policy going 
forward.
    I did just want to put in a plug for the idea of citizen 
stewardship------
    Dr. Anastas. Um-hum.
    Mr. Sarbanes. --with respect to the health of the 
Chesapeake Bay, and, frankly, connecting the efforts of 
ordinary citizens to the TMDL goals. And what I mean by that is 
I think there may be an opportunity going forward to quantify 
the contribution of the ordinary homeowner to improving water 
quality in the Chesapeake Bay. So, for example, if somebody 
meets a particular standard that may be set with respect to 
reducing the impermeability of surfaces and so forth, that can 
count towards a TMDL obligation. I look forward to working with 
you on that. And I yield back. Thank you very much for your 
indulgence, Mr. Chairman.
    Chairman Hall. Thank you very much. You were worth waiting 
for. Chairman recognizes Mr. Palazzo, gentleman from--
Minnesota?
    Mr. Palazzo. Mississippi, Mr. Chairman, but--almost spelled 
close. Not------
    Chairman Hall. Not very far off.
    Mr. Palazzo. It is a lot warmer in Mississippi.
    Chairman Hall. Both start with an M.
    Mr. Palazzo. M-i. Well, my colleague from Florida started 
out--she mentioned something--and I haven't been tracking all 
the testimony today, and talking about Gulf seafood. And I, for 
one, being from the Gulf states, South Mississippi, I am the 
only Congressman in Mississippi that borders the Mississippi 
Gulf Coast, and I have to say our seafood has been tested more 
than any time in our history. It has to be the safest seafood 
in America, if not the world, because of the testing process. 
And our Gulf seafood is not only safe, but it is the best in 
the world. And I am just going to tell you how it is, and if 
you don't believe me, come on down to the Mississippi Gulf 
Coast, enjoy our seafood, our golf, our beaches, our 
entertainment and our hospitality that is only found in the 
South.
    Doctor, I appreciate you coming out here today. A major 
concern of constituents in my district is the overreach of the 
EPA restricting business growth and development. I am concerned 
that regulation is adversely affecting job growth in my 
district, in our country. One example of such overreach is the 
EPA's recent expansion of the interpretation of its authority 
under the Clean Air Act to regulate CO<INF>2</INF> emissions, 
which threatens to cost out economy seven trillion in lost GDP 
by 2029, according to The Heritage Foundation, and hundreds of 
thousands of jobs.
    By comparison to this anticipated economic loss due to 
overregulation by the EPA, what will be the net private sector 
economic gain, if any, from the $584 million investment stated 
in your testimony, which basically went--research and 
innovative technologies and promotion of synergies between 
environmental protection, public health protection and the 
pursuits of economic growth and job production by the Office of 
Research and Development?
    Dr. Anastas. One of the things--if I could just say, at 
first, especially over the course of this year, I got a chance 
to spend a lot of time down on the Gulf Coast, and specifically 
in our Gulf Coast Resource Program down at Stennis. And every 
time, I can tell you, I ate a lot of that Gulf Coast seafood, 
and it was delicious and wonderful, and I would do it again. 
So------
    Mr. Palazzo. Great.
    Dr. Anastas. --thank you very much. One of the things that 
we focus on at the Office of Research and Development is 
certainly not only using our traditional expertise of 
understanding the nature of the problems that we are 
confronting, but how those problems will lead to solutions, 
providing the basic information, the basic insights that are 
going to be crucial to the innovations that our private sector 
will make, very fundamental issues of chemistry and molecular 
science and ecosystems biology. Tying these--this understanding 
of how to be both proper--profitable, creating jobs, while at 
the same time being environmentally protective I think is 
essential to the mission of the agency as a whole, as this 
Administrator has said.
    Mr. Palazzo. What exactly are these deliverables on the 
investments? What, and if, are the job numbers that will be 
created?
    Dr. Anastas. Oh, as a matter of fact, there are several 
examples out of our Small Business Innovative Research Program. 
We have companies that have just recently been recognized by 
the Small Business Administration on technologies, one small 
business now employing--has grown to over 1,000 employees, and 
looking at a range from energy efficiency to water 
technologies. We have a student program that founded businesses 
where they are looking at water technologies, where they have 
both patents, as well as creating jobs and engaging in export. 
So there is a range of programs that have resulted in 
innovations.
    Mr. Palazzo. Are the pursuits of economic growth and job 
creation, is that a taxpayer, you know, because the EPA is 
taxpayer funded, is that a mission of the EPA?
    Dr. Anastas. This is--getting the synergies--in other 
words, accomplishing our mission and ways that we think about 
how it can be beneficial, mutually beneficial, and not in any 
way decreasing our shared desire to have job growth and 
economic growth.
    Mr. Palazzo. Well, I think a lot of people in my district 
believe that not only the EPA, but a lot of the regulatory 
agencies are going to kill and hurt vibrant industries that are 
currently in existence today in search of unproven, 
unpredictable jobs in the green market. It is almost as if 
there is a lot of people in the Federal agencies running around 
with solutions, and they are just in search of a problem. So 
please be careful moving ahead, because I know we depend on a 
lot of those jobs.
    Dr. Anastas. I think you are making an extremely important 
point. What we are not looking to do is to drive any particular 
approaches, any particular products. That is the business of 
the private sector. What is the business is providing the 
science that can be used in order to make sure environmental 
protection and economic growth are synergistic and working hand 
in hand.
    Mr. Palazzo. My time is up. Thank you. Thank you, Mr. 
Chairman.
    Chairman Hall. And I ask unanimous consent to the letter 
dated March 10, 2011 from Debra L. Swackhamer, chair of the EPA 
Science Advisory Board, addressed to Mrs. Johnson and to me, be 
included in the record. This is at their request. They couldn't 
appear. Is there objection? Chair hears none.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Hall. Thank you, Dr. Anastas, for your very 
valuable testimony, and the Members for their questions, and we 
have done real good at staying within the five minute range 
this time. The Members of the Committee may have additional 
questions for you, Doctor, and we will ask you respond to those 
in writing, if you will, and the record will remain open for 
two weeks for additional comments from Members. I have some 
questions that I want to send you and ask for an answer, and 
would like to have that answer within two weeks, if we could 
get it. And you are excused, and we thank you, and the folks 
with you for your time.
    Dr. Anastas. Thank you, Chairman Hall.
    Chairman Hall. We are adjourned.
    [Whereupon, at 12:31 p.m., the Committee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Jane Lubchenco, Administrator, National Atmospheric 
        and Oceanic Administration

Questions submitted by Chairman Ralph Hall

Q1.  There has been a lot of discussion about what a climate service 
would look like. Certainly, NOAA's proposal is not the only way a 
climate service could be structured. Please describe why you chose this 
format over the four others suggested by the NOAA Science Advisory 
Board.

A1. Yes, there has been significant analysis and discussion both 
internal to NOAA and among external groups about the best 
organizational structure for a climate service in NOAA. The breadth of 
expertise and interests represented and the time that was afforded for 
these discussions was tremendously beneficial to the formulation of 
NOAA's proposed reorganization. The Department of Commerce and NOAA 
have taken such discussions and the ideas they have generated very 
seriously. In response, NOAA has worked with some of the brightest 
minds on institutional planning and administration, service delivery, 
stakeholder involvement, and climate science to develop, evaluate and 
integrate the many ideas that have arisen from these discussions into 
the proposed reorganization contained in the President's FY 2012 budget 
proposal.
    The idea of creating a Climate Service in NOAA is not new. The 
concept first surfaced in the early 1970s and later gained prominence 
in NOAA during the George W. Bush Administration. NOAA and external 
groups have been engaged in efforts ever since to further develop this 
idea and improve climate science and services. The proposed Climate 
Service would better respond to our constituents' growing demands for 
accessible and authoritative climate information by consolidating 
NOAA's existing world-class climate capabilities in one Line Office--a 
single point of access to NOAA's climate science, information, and 
products. For example, this proposed change would provide a clear point 
of access to the burgeoning private sector climate industry that is 
emerging around NOAA's climate information, in much the same way that 
the roughly $1 billion weather industry has grown up around NOAA's 
weather data. The proposed reorganization is also budget-neutral; a 
clear good government solution for science, services, and the American 
taxpayer. It would allow NOAA to operate more efficiently and 
effectively to better meet growing public demands for climate 
information with the climate science and service funding we are 
appropriated.
    NOAA's proposal to create a Climate Service took great care to 
consider and reflect recommendations from numerous prominent studies 
and external groups, including the NOAA Science Advisory Board (SAB) 
and more recently the National Academy of Public Administration (NAPA) 
study that was requested by the Commerce, Justice and Science 
Subcommittees of the House and Senate Appropriations Committees, to 
provide recommendations for how NOAA should be better organized to 
deliver reliable and timely information on climate to a variety of 
stakeholders.
    From 2008 to 2009 the NOAA SAB and its Climate Working Group (CWG) 
undertook an effort to compare and contrast specific options for the 
development of a National Climate Service--a broad enterprise of 
agencies, including NOAA, and organizations comprised of users, 
researchers and information providers. The CWG established four Tiger 
Teams and a Coordinating Committee to evaluate the pros and cons of 
each option. This effort resulted in the June 5, 2009, SAB report 
entitled Options for Developing a National Climate Service.

    The four options evaluated in the report were:

        1.  Create a national climate service federation that would 
        determine how to deliver climate services to the nation

        2.  Create a non-profit corporation with federal sponsorship

        3.  Create a national climate service with NOAA as the lead 
        agency with specifically defined partners, and

        4.  Expand and improve weather services into weather and 
        climate services within NOAA.

    In evaluating these four options, the SAB's report concluded that 
each option had significant strengths and weaknesses and that no option 
was viewed as an ideal option for a National Climate Service. The 
report did not make specific recommendations as to how NOAA should 
reorganize its own internal climate capabilities. Among its findings, 
however, the SAB clearly stated:

          ``The current NOAA organization is not well-suited to the 
        development of a unified climate services function. Greater 
        connectivity between weather and climate functions and between 
        research, operations and users is required.''

    The SAB also recommended that the successful development of a 
National Climate Service hinges on collaboration between the research 
and user community, and an internal reorganization of NOAA that enables 
greater connectivity of weather and climate functions. NOAA's proposal 
was designed to specifically address these and numerous other findings 
and recommendations from the SAB's insightful work.
    More recently, the SAB CWG winter 2011 report further reinforced 
NOAA's proposal for a dedicated Climate Service Line Office, stating:

          The lack of action in several areas highlighted in the 
        previous reviews speaks loudly to the need for a new line 
        organization for climate services. These responses clearly 
        illustrated the considerable inertia that exists within the 
        present system and the difficulty in moving from a matrix 
        managed program to a line organization. Let there be no 
        mistake: there is a tremendous amount of world-class climate 
        research being performed within the agency. Yet, transitioning 
        such high quality research into a service-oriented and 
        operational setting is quite another matter. There are some 
        fairly major systemic challenges that need to be confronted 
        going from a loose federation of somewhat independent NOAA 
        organizations to a functioning climate service. Short of a 
        Climate Service line organization with budgetary authority, the 
        CWG believes it will prove very difficult to effect change if 
        NOAA's approach to climate services continues in a matrix 
        structure or manner. (SAB CWG Winter 2011 Report)

    In the end, NOAA's proposal to consolidate components from several 
Line Offices to create a Climate Service Line Office as outlined in 
NOAA's current FY 2012 budget request was developed after great 
deliberation and consideration for its impacts and opportunities across 
the agency, in particular on NOAA's science. NOAA used input from the 
Congressionally-requested NAPA study and analysis of organizational 
options for a Climate Service within NOAA, the SAB CWG, and other 
internal and external input, to guide the development of its Climate 
Service proposal. NOAA's reorganization proposal closely aligns with 
NAPA's final recommendations, such as the inclusion of the National 
Weather Service's Climate Prediction Center, and recognizes the 
importance of having a temporary leadership position for change 
management in the new organization.
    The proposed Climate Service Line Office structure reflects NOAA's 
response to the needs of numerous demands for climate services, so that 
the agency can: 1) promote integration of NOAA's climate science and 
service assets; 2) heighten the accessibility and visibility of NOAA's 
climate services for our partners and users; and 3) allow NOAA to more 
efficiently address user and partner needs compared to our current 
distributed structure. To make this new organization successful, it 
will encompass a core set of longstanding NOAA capabilities that have 
proven success, including climate observations, research, modeling, 
predictions and projections, assessments, and service delivery 
infrastructure. NOAA has proposed that the Climate Service be a Line 
Office, providing a single point of entry for people to access NOAA's 
climate science and service assets, and enabling improved information 
sharing and more productive partnerships with federal agencies, local 
governments, private industry, other users, and stakeholders.
    NOAA's proposed reorganization also maintains the highest standards 
of scientific integrity for all NOAA science and seeks to strengthen 
and integrate science across the agency. The proposed Climate Service 
Line Office will enable better transition of high quality climate 
science into usable services. It will also be an opportunity to refocus 
OAR's efforts to incubate solutions to tomorrow's long-term science 
challenges, integrate an agency-wide science portfolio, and drive NOAA 
science and technology innovation. In addition, the OAR Assistant 
Administrator will serve as vice-chair of the NOAA Research Council. 
Further, as leader of the central research Line Office, the OAR 
Assistant Administrator will become the senior advisor to the NOAA 
Chief Scientist. Of critical importance, none of NOAA's climate or 
other research capabilities are diminished by this proposed 
reorganization, and we do not anticipate any marked change to the 
balance of internal vs. extramural funding, pending appropriations.

Q2.  Arguably, the Climate Service is providing information to assist 
decision-makers with adaptation choices.

a.  Is the research moving from OAR into the Climate Service only 
adaptation research?

b.  Or does it include basic, physical science research as well?

A2. (a&b) The proposed Climate Service would include basic, physical 
science research as well as adaptation research. In total, the proposed 
Climate Service would consolidate many of NOAA's existing climate 
science and service components currently dispersed across the agency 
into one Line Office. That said, select climate-related programs and 
research would remain in OAR and other Line Offices because climate is 
an issue that intersects all of NOAA's mission areas.
    As proposed in the PB FY 12, OAR would transfer the Geophysical 
Fluid Dynamics Laboratory, the Climate Program Office, and three 
divisions of the Earth System Research Laboratory--Chemical Sciences 
Division, Physical Sciences Division, and Global Monitoring Division--
to the proposed Climate Service. The proposed transfer would not result 
in deviations from the core missions or activities of these programs.
    Virtually all of the climate adaptation research in OAR is 
conducted by the Climate Program Office through its Grants Program, in 
particular the Regional Integrated Science Assessment Centers (RISAs), 
based on the U.S. Global Change Research Program working definition of 
``Adaptation Science.'' The Global Change Research Program defines 
adaptation science as ``integrated scientific research that directly 
contributes to enabling adjustments in natural or human systems to a 
new or changing environment and that exploits beneficial opportunities 
or moderates negative effects.''
    Creating a single Line Office would establish a stronger position 
for NOAA to strategically guide its climate research, monitoring, and 
assessment work in a coordinated fashion. It also would create an easy 
to find, single point of entry for people to access NOAA's climate 
science and service assets, and enable improved information sharing and 
more productive partnerships with federal agencies, local governments, 
private industry, and other users and stakeholders.
    As mentioned above, this reorganization proposal would maintain the 
highest standards of scientific integrity for all NOAA science. In 
doing so, the proposal would preserve the OAR as NOAA's core research 
and innovation hub, a key NAPA recommendation, and would seize on the 
opportunity to strengthen science across NOAA by strategically renewing 
OAR's forward looking research agenda. In proposing to house much of 
OAR's climate research in the proposed Climate Service Line Office, 
NOAA would both be able to better transition its high quality climate 
science into usable services and seize upon the opportunity to refocus 
OAR's efforts to incubate solutions to tomorrow's long-term science 
challenges, integrate an agency-wide science portfolio, and drive NOAA 
science and technology innovation.

c.  How will NOAA ensure that the pressures of a service organization 
will not force the focus of the research in one direction over another?

A2c. To ensure that the pressures of the service aspect of a Climate 
Service would not force the focus of the research in one direction over 
another, a climate senior scientist is included in the reorganization 
proposal. This new position would ensure sound business practices that 
embrace a ``co-production of knowledge,'' wherein climate science 
informs, but does not prescribe, decision-making, and decision-making 
informs climate science, but does not prescribe research priorities. In 
addition, NOAA is in the process of seeking confirmation for a Chief 
Scientist and the OAR Assistant Administrator will serve as the senior 
advisor to the NOAA Chief Scientist once on board.
    In contrast to the National Weather Service model, where science 
and service (or operations) are housed in separate Line Offices, NOAA 
does not envision a service delivery component for the Climate Service 
that is remotely on the scale of the NWS with its 122 local forecast 
offices and other regional infrastructure. In fact, the research and 
science component of the proposed Climate Service is expected to 
continue to be much larger than its services component; NOAA plans to 
leverage the service delivery infrastructure of the NWS and other 
partners like NOAA's Regional Integrated Sciences and Assessments 
(RISAs), Regional Climate Centers, state climatologists, Sea Grant 
extension, Coastal Services Centers, National Marine Sanctuaries, and 
other parts of NOAA.
    The proposal to bring climate science and services together under 
one Line Office provides a tremendous opportunity to integrate science 
and service delivery without detracting from a commitment to pursue, 
fund, and sustain basic climate research and science. Science is an 
essential component of all NOAA responsibilities, and underpins the 
agency's ability to provide quality services, based on sound science.
    Americans depend on NOAA's climate information to make smarter 
choices at home and in their communities and businesses. NOAA's climate 
information (e.g. forecasts of conditions from two weeks to seasons to 
decades out) continues to be at the forefront of this improved decision 
making. Similar to information about weather, information about the 
climate is not new or controversial. Throughout history, as well as 
today, people around the country and the world use climate 
information--long-term forecasts on the order of two weeks to seasons 
to decades- to inform major decisions from agriculture to national 
defense to energy production. For example, electricity providers use 
climate data to determine anticipated user demands for heating and 
cooling power and set electricity prices. Additionally, home insurance 
companies use climate data such as the ``normal'' temperature and 
precipitation to calculate your insurance premium. These are just a few 
examples of how NOAA's climate science currently translates into 
applicable services for Americans. High quality climate science is at 
the core of climate services. Housing both science and services under 
one organizational structure will allow NOAA to better transition 
research findings into usable information and services that help 
businesses and communities make better economic decisions and safeguard 
lives and property.
    Climate science and service must go hand in hand in order to 
develop products and services that can evolve and be initiated rapidly 
when needed, in response to scientific information as it emerges. The 
continuous advancements in climate science demand a close proximity to 
the service, not only so that those advancements can constantly improve 
products (science push), but also so that the users can be asking new 
questions of the science (user pull).
    Related to this issue, the NOAA Science Advisory Board's (SAB) 2009 
report, Options for Developing a National Climate Service, found:

          "The current NOAA organization is not well-suited to the 
        development of a unified climate services function. Greater 
        connectivity between weather and climate functions and between 
        research, operations and users is required.''

    The SAB also recommended that the successful development of a 
National Climate Service hinges on collaboration between the research 
and user community, and an internal reorganization of NOAA that enables 
greater connectivity of weather and climate functions. NOAA's proposal 
was designed to specifically address these and numerous other findings 
and recommendations from the SAB's insightful work.
    NOAA scientists and their academic and governmental partners, both 
nationally and internationally, have long been involved in cutting edge 
climate system research and have contributed greatly to advancing the 
scientific understanding about the climate system. NOAA is committed to 
ensure this basic research does not get diluted and remains a priority 
as part of the climate service. This Administration is committed to the 
honest and open conduct of science. One of my first actions as NOAA 
Administrator was to appoint a scientific integrity team at NOAA. Their 
charge was to review the state of science and scientific integrity at 
NOAA, to actively assist OSTP in developing recommendations that would 
strengthen the integrity of science in government, and to draft a 
scientific integrity policy for NOAA.

Q3.  In your testimony, you cite ``a rapidly increasing public demand 
for climate services.'' Please provide the Committee a listing and 
description of all requests to NOAA for climate services from State and 
municipal governments as well as private sector stakeholders.

A3. NOAA's climate capabilities have significantly matured and markedly 
grown in sophistication over the past 40 years to the point where 
Americans who depend upon this essential information to make decisions 
for their family, business and community balance sheets are now 
demanding more data, increasingly complex products, and advanced 
scientific study.
    The following statistics demonstrate the tremendous increase in 
demand via incoming requests through a number of NOAA's user 
interfaces.

        1.  Direct requests from users for climate related data and 
        information services: From fiscal year 2009 to 2010, NOAA saw 
        an increase of 11 percent in direct requests (includes 
        individual requests via phone calls, emails, and other direct 
        correspondence) from 26,000 to 29,000 individual requests.

        2.  Climate related data provided from data centers: NOAA saw 
        an 86% increase in climate related data provided from data 
        centers in FY 2010 compared to FY 2009--from 806 terabytes to 
        1500 terabytes (or 1.5 petabytes). To put this in context, your 
        favorite Kindle or other electronic book download averages 
        about 800,000 bytes. So, in calendar year 2010, NOAA served up 
        a total of at least 1.9 billion Kindle books worth of climate 
        data, roughly 867 million more Kindle book equivalents than in 
        2009.

        3.  In calendar year 2010, NOAA's National Climatic Data Center 
        (NCDC) Comprehensive Large Array data Stewardship System site 
        served over 5 times as much climate related data as in calendar 
        year 2009--from 43 terabytes to 253 terabytes.

        4.  From FY 2009 to FY 2010, web-hits for NOAA climate services 
        experienced a 57% increase in climate related data and 
        information website hits--from 906 million to 1.4 billion hits. 
        This does not include hits to our new Climate Portal that 
        launched in February 2010 and currently hosts over 27,000 
        visitors every month. Because of the huge numbers involved it 
        would not be practical to provide documentation of each 
        request. We can however, provide statistics as to the origin of 
        the requests related to the domain name of the user request. 
        Our statistics indicate the following approximate distribution 
        over the past two years.


              .com -- 15%

              .edu -- 9%

              .gov -- 12%

              .mil -- 1%

              .net -- 24%

              .us -- 7%

              Foreign -- 13%

              Unresolved -- 19%

    Such demands come in from multiple interfaces across multiple Line 
Offices within NOAA, and we are unable to track all in a comprehensive 
manner. Housing NOAA's climate programs in one Line Office could allow 
us to more effectively track and analyze the nature of these requests. 
Within this increasing demand are requests from a breadth of economic 
and industry sectors, including both governmental, private sector, and 
non-governmental stakeholders. Specific examples of these types of 
requests that were received include:

        <bullet>  In the first days of the Fukushima Nuclear Plant 
        situation following the recent Japanese earthquake and tsunami 
        tragedy, the White House Office of Science and Technology 
        Policy requested long-term historical climate data for numerous 
        locations in Japan. This preliminary analysis established a 
        historically-based likelihood for springtime winds by direction 
        and speed, as well as the likelihood of rainfall events of 
        varying intensities. Both of these factors are important 
        climatological considerations when assessing the potential 
        distribution of airborne hazardous material.

        <bullet>  An agricultural expert in Wilkes County, NC requested 
        daily high and low temperatures for the 2010 growing season 
        from April 1st, 2010 thru October 31, 2010 to calculate the 
        growing degree days or temperature above 50 degrees fahrenheit 
        in the Wilkes County area. He is researching growing degree 
        days and length of growing season for a possible vineyard in 
        the Yadkin Valley, American Vitacultural Area.

        <bullet>  Public Service/Utility Commissions around the country 
        downloaded NOAA's Climate Normals, which include spatial and 
        temporal averages of climatological variables (e.g., 
        temperature, precipitation, etc.) that describe base climatic 
        conditions. Utilities subsequently use this information in 
        formal processes to determine the rate that each utility is 
        allowed to charge its customers.

        <bullet>  Municipalities around the country accessed NOAA's 
        U.S. Snowfall Climatology information, which includes 
        historical information about the severity of extreme snowfall 
        events and return period probability. This information is used 
        to develop annual municipal snowfall removal budgets and 
        results in efficient planning and cost savings.

    Overall, as much as one-third of U.S. gross domestic product 
depends on accurate weather and climate information, and American 
communities and businesses are using NOAA's climate information to make 
smart investments to manage their risks and reap economic benefits. For 
example, through an effort with the National Association of 
Homebuilders, NOAA provided climate data to help the home building 
industry establish the most cost-efficient insulation standards for 
protecting building foundations from frost. According to industry 
estimates, this information is said to save roughly $330M in annual 
building construction costs and annual energy cost savings of 586,000 
megawatt hours.
    NOAA's climate forecasts, from seasonal precipitation and drought 
outlooks to weekly on-the-ground assessments of the U.S. Drought 
Monitor, are also helping firefighters in Texas to prepare for and 
respond to a record wildfire season. And NOAA's improved maximum 
precipitation predictions have been used to develop new standards for 
dam design that are being implemented around the Nation to improve dam 
safety and reliability.
    These are just a few examples of how the importance of NOAA's 
climate services to decision makers is fueling an increased demand for 
more data, increasingly complex products, and advanced scientific 
study. Throughout NOAA's efforts to develop the proposed Climate 
Service reorganization, the agency has consulted with and benefited 
from the input and advice of a wide array of external partners and 
stakeholders across public and private sectors. The unanimous 
conclusion of internal and external scientists and decision makers is 
that establishing a single management structure for the agency's core 
climate capabilities is required if the agency is to rise the meet the 
Nation's growing need for increasingly sophisticated information.
    In the conduct of the National Academy of Public Administration's 
research for its report to Congress, ``Building Strong for Tomorrow: 
NOAA Climate Service,'' a survey found:

          The themes that the Panel heard often and found compellingly 
        stated were: strong support for the concept of creating a NOAA 
        (or a National) Climate Service; the need to improve federal 
        interagency coordination of resources and service delivery; the 
        importance of partnerships with the public and private sectors; 
        a need for more localized and more accessible research; the 
        potential positive impact of using innovative service delivery 
        technologies and tools; and the importance of supporting a user 
        community that is large and diverse. (Building Strong for 
        Tomorrow: NOAA Climate Service, pg 16).

    The Academy report's survey results were based on over 40 
interviews with current and former government officials, and external 
stakeholders; three roundtable discussions with over 50 key NOAA 
climate constituents, including federal agency partners, state and 
local government leaders, and academics and other subject matter 
experts; and lastly, a national Online Dialogue that solicited ideas 
about how to structure and operate a NOAA Climate Service from June 14 
to June 28, 2010.

    The Academy's report, resounding as it is in its response, is one 
of a vast array of expressions of support for NOAA's proposed 
reorganization. Below are a number of additional examples of external 
stakeholder feedback for the need for climate services:

          ``Our organizations, representing hunters and anglers across 
        the country, are very concerned about the impacts of climate 
        change on fish and wildlife, and we recognize that providing 
        good information to resource managers will be critical to 
        helping ecosystems, fish, and wildlife adapt to the coming 
        changes in climate.''

          ``While the broad implications of climate change are becoming 
        better understood, the need for more regional and local 
        understanding of future climate impacts is urgent. The federal 
        government's investment in observing, researching, modeling, 
        and developing tools to respond to the impacts of climate 
        change will be significant, and the ability to disseminate that 
        information to states, municipalities, and non-governmental 
        organizations, while responding in turn to their specific 
        information needs, is critical. NOAA's climate service can play 
        an important role in gathering, analyzing, and presenting that 
        information to those in need of it.''

            Randi Swisher, President, American Fly Fishing Trade 
        Association; Tom Franklin, Director of Policy and Government 
        Relations, Theodore Roosevelt Conservation Partnership; and 
        Steve Moyer, Vice President for Government Affairs, Trout 
        Unlimited

          ``WGA supports the establishment of a NOAA Climate Service, 
        and we commend the leadership and work of NOAA to make the 
        climate service a reality''. Western Governors Association

          ``As climate adaptation becomes an increasingly important 
        strategic path, the new climate service will provide essential 
        information to the public and private sectors. The insurance 
        industry is heavily dependent on public data and information 
        related to climate, and the creation of a NOAA Climate Service 
        with new data services will greatly enhance the industry's 
        analysis of climate and extreme event weather risk.''

            Frank W. Nutter, President, Reinsurance Association of 
        America

          ``Addressing climate change is one of our most pressing 
        environmental challenges. Making climate science more easily 
        accessible to all Americans will help us gain the consensus we 
        need to move forward. The new NOAA Climate Service is a welcome 
        addition to our national climate change capabilities. It will 
        help bring people together so we can also bring about an 
        economic recovery by more rapidly modernizing our nation's 
        energy infrastructure.''

        Jim Rogers, President and CEO, Duke Energy

          ``Establishing a NOAA Climate Service demonstrates that the 
        Administration and NOAA understand there is a real need to 
        deliver climate services in this country. This is a giant leap 
        forward in meeting this need. NOAA plays a central role in many 
        aspects of climate science including climate modeling, 
        observations, and assessments, and has a major role to play in 
        the efforts to establish a more coordinated and integrated 
        government-wide National Climate Service. The creation of a new 
        NOAA Climate Service will allow it to be a more effective 
        partner with other federal agencies, the private sector, and 
        the research and academic community, in that effort.'' 

            Dr. Rick Anthes, President, University Corporation for 
        Atmospheric Research

          ``NOAA's proposed climate service would be a welcome and 
        critically needed asset to the public health community, both in 
        the U.S. and around the world. Every key sector of the public 
        health community, from first responders to those who provide 
        food and medical supplies and services, would draw on the 
        information. Forecasting air quality, drought, natural hazards 
        and climate-sensitive diseases all impact public health. Better 
        predictive tools, monitoring and other resources will inform 
        our decision-making and advance our efforts to get further 
        ahead of the curve. Lives can be saved as a result.''

            Georges C. Benjamin MD, FACP, FACEP (Emeritus), Executive 
        Director, American Public Health Association

          ``I was delighted and thrilled to learn of the commitment by 
        the Administration to form the NOAA Climate Service. I have 
        been a long time supporter of this vision and it is very 
        gratifying to see it accomplished. NOAA has worked for many 
        years to become proficient in climate science, climate 
        observation, and data management. Additionally, with vast 
        experience in producing world-class weather forecasts, 
        extension of these skills to climate is a natural step and will 
        go far in improving the foundation for rational science based 
        policy making. My thanks and congratulations to the hardworking 
        NOAA team members who over many years have made this event 
        possible.''

            Honorable Conrad C. Lautenbacher, Ph.D.,Vice Admiral (U.S. 
        Navy Ret.) Vice President, Science Programs, CSC, ATG, Under 
        Secretary of Commerce for Oceans and Atmosphere and NOAA 
        Administrator, 2001-2008

          ``I am very excited by today's announcement regarding 
        formation of the NOAA Climate Service. Working in tandem with 
        the highly skilled work force from the National Weather 
        Service, the NOAA Climate Service will enhance NOAA's ability 
        to deliver world class climate services and to address the wide 
        variety of issues related to climate change.

          ``NWSEO intends to work closely with the Obama 
        Administration, NOAA's leadership and the NOAA Climate Service 
        to effectively launch this new venture. We look forward to 
        forging a close working relationship with the NOAA Climate 
        Service, which will effectively utilize the skills of NWSEO's 
        members and satisfy America's needs to better understand and to 
        predict climate change.''

            Dan Sobien, President, National Weather Service Employees 
        Organization (NWSEO)

    These are examples of the broad array of support for NOAA's 
proposed Climate Service from stakeholders; and many more are listed 
at: http://www.noaa.gov/climateresources/testimonial.html. As a final 
example of feedback that has been received, attached please find a 
letter the Department received from a diverse and distinguished group 
of business leaders including Microsoft, Deloitte, and Governor Jim 
Geringer.

Q4.  After the Nunn-McCurdy recertification and restructuring in 2006, 
it was realized that providing satellite coverage in all three orbits 
would be financially impossible within the budget the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) had at the 
time. The strategy was then changed to rely on the Europeans to cover 
the late-morning orbit, but to use instruments provided by NOAA. It is 
our understanding that these instruments, whose total design life is 
eight years, were delivered to the Europeans more than nine years ago.

a.  Has NOAA conducted a risk analysis of using data from the European 
satellites using instruments that are beyond their design life?

A4. (a) Yes, NOAA continues to employ an active risk mitigation program 
by conducting annual activation checks on the NOAA-supplied instruments 
\1\ on the European Organisation for the Exploitation of Meteorological 
Satellites (EUMETSAT) Metop-B and -C satellites. NOAA-provided 
instruments have been designed for a three-year mission once in-orbit. 
Prior to launch, these instruments are maintained in a controlled 
environment and placed in a storage container before integration onto 
the Metop spacecraft. After the instruments and spacecraft are 
integrated, they go through a rigorous test program to verify their 
flight readiness prior to receiving the go-ahead to proceed to launch. 
If an anomaly arises as a result of this testing, the instrument is de-
manifested from the spacecraft so that additional testing can take 
place at the instrument level by the manufacturer. If applicable, 
component or subsystem refurbishment or replacement upgrades are 
completed before re-integrating onto the spacecraft. NOAA has also 
funded a spare parts program for each of the instruments.
---------------------------------------------------------------------------
    \1\ The NOAA provided instruments are the Advanced Very High 
Resolution Radiometer (AVHRR/3), the Advanced Microwave Sounding Unit 
(AMSU-A), the High Resolution Infrared Radiation Sounder (HIRS/4), and 
the Space Environment Monitor (SEM).
---------------------------------------------------------------------------
    NOAA and NASA engineers are present at the facility when spacecraft 
testing occurs. For example, the Metop-B AVHRR Instrument is currently 
progressing through its annual recalibration test program, with NOAA 
and NASA personnel on-site during this testing. On a parallel track, 
the NOAA/NASA Instrument Team also have personnel on-site participating 
in readiness reviews and training for the upcoming mechanical testing 
of the Metop-C satellite in Toulouse, France.
    NOAA believes that there are sufficient engineering processes in 
place to ensure that the instruments on Metop will perform as designed.

b.  If something happens to the NPOESS Preparatory Project (NPP) or the 
VIIRS instrument, and the Europeans have trouble with these older 
instruments, it could cause the loss of data from two orbits. What is 
the operational impact of such a data loss?

A4. (b) The operational impact of losing all data from both the 
European satellite in the mid-morning and NOAA satellite in the 
afternoon polar orbits would be catastrophic to the Nation. 
Observations from the microwave and infrared sounder instruments on 
these satellites are critical to the accuracy of National Weather 
Service forecast models. Without these data, model forecast accuracy 
will revert to 1970s levels. The ability to accurately predict weather 
events 3-5 days in advance will be severely degraded.
    The operational impact of losing the imager data from both the 
European and NOAA polar orbiting satellites is also significant. The 
Advanced Very High Resolution Radiometer (AVHRR) on the current NOAA 
and European satellites provides many products used by NOAA and its 
customers to monitor and predict changes to the atmosphere, oceans, and 
land.
    AVHRR is the primary source of observations for the NOAA global sea 
surface temperature product, used in atmosphere predictions and ocean 
models, hurricane forecasting, fisheries management, and many other 
applications. In the high-latitude regions of the globe, including 
Alaska, where NOAA geostationary satellites have limited coverage, 
AVHRR is the primary source of satellite data for use in weather 
forecasts and warnings to the public. AVHRR detects volcanic ash 
plumes, which are hazardous to aviation, and can be carried thousands 
of miles from their source. It is also used for wildland fire detection 
and response activities, and as input for warnings to the public on 
smoke and other unhealthy air advisories. AVHRR is also an input to the 
NOAA global vegetation index product, and is used by the U.S. 
Department of Agriculture, the U.S. Geological Survey, and the U.S. 
Agency for International Development for drought monitoring and other 
land products.
    Current NOAA and European Metop polar-orbiting satellites carry a 
Space Environment Monitor (SEM) to measure the impacts of the space 
weather environment on the satellite and its sensors. The SEM suite of 
instruments provides us with the ability to determine if the magnitude 
of solar events, such as geomagnetic storms, will be detrimental to 
telecommunications and power grids. In the future, the Metop and the 
Defense Weather Satellite System (DWSS) will carry SEM, from which NOAA 
will leverage their data needs.
    NOAA and European satellites also carry a Search and Rescue 
Satellite Aided Tracking (SARSAT) antenna/transmitter and on-board 
storage system to receive and relay distress signals from mariners, 
aviators, and other users who have activated their beacons. Without 
this capability on NOAA and European polar-orbiting satellites, the 
ability to locate distressed individuals in a timely manner is reduced, 
leading to an increased risk of injury or death.
    Finally, NOAA and European satellites carry a Data Collection and 
Relay Service, called Argos. The system consists of an antenna/
transmitter and on-board storage system to receive signals from remote 
platforms, such as ocean buoys, remote weather stations, and endangered 
animal species. In many cases, Argos is the only way to monitor 
changes, such as the pre-cursor changes to the ocean environment in 
remote locations, which signal the start of an El-Nino or La-Nina 
event.
    The operational impact of losing all data from both the European 
satellite in the mid-morning and NOAA satellite in the afternoon polar 
orbits would result in loss of capability across the global weather 
community. The lack of information and data would affect each and every 
U.S. citizen. NOAA would be unable to provide advance warning of 
extreme weather conditions and events, which would impact military 
planners, airport planners, emergency managers, environmental disaster 
responders, Alaskan mariners and pilots, coastal residents, and 
fisherman. Across the Nation and throughout the global weather 
community, NOAA's ability to provide weather information needed to make 
decisions to protect lives and property would be compromised.

Q5.  Although the Nunn-McCurdy requirement of recertification only 
applied when the Department of Defense provides funding to a program, 
NOAA and NASA have each been directed to provide a baseline for the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) in two separate laws. Public Law 109-155 and Public Law 110-
161 require NASA and NOAA to perform this baselining. Even with the 
dissolution of the NPOESS program into the Joint Polar Satellite 
System, or JPSS, it would not remove the requirement of rebaselining.

a.  Where is NOAA in the process of this task?

A5. (a) NOAA notes that the NPOESS Program was explicitly excluded from 
the reporting requirements in section 112(a)(3) of Public Law (PL) 110-
161. However, going forward, NOAA will comply with the provisions of PL 
110-161 for the JPSS program.
    The JPSS program planned to establish a formal baseline for both 
the JPSS Program and the first mission, JPSS-1, by the 4th Quarter of 
FY 2011. This plan was made with the assumption that the program would 
receive the President's requested FY 2011 funding. The delay in 
receiving FY 2011 funding created uncertainty in the program and led 
the program to focus much of its existing resources on fielding and 
testing the ground system in support of the NPP mission (scheduled for 
launch in October 2011), which NOAA plans to use to support its 
operational weather forecasting mission. The additional FY 2011 funds 
that NOAA has redirected to JPSS (please see the Department's spend 
plans submitted on June 15, 2011 for more details) combined with 
receipt of the FY 2012 appropriation of $1.070 billion, will allow the 
program to ramp up work on JPSS instruments and spacecraft; however, 
the funding delays have prevented the JPSS program from completing the 
program baseline as planned.

b.  When can we expect to see a full life-cycle accounting of the JPSS 
program compared to the original NPOESS program?

A5. (b) Due to the postponement of JPSS formulation into FY 2012, the 
program will not have a full life cycle baseline until the 3rd Quarter 
of FY 2012. The program is currently re-planning the formulation phase 
of JPSS based upon the final FY 2011 appropriation, and should have an 
updated schedule this summer.

Q6.  NOAA has provided a 90% certainty of a forthcoming data gap if 
funding is not provided for JPSS. Please provide a description of how 
this figure of 90% certainty was attained, including assumptions, 
calculations, and procedures used to generate the estimate.

A6. There is now at least a 90% probability of a gap since the 
requested increase of $677.8 million for the JPSS Program was not 
provided in the FY 2011 Continuing Resolution Appropriations Bill (P.L. 
112-10). This gap probability was derived by using a series of 
probability runs that are common in the satellite community. The number 
is derived by taking the probability of selected components still fully 
functioning at their end of design life (called wear-out probability) 
and forms an overall probability of the mission still performing at the 
same period. Only the critical (those which perform the key parts of 
the mission) sensors and the spacecraft (the electronics and 
communications part of the mission) are considered. For NPP and JPSS, 
NOAA used the spacecraft and the following sensors, Visible/Infrared 
Imager/Radiometer Suite (VIIRS), Advanced Technology Microwave Sounder 
(ATMS), and Cross-track Infrared Sounder (CrIS) in its assumptions.
    The critical sensor wear-out probabilities are multiplied by the 
space craft wear-out probability over time to form a wear-out curve. 
This is combined with a random probability of success (done by running 
thousands of simulations) and plotted against time (data are derived in 
monthly increments) to get the probabilities in question.

Q7.  As you know, the Space Weather Prediction Center's critical solar 
wind and storm prediction satellite, the Advanced Composition Explorer 
(ACE), is currently failing. NOAA and the President's budget request 
have indicated that the former NASA environmental observation 
satellite, Deep Space Climate Observatory (DSCOVR), is to be selected 
as its replacement.

a.  What other options have been considered beyond DSCOVR and in what 
way is DSCOVR better suited to meet the Nation's important space 
weather prediction needs?

A7. (a) NOAA considered three options for the follow on to the Advanced 
Composition Explorer (ACE) satellite. One option was to refurbish the 
existing Deep Space Climate Observatory (DSCOVR) satellite. The second 
option was to build a new government procured satellite with a 
government procured launch vehicle. The third option was a potential 
commercial data buy. A joint-agency, Office of Science Technology 
Policy (OSTP)-requested study determined that refurbishing the existing 
DSCOVR satellite is the most favorable option on the basis of cost, 
risk and schedule. An independent NOAA-Air Force analysis concurred 
with this finding.
    The Nation is currently at risk for a gap in solar wind 
measurements because the existing assets have been operating well 
beyond their design lives. \2\ This is a serious concern given the need 
for reliable warnings of geomagnetic storm conditions that can 
negatively impact global military operations, communications, the 
nation's electrical grid, aviation, and other activities. Based upon 
the extensive interagency analyses regarding the most favorable 
approach for addressing this concern, NOAA has partnered with NASA and 
has the highest confidence in the schedule, costs, and risk assessments 
associated with the DSCOVR refurbishment option. The DSCOVR satellite, 
which will be positioned at the Sun-Earth Lagrangian Point (L1), 
already has space weather sensors that have been thoroughly tested by 
NASA and, after refurbishment, could be made flight worthy. Steps for 
this refurbishment are well understood. Further, the L1 point is 
located approximately one million miles inside the Earth's orbit around 
the Sun and is the ideal location for a solar winds monitoring 
platform. The DSCOVR satellite bus has been stored under carefully 
regulated climate controlled conditions for the last ten years. It can 
be launched in FY 2014 if NOAA receives the $47.3M requested in FY 2012 
to begin refurbishment and the U.S. Air Force receives the FY 2012 
funds of $134.5 million it requires to support the launch and launch 
services for DSCOVR.
---------------------------------------------------------------------------
    \2\ NASA Solar and Heliospheric Observatory (SoHO, also at L1) has 
been operating for 16 years, and the Advanced Composition Explorer 
(ACE) has been in orbit for 14 years.
---------------------------------------------------------------------------
    While refurbishing DSCOVR for this purpose is the prudent and 
appropriate next step to address our solar wind monitoring needs, NOAA 
continues to assess the potential of commercial services for the future 
and will solicit commercial participation in the DSCOVR project for the 
purpose of assessing the performance of the commercial business case in 
association with an operational space weather warning project in order 
to assess future commercial viability.
b.  Congressional staff have requested a report from the Office of the 
Federal Coordinator for Meteorology (OFCM) that was submitted to OSTP 
regarding the other options for ACE's replacement. Can you assist the 
Committee in the procurement of that document?

A7. (b) We have informed OSTP of the Chairman's request for a copy of 
the study.

Q8.  The National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling Staff Working Paper titled, ``The Amount and Fate of 
the Oil'' notes that ``in late April or early May 2010, NOAA wanted to 
make public some of its long-term, worst-case oil trajectory models, 
which were based upon flow rates of up to 50,000 bbls/day, and 
requested approval to do so from the While House's Office of Management 
and Budget. The Office of Management and Budget did not grant NOAA's 
request.''

a.  Please explain OMB's authority to approve or deny NOAA's request to 
release worst-case oil trajectory models?

b.  What was OMB's official role within the National Incident Command 
(NIC) hierarchy?

c.  Did OMB supersede the U.S. Coast Guard's role within NIC?

A8. (a-c) OMB did not prevent release of information regarding oil 
spill trajectory models, nor did it supersede the U.S. Coast Guard's 
role within the National Incident Command. Consistent with its 
traditional coordination role for Executive Branch agencies on 
legislative, budget, and regulatory matters, OMB coordinated 
interagency review of materials related to the oil spill, including 
NOAA's report on the potential threats to U.S. coastlines that might 
result before a relief well stopped the flow. OMB worked to help ensure 
that the information conveyed to the public was as clear as possible 
and reflected input from the relevant agencies, as well as the latest 
response efforts. The report was released on July 2, 2010. As NOAA 
concluded in its letter to the National Commission on the BP Deepwater 
Horizon Spill and Offshore Drill, ``I believe the end product was 
consistent with the highest professional standards and best available 
scientific data.''

Q9.  The budget for the Office of Oceanic and Atmospheric Research 
(OAR) includes a reduction of $3 million for the Unmanned Aircraft 
Systems (UAS) research program. This program seems to be the 
innovative, transformative research that you describe as being OAR's 
new mission and seems to have the potential for long term benefits at 
very little upfront cost.

a.  Where do these aircraft come from and how much does NOAA pay for 
them?

A9. (a) The NOAA UAS Program has conducted a wide variety of scientific 
UAS demonstrations using high, medium, and low altitude platforms and 
payloads. Generally, these demonstrations are conducted in partnership 
with other Federal agencies, universities, or private industry who own 
UAS assets. During the last three years, the NOAA UAS Program has 
utilized approximately 75% of its annual program budget to sponsor 
field demonstrations with partners. The NOAA UAS Program contributes 
approximately $200,000-500,000 per demonstration through university 
grants or interagency agreements. One exception was a NOAA contribution 
of $3.5 million plus personnel and payload support for a three-year 
partnership with NASA to demonstrate the scientific capabilities of the 
high altitude Global Hawk UAS. NOAA generally provides in-kind 
contributions such as personnel support or ship services to field 
demonstrations conducted with private industry. NOAA has also purchased 
five small low altitude short endurance UAS for an approximate total of 
$800,000. The results of these numerous demonstrations have identified 
promising UAS technologies which could improve NOAA observations for 
high impact, polar, and marine monitoring.

b.  This program seems to be the definition of a win-win scenario, so 
why is it being cut?

A9. (b) In FY 12, NOAA requested a decrease of $3 million to reflect 
the planned completion of the High-Altitude Long-Endurance (HALE) UAS 
testing and demonstration program. Currently, the UAS Program is 
drafting its Strategic Plan, to be completed by the end of FY 11. OAR 
and NOAA hope to reemphasize and renew an even greater focus on 
innovative and transformative research by identifying emerging R&D 
priorities to enhance U.S. competitiveness; promoting U.S. leadership 
in oceanic and atmospheric science in the applied use of such 
knowledge; and advancing ocean, coastal, Great Lakes and atmospheric 
R&D, including transformational research, consistent with NOAA's 
mission.

Q10.  It is the Committee's understanding that OAR is currently using 
less than $2 million of the $13 million annual Information Technology 
R&D appropriation for the integration and conversion of commodity 64-
bit Graphic Processor Units (GPUs) into ``massively parallel fine-
grain'' supercomputer boards to run weather and climate models up to 30 
times faster.

a.  Can you provide more detail and specificity regarding GPU potential 
for increasing NOAA high-performance computing capability and reducing 
hardware costs through this innovative initiative?

A10. (a) The use of Graphics Processor Units (GPU) is showing great 
promise as an innovative and cost effective approach to increasing the 
computational capability for NOAA, especially for geophysical (weather 
and climate) models. In order to effectively use GPU systems to run 
geophysical models, however, a completely new approach to programming 
these models is required. This is because most current models have been 
designed to run on computing systems with a relatively smaller number 
of powerful processors, with each processor making complex calculations 
over one data point (for example: one spatial point out of many points 
across a geographic region) at the same time. This type of computing 
system differs from GPU systems that are highly parallel, or comprised 
of a large number of significantly less powerful, relatively less 
expensive, processors that are programmed to simultaneously execute the 
same calculation over different data points. Because geophysical models 
themselves are highly parallel--i.e., require many of the same 
relatively smaller calculations to be run on vast numbers of data 
points--GPU systems are proving to be a good fit and able to provide 
extraordinary speed and savings as compared to existing systems. This 
additional speed allows for additional computing capability over the 
same time period.
    NOAA's Earth System Research Laboratory in collaboration with 
industry has been researching a programming approach for GPUs that 
scientists could use to develop geophysical models. Recent research has 
demonstrated that a full atmospheric model runs 30 times faster on a 
GPU system, as compared to a standard single CPU. The cost performance 
comparison for a GPU versus a standard multicore cluster has yet to be 
determined. By pursuing research needed to run weather and climate 
models on GPUs and other similar technologies, NOAA is advancing 
transformative research and technology development at the cutting edge 
of cost and performance innovation in support of its operational 
weather and climate supercomputer acquisitions.

b.  What is the optimal annual level of funding to most rapidly 
research and develop this technology and maximize performance?

A10. (b) Answer: NOAA's Information Technology appropriation has kept 
NOAA at the forefront of cost effective and state-of-the-art 
supercomputing. With the exciting new potential for massively parallel 
fine grain computing, NOAA is assessing the possibility of 
reprioritizing some of its developmental efforts, particularly at its 
three supercomputer development centers (National Center for 
Environmental Prediction (NCEP), Geophysical Fluid Dynamics Laboratory, 
and Earth System Research Laboratory) to pursue the use of GPUs and 
other similar technologies for their respective weather and climate 
models.

c.  What level of annual funding starting in FY 2011 is required to 
make much more affordable GPU high-performance computing capability 
available for the next planned NOAA supercomputer infrastructure 
procurement or acquisition?

A10. (c) In FY 2011 and previous years, about $2 million of NOAA's 
Information Technology appropriation has been used to develop the basic 
approach needed to use GPUs for an atmospheric model (ocean and other 
geophysical models are similar enough that they can use the same 
software frameworks).

Q11.  Since the announcement of the NOAA Climate Service proposal in 
February, 2010, have offsite trips, travel, conferences, workshops and/
or retreats been used to make transition and reorganization decisions 
and do Climate Service planning, development, strategy, vision, and 
implementation?

a.  How many meetings outside the Washington DC metro area have there 
been?

A11. (a) NOAA's climate research, information and services staff and 
capabilities are distributed throughout the United States in numerous 
labs and centers. In order to ensure NOAA's climate vision, strategy, 
and priorities reflect the breadth of its expertise, it continues to be 
critically important for the agency's key climate scientists and 
managers to be brought together in person from time to time. 
Particularly, as NOAA developed its reorganization proposal and the 
draft Vision and Strategic Framework, it was more critical than ever 
that NOAA hear from scientists and managers across the agency to ensure 
that these developments benefit from their insights, expertise, and 
experience.
    Since NOAA's announcement in February 2010 of the intent to create 
a Climate Service in NOAA, there have been a total of five meetings 
outside the Washington, DC metro area focused on developing NOAA's 
reorganization proposal, which is contained in our fiscal year (FY) 
2012 Budget Request currently before Congress for approval, and writing 
the draft Vision and Strategic Framework document. The majority of 
these meetings have been held in locations where NOAA has facilities 
(one in Boulder, CO and two in Asheville, NC), and the others were held 
in a central location (Chicago, IL) relative to the NOAA scientists and 
managers who participated.

b.  How many NOAA employees have traveled and attended these gatherings 
outside the Washington, DC metro area?

A11b. A total of approximately 81 NOAA employees have traveled to one 
or more these five meetings. The number of employees who traveled to 
each meeting is listed below.

        1.  Boulder, CO. 65 travelers.

        2.  Asheville, NC. 12 travelers.

        3.  Chicago, IL. 13 travelers.

        4.  Chicago, IL. 23 travelers.

        5.  Asheville, NC. 23 travelers.


c.  How much has all such travel cost?

A11. (c) Total travel costs (e.g., airfare, lodging, per diem, ground 
transportation, and miscellaneous) for these meetings were 
approximately $117,517.61.

d.  Please submit a listing of all the trips, conferences, workshops, 
retreats, and other sessions, their itineraries, who attended, and how 
much each cost NOAA?

A11. (d) Meetings listed below were attended by climate scientists, 
subject matter experts, lab and center directors, headquarters staff, 
and administrative staff, including representatives across all NOAA 
Line Offices.

        1.  Boulder, CO. Travel cost: $ 61,979.60; no facilities cost.

        2.  Asheville, NC. Travel cost: $ 12,433.93; no facilities 
        cost.

        3.  Chicago, IL. Travel cost: $ 17,542.00; facilities cost: 
        $16,486.32 (for both Chicago meetings).

        4.  Chicago, IL. Travel cost: $ 29,784.55; facilities cost 
        included in item 3.

        5.  Asheville, NC. Travel cost: $ 12,263.85; no facilities 
        cost.

Questions submitted by Representative Randy Neugebauer

Q1.  In your written testimony you specifically mentioned that your 
budget proposal makes responsible reductions. As I am sure you are 
aware, we are currently facing a $1.6 trillion deficit this year and a 
national debt over $14 trillion. Even if you make choices within the 
budget to cut certain programs, you are still drastically increasing 
spending in other areas. How can any budget that, in total increases 
funding by nearly 16 percent over Fiscal Year 2010 levels be considered 
fiscally responsible?

A1. The Fiscal Year 2012 President's Budget request is the result of a 
rigorous bottom-up review. NOAA continues to be as efficient as 
possible in performing its mission and is also committed to controlling 
costs by proposing planned reductions for FY 2012. The reductions to 
lower priority programs were made out of necessity and many of those 
cuts, under different budget conditions, NOAA would not support. In 
addition to the program cuts, a large reduction is $67.7 million in 
administrative costs. These reductions are a key component of the 
President's Administrative Efficiency Initiative and were identified by 
consolidating activities, identifying more efficient acquisition 
vehicles, and cutting back on travel.
    Most of the proposed budget increase for FY 2012 is related to 
NOAA's on-going satellite acquisitions, critical assets for many of 
NOAA's programs and services. $687.8M of the $749.3M increase is 
associated with NOAA's Joint Polar Satellite System (JPSS). With the 
transition from the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) program to JPSS, NOAA is now solely 
responsible for acquiring polar satellites for the afternoon orbit and 
ground system development, activities that were previously shared with 
the Department of Defense.
    NOAA's satellites, including JPSS, are critical to our Nation's 
infrastructure and economy and provide 98% of the input to the Nation's 
prediction models. They ensure the safety and viability of the maritime 
commerce sector. They allow coastal managers to safely evacuate 
millions of residents during hurricane season. They give our farmers 
the long-term weather information that they need to know when and what 
to grow. They provide our military and homeland security leaders with 
critical information to keep our Nation safe and deploy troops 
overseas.
    The U.S. weather satellite program has been in place since the 
early 1960s and is now threatened by funding uncertainty. Funding 
decisions made now will determine the long-term costs and the quality 
of essential weather services provided by NOAA to the American public 
as early as 2016.
    Delivering satellites and their data services on time maximizes the 
public benefit, allows the government to execute acquisitions at the 
lowest cost, and demonstrates NOAA priorities are focused on its most 
critical assets to protect lives and property.

Q2.  What practices will you put in place to ensure that scientific 
objectivity will not be compromised in favor of more agenda-driven 
research practices within the Climate Service, as included in FY 2012 
budget proposal?

A2. Science guides all of NOAA's activities, and the proposed Climate 
Service would be no exception. NOAA holds itself to the highest 
standards of data quality and transparency, and as a science agency is 
well positioned to provide trusted information on climate variability 
and change.
    This Administration is committed to the honest and open conduct of 
science. One of Dr. Lubchenco's first actions as NOAA Administrator was 
to appoint a scientific integrity team at NOAA. Their charge was to 
review the state of science and scientific integrity at NOAA, to 
actively assist the Office of Science and Technology Policy (OSTP) in 
developing recommendations that would strengthen the integrity of 
science in government, and to draft a scientific integrity policy for 
NOAA.
    NOAA's first priority is to maintain the highest quality climate 
science while being responsive to user needs. The principal goal of the 
proposed Climate Service is to make the scientific data and information 
about climate easily accessible in order to help people make informed 
decisions in their lives, businesses, and communities.
    The National Academy of Public Administration (NAPA) endorsed this 
approach in their study and recommended that NOAA bring its research, 
observation and monitoring, and service development and delivery 
capacity into a single Line Office. NAPA noted that, ``It would 
undermine the whole concept of an integrated NOAA Climate Service if 
these research assets were not an integral part of the new line 
office.'' The National Academies of Science have also stated that a 
decision support initiative for climate should be ``closely linked'' to 
its research element. (Informing Decisions in a Changing Climate, 
2009).
    NOAA would also use the proposed reorganization as an opportunity 
to strategically realign its existing core research Line Office, the 
Office of Oceanic and Atmospheric Research (OAR), to strengthen the 
agency's overall science enterprise. OAR would refocus its work to 
serve as an innovator and incubator of new science, technologies, and 
applications for its missions, and an integrator of science and 
technology across all of NOAA. The OAR Assistant Administrator would 
serve as vice-chair of the NOAA Research Council. Further, as leader of 
the central research Line Office, the OAR Assistant Administrator would 
become the senior advisor to the NOAA Chief Scientist.

Questions submitted by Ranking Member Eddie Bernice Johnson

Q1.  The President's budget request includes a $2 million increase for 
research related to wind renewable energy. It is my understanding that 
NOAA is working closely with the Department of Energy on this research.

a.  Please describe your wind research activities?

A1. (a) NOAA is currently engaged in several wind research activities 
in relation to renewable energy. Several projects and initiatives are 
described below:

        1.  Boundary Layer Characterization Research in the NOAA FY 12 
        Budget--NOAA is requesting $2 million in FY 12 to improve the 
        Nation's understanding of the atmospheric phenomena driving and 
        determining boundary layer winds. Developing more accurate 
        nationwide wind forecasts will enable industry to make more 
        accurate predictions of wind power production, which will help 
        facilitate the expansion of U.S. clean energy generation. 
        Additionally, the improved weather forecasts that result from 
        this work will benefit many other NOAA efforts and national 
        priorities, such as aviation, surface transportation, air 
        quality, and plume dispersion studies. The $2 million will 
        focus on two activities:

        a.  (1) Deploying wind test beds--To improve short-term 
        operational predictions, NOAA will deploy wind test beds in 
        different regions of the Nation because there are different 
        factors that influence weather, including wind speeds and wind 
        direction in different regions. These test beds will help 
        determine the optimal mix of instrumentation needed for wind 
        resource characterization and forecast improvement. Regions 
        include the Pacific Northwest, offshore along the Atlantic 
        Coast, the Appalachian region, the inter-mountain west, and 
        California.

        b.  (2) Improve the HRRR weather model--The observations 
        collected at the test beds will be used to initialize the High-
        Resolution Rapid Refresh (HRRR) weather model to understand how 
        to best utilize new observations in different locations to 
        produce a more accurate forecast of wind speed and direction. 
        In addition, operational observations will be obtained and 
        assimilated into the HRRR weather model. NOAA will leverage 
        high performance computing investments that the agency has 
        already made to facilitate improved Numerical Weather 
        Prediction forecasts.

        2.  Wind-Forecast Improvement Project (WFIP)--The WFIP is a 12-
        month field demonstration project funded by the Department of 
        Energy (DOE) that will occur in two regions of the country: the 
        upper Midwest and Texas. DOE is funding NOAA in this project 
        because DOE recognizes NOAA as a key partner in the atmospheric 
        science and services required for the development of renewable 
        energy. NOAA's weather forecasts are currently used by the 
        renewable energy sector but are not advanced enough to provide 
        the level of accuracy needed. The WFIP is a one-time field 
        project, and it aims to demonstrate that forecasts of turbine-
        level (80-100 m) wind speeds and wind ramp events can be 
        improved by collection and assimilation of additional 
        meteorological observations. In addition, the results of the 
        WFIP will add to the published estimates of the economic value 
        of wind forecasts to the energy industry. Published studies 
        currently indicate that day-ahead wind forecasts save the 
        industry $1-$5 billion per year.
           To do this, NOAA will deploy meteorological instruments, run 
        a research-grade weather model (High-Resolution Rapid Refresh 
        model), and analyze data from the WFIP. DOE is also funding two 
        private-sector companies that will use NOAA's improved wind 
        forecasts to create more accurate wind power predictions in the 
        WFIP.

        3.  Collaboration with Duke Energy Generation--NOAA's Air 
        Resources Laboratory (ARL) is currently working under a 
        Cooperative Research and Development Agreement (CRADA) with 
        Duke Energy Generation (headquartered in Charlotte, NC). This 
        CRADA was initiated as a public-private partnership to explore 
        potential improvements in techniques used to support hub-height 
        wind forecasts. Through the CRADA, ARL has deployed various 
        weather measurement capabilities at the Duke Energy's Ocotillo 
        wind farm located near Big Spring, Texas. The goal is to 
        conduct research on the structure of low-level winds affecting 
        wind turbines. ARL's research and observations are also being 
        made available to the various NOAA weather forecast groups 
        supporting renewable energy.

        4.  Planning for the Future via the NOAA Energy Team--On 
        January 24, 2011, a memorandum of understanding (MOU) 
        formalized cooperation between the DOE/Energy Efficiency and 
        Renewable Energy and DOC/NOAA to work on initiatives of mutual 
        benefit and interest to the two parties on weather-dependent 
        and oceanic renewable energy. The MOU also requires that by May 
        20, 2011, the two parties sign an action plan that identifies 
        key challenges, goals and proposed initiatives to develop 
        improved science and services to support growth of renewable 
        energy, such as wind (terrestrial and offshore), solar, 
        biomass/biopower, conventional hydropower and marine 
        hydrokinetic (waves, tides, and currents). A draft action plan 
        is currently being prepared.

Q1. (b)  What is the arrangement between DOE and NOAA and what is DOE's 
contribution to NOAA's work? Is DOE procuring equipment for NOAA or 
providing technical assistance related to wind energy generation?

A1. (b) While DOE is not procuring equipment or providing direct 
support for this wind research initiative, staffers of the two agencies 
meet regularly to share information and advice on how to best support 
the information needs for wind, solar and other renewable energy 
generation such as hydrokinetic and biomass sources. The primary focus 
of this request is wind energy as DOE and NOAA are in agreement that 
the information needs for wind energy are currently most pressing and 
most attainable. NOAA's expertise lies in meteorology and climate 
science that are needed for optimal operations and planning for both 
renewable energy generation and facility siting. Separate from the FY 
12 request for Boundary Layer Characterization Research (as described 
above), DOE is funding NOAA to participate in a one-time, 12-month 
field research project. This project is called the Wind Forecast 
Improvement Project (WFIP). NOAA hopes to have all instruments turned 
on and collecting data from July 2011-July 2012.
                   Answers to Post-Hearing Questions
Responses by Dr. Paul Anastas, Assistant Administrator, Office of 
        Research and Development(ORD), U.S. Environmental Protection 
        Agency

Questions submitted by Chairman Ralph Hall

IRIS ASSESSMENT

Q1.  On June 15th, the EPA placed the IRIS assessments for several 
chemicals ``on hold'' citing the need to determine whether questions 
raised by the National Toxicology Program's review of the Ramazzini 
Institute's methanol study will require the Agency to revise the 
assessments or take additional action to verify the data used in these 
assessments.

a.  It is my understanding that the Agency is in discussions with the 
National Institute of Environmental Health Sciences (NIEHS) to send an 
additional team of pathologists to Italy to visit the Ramazzini 
laboratory to conduct a full review of the chemical studies in 
question. Is that accurate? 

A1. (a) EPA and NIEHS are jointly sponsoring an independent Pathology 
Working Group (PWG) review of selected studies on methanol, MTBE, ETBE, 
acrylonitrile, and vinyl chloride conducted by the Ramazzini Institute. 
The PWG review is currently underway and involves a team of 
pathologists traveling to the Ramazzini laboratory in Italy to conduct 
the review.

b.  If so, how do you intend to conduct this review?

A1. (b) EPA coordinated with NIEHS to outline the issues related to the 
specific chemicals of concern and is co-sponsoring the effort. NIEHS is 
overseeing the PWG review, which was designed in accordance with 
standard procedures established for NIEHS's National Toxicology Program 
(NTP) pathology reviews.

c.  What will you do to ensure that this effort is conducted in a fully 
transparent manner that allows for the public to comment?

A1. (c) EPA announced in an April 11, 2011 press release that a PWG 
review was being conducted, co-sponsored by NIEHS and EPA and in 
cooperation with the Ramazzini Institute. The PWG review is ongoing and 
is being conducted independently by NIEHS using standard pathology 
review procedurespathology review procedurespathology review procedures 
\1\
---------------------------------------------------------------------------
    \1\ Standard procedures outlined in p605-608 Principles in 
toxicology http://books.google.com/
books?id=vgHXTId8rnYC&pg=PA606&lpg=PA606&dq=pathology+working+group+proc
edures&s ource=bl&ots=IW8kjubP-
d&sig=iSYelcWvpgzlxs5002MMIKUudME&hl=en&ei=naTJTdnMEafu0 
gGvhemZCg&sa=X&oi=book_result&ct=result&resnum=5&ved=0CDAQ6AEwBA#v=onepa
ge&q =pathology %20working%20group%20procedures&f=false

d.  If you are not in discussion with NIEHS, please tell me in detail 
what you are doing regarding the IRIS assessments that are currently on 
---------------------------------------------------------------------------
hold?

A1. (d) EPA continues to work closely and collaboratively with NIEHS on 
methanol cancer review. The non cancer assessment for methanol is not 
impacted by Ramazzini data and is moving forward to an independent 
external peer review. Based on other available data, EPA has determined 
that reliance on Ramazzini Institute study results is not necessary to 
continue with assessment development for MTBE, ETBE and acrylonitrile 
(EPA released for a 60 day public comment and peer review on June 30, 
2011), including an assessment of cancer risks. Therefore, work on the 
assessments for the three chemicals will continue during the PWG 
review.

RAMAZZINI INSTITUTE

Q2.  In June 2010, EPA announced that it had ``under[taken] a thorough 
review of all ongoing and previous chemical assessments to determine 
which, if any, relied substantially on cancer testing from the 
Ramazzini Institute,'' had ``found four ongoing chemical assessments--
on methanol, MTBE, ETBE and acrylonitrile--that rely significantly on 
cancer data from the Ramazzini Institute,'' and had ``placed those 
assessments on hold and will determine whether the questions raised by 
NTP will require EPA to revise the assessments or take additional, 
action to verify the data used in these assessments.'' The TCE 
assessment relies substantially on Ramazzini data, both to support its 
conclusion that TCE is a kidney carcinogen, the endpoint that drives 
the cancer risk assessment, and to derive the cancer potency factor. 
Has EPA verified the TCE Ramazzini data? If not, why has EPA not placed 
the TCE assessment on hold along with the others?

A2. In EPA's 2009 draft Toxicological Review of Trichloroethylene 
(TCE), cancer potency estimates are based on epidemiologic data 
indicating that TCE increases the risk of cancer in humans. Human 
studies (see references below) are also the primary basis for the 
proposed conclusion in the draft assessment that TCE is a kidney 
carcinogen. EPA does not use the animal studies [e.g., Ramazzini 
Institute studies (Maltoni et al. 1986 and 1988)] as the primary basis 
for concluding that TCE is a human kidney carcinogen, or to derive the 
cancer potency factor in the draft assessment.
    Multiple positive rodent bioassays, one of which is the ``Ramazzini 
data,'' lend additional support for the human-based cancer 
classification and cancer potency values. The results from each of the 
independently run rodent bioassays are similar. In other words, 
multiple independent studies produced similar results. Therefore, 
removing one of these independent supporting studies (e.g., Ramazzini) 
would have no effect on EPA's conclusions regarding the qualitative or 
quantitative assessment of cancer. EPA is not considering removing any 
study from the TCE assessment at this time.

References

    Anttila, A; Pukkala, E; Sallmen, M; et al. (1995) Cancer incidence 
among Finnish workers exposed to halogenated hydrocarbons. J Occup 
Environ Med 37:797-806.

    Axelson, O; Selden, A; Andersson, K; et al. (1994) Updated and 
expanded Swedish cohort study on trichloroethylene and cancer risk. J 
Occup Environ 36:556-562.

    Boice, JD, Jr.; Marano, DE; Fryzek, JP; et al. (1999) Mortality 
among aircraft manufacturing workers. Occup Environ Med 56:581-597.

    Greenland, S; Salvan, A; Wegman, DH; et al. (1994) A case-control 
study of cancer mortality at the transformer-assembly facility. Int 
Arch Occup Environ Health 66:49-54.

    Hansen, J; Raaschou-Nielsen, O; Christensen, JM; et al. (2001) 
Cancer incidence among Danish workers exposed to trichloroethylene. J 
Occup Environ Med 43:133-139.

    Morgan, RW; Kelsh, MA; Zhao, K; et al. (1998) Mortality of 
aerospace workers exposed to trichloroethylene. Epidemiology 9:424-431.

    Raaschou-Nielsen, O; Hansen, J; McLaughlin, JK; et al. (2003) 
Cancer risk among workers at Danish companies using trichloroethylene: 
a cohort study. Am J Epidemiol 158(12):1182-1192.

    Radican, L; Blair, A; Stewart, P; et al. (2008) Mortality of 
aircraft maintenance workers exposed to trichloroethylene and other 
hydrocarbons and chemicals: extended follow-up. J Occup Environ Med 
50:1306-1319.

    Zhao, Y; Krishnadasan, A; Kennedy, N; et al. (2005) Estimated 
effects of solvents and mineral oils on cancer incidence and Mortality 
in a cohort of aerospace workers. Am J Ind Med 48:249-258.

    Bruning, T; Pesch, B; Wiesenhutter, B; et al. (2003) Renal cell 
cancer risk and occupational exposure to trichloroethylene: results of 
a consecutive case-control study in Arnsberg, Germany. Am J Ind Med 
43:274-285.

    Charbotel, B; Fevotte, J; Hours, M; et al. (2006) Case-control 
study on renal cell cancer and occupational exposure to 
trichloroethylene. Part II: Epidemiological aspects. Ann Occup Hyg 
50(8):777-787.

    Dosemeci, M; Cocco, P; Chow, WH. (1999) Gender differences in risk 
of renal cell carcinoma and occupational exposures to chlorinated 
aliphatic hydrocarbons. Am J Ind Med 36(1):54-59.

    Moore LE, Boffetta P, Karami S, Brennan P, Stewart PS, Hung R, 
Zaridze D, Matveev V, Janout V, Kollarova H, Bencko V et al. 2010. 
Occupational trichloroethylene exposure and renal carcinoma risk: 
evidence of genetic susceptibility by reductive metabolism gene 
variants. Cancer Res 70:6527-6636.

    Pesch, B; Haerting, J; Ranft, U; et al.. (2000) Occupational risk 
factors for renal cell carcinoma: agent-specific results from a case-
control study in Germany. MURC Study Group. Multicenter urothelial and 
renal cancer study. Int J Epidemiol 29(6):1014-1024.

    Siemiatycki, J. (1991) Risk factors for cancer in the workplace. 
Boca Raton: CRC Press.

HALOGENATED PLATINUM COMPOUNDS

Q3.  The IRIS program continues to be on the GAO High Risk list. Much, 
but by no means all, of the GAO's stated concerns focus on the slow 
pace of completion of IRIS assessments. The Committee believes the 
Agency should improve the way it allocates its limited resources and 
more effectively prioritize the candidates for assessment. Please 
explain the process the Agency uses to prioritize candidate substances 
for review. Why did EPA choose to initiate an IRIS assessment of 
halogenated platinum compounds when there is no scientific information 
to conclude that there is the risk of ambient exposure?

A3. In its solicitation for nomination of new chemicals, EPA asks the 
public, interagency partners, and Agency programs and regions for 
information to help prioritize the need for IRIS assessments. This 
information includes:

    <bullet>  potential public health impact,

    <bullet>  EPA statutory, regulatory, or program-specific needs,

    <bullet>  availability of new scientific information or methodology 
that might significantly change the current IRIS information,

    <bullet>  interest to other governmental agencies, the public or 
other stakeholders outside of EPA (e.g., states, tribes, local 
governments, environmental organizations, industries, or other IRIS 
users),

    <bullet>  availability of other scientific assessment documents 
that could serve as the basis for an IRIS assessment, and

    <bullet>  other factors such as widespread exposure or potential 
susceptible groups that would make the substance a high priority for 
assessment.

    EPA then uses this information to inform the decisions on which 
assessments to undertake. Two of the more important pieces of 
information that are used to gauge whether an assessment will be placed 
on the IRIS agenda are EPA program and regulatory needs and the 
availability of Agency resources to complete an assessment.
    EPA's Office of Research and Development (ORD) proceeded with an 
IRIS assessment of halogenated platinum compounds because EPA needed 
the assessment to inform its evaluation of platinum fuel additives for 
diesel engines in EPA's diesel retrofit program. EPA has posted a 
general statement regarding emissions from the use of platinum-based 
fuel additives that can be found at: http://www.epa.gov/cleandiesel/
verification/verif-list.htm (PDF file is found at: http://www.epa.gov/
cleandiesel/documents/420b08014.pdf). The need for the assessment of 
halogenated platinum salts and platinum compounds was not related to 
any concerns regarding emissions from catalysts commonly used on 
automobiles.

RELATIONSHIP OF FUTURE CSS WORK TO EXISTING IRIS WORK

Q4.  How will the new draft plan ``Framework for an EPA Chemical Safety 
for Sustainability (CSS) Research Program'' inform existing or pending 
IRIS assessments if the intent of the CSS research program is to look 
at chemicals in a more holistic, sustainable framework?

A4. Once finalized, the draft CSS Framework will guide EPA's chemicals-
related research activities over an approximately five-year period 
beginning October 2011, thus its impact on current IRIS assessments may 
not be large in the short term for assessments being finalized and ones 
which have already undergone peer review. Results from the CSS program 
will be used as soon as they become available and are peer reviewed. 
These early inputs of CSS research will inform IRIS assessments under 
development by elucidating mode(s)-of-action and toxicity pathway 
information that informs hazard and dose-response assessments. This 
evidence is anticipated to strengthen weight of evidence determinations 
in IRIS assessments under development. The CSS program will derive 
information coming from alternative animal species testing, high-
throughput and high content data source and will be integrated with 
other biological measurements to inform health assessments like those 
contained in IRIS. We expect the CSS research program to play an 
important role in informing IRIS assessments in the future. As defined 
by an approximate 3-5 year time horizon, one of the key objectives of 
the CSS program is getting stakeholder involvement and buy-in for the 
application of these new data in assessments. The full impact of CSS on 
IRIS must factor in this process and the routine inclusion into 
assessments will realistically take a few years.

INORGANIC ARSENIC

Q5.  The Science Advisory Board recently concluded its review of the 
IRIS assessment of inorganic arsenic. The SAB noted that it was not 
asked to conduct a full peer review of the assessment, including EPA's 
calculation of the cancer risk estimate, a critical element of EPA's 
conclusions regarding arsenic. Why did ORD intentionally limit the 
scope of the SAB peer review? Why has EPA never obtained independent 
peer review of the cancer slope factor it asserts for arsenic?

A5. The SAB completed, in 2007, an independent peer review of the 2005 
External Review Draft Toxicological Review of Ingested Inorganic 
Arsenic. After revising the draft assessment and in response to 
comments received from external stakeholders, EPA went well beyond the 
normal peer review process and opted to conduct a second external peer 
review focused on EPA's implementation of the recommendations received 
from the 2007 SAB panel. In other words, the 2010 SAB panel review was 
a second peer review of the revisions that were made as a result of the 
2007 SAB panel review. The scope of the review was discussed at the SAB 
face-to-face meeting on April 6-7, 2010, as well as during the 
chartered SAB meetings on June 16, 2010, and November 22, 2010. The 
following text was contained in the ChargeJune 16, 2010, and November 
22, 2010. The following text was contained in the ChargeJune 16, 2010, 
and November 22, 2010. The following text was contained in the Charge 
\2\
---------------------------------------------------------------------------
    \2\ http://yosemite.epa.gov/sab/sabproduct.nsf/
C74350B789B646D4852576D900693B14/$File/ORD-
NCEA+Charge+Memo+for+ARSENIC-WG+Feb+26+2010.pdf

          ``The goal of this focused external peer review is to 
        evaluate EPA's implementation of the key SAB (2007) external 
        peer review recommendations. This focused review should 
        concentrate on EPA's Response to the SAB comments in Appendix A 
        and the corresponding revisions in the 2010 draft IRIS 
        assessment. Please provide specific response to the Charge 
        below. If there are recommendations for further changes or 
        additions to the assessment, please provide specific 
        information on how those changes could be implemented with the 
---------------------------------------------------------------------------
        currently available scientific information.''

    EPA completed an independent peer review of the EPA cancer modeling 
approach including the derivation of the oral CSF for inorganic arsenic 
through the Science Advisory Board (Advisory on EPA's Assessments of 
Carcinogenic Effects of Organic and Inorganic Arsenic \3\) in 2007. The 
charge (see Section A-1 of the Advisory report) presented to this 2007 
SAB included five questions specific to the cancer modeling approach, 
including the derivation of the oral CSF. The 2007 SAB responded with 
several recommendations for revision and corrections to the derivation 
of the oral CSF contained within the EPA's 2005 External Review Draft 
Toxicological Review of Ingested Inorganic Arsenic. \4\ EPA considered 
all of the conclusions and recommendations from the 2007 SAB report in 
preparing the current 2010 External Review Draft ``Toxicological Review 
of Inorganic Arsenic (cancer).'' We note that the oral CSF falls within 
the range of risk estimates developed by the National Research Council 
in 2001, as indicated on page 137 of the 2010 External Review Draft 
``Toxicological Review of Inorganic Arsenic (cancer).''
---------------------------------------------------------------------------
    \3\ http://yosemite.epa.gov/sab/sabproduct.nsf/
EADABBF40DED2A0885257308006741EF/$File/sab-07-008.pdf
    \4\ http://oaspub.epa.gov/eims/eimscomm.getfile?p_download--
id=494513

---------------------------------------------------------------------------
ENDOCRINE DISRUPTION SCREENING PROGRAM

Q6.  The EPA has proposed a second list of 134 chemicals for testing 
under the Endocrine Disruptor Screening Program (EDSP), which is 
intended to screen chemicals for their potential to interact with the 
human endocrine system. In publishing this list of chemicals, the EPA 
failed to abide by a requirement from the Office of Management and 
Budget that the Agency report on the actual costs and time companies 
have invested in the first round of testing of 67 pesticides.

a.  With testing costs estimated to be as high as $1 million per 
chemical, what is the EPA doing to ensure that experience gained from 
the first round of testing is captured before requiring testing for the 
second EDSP list?

A6. EPA is committed to producing a full review of the EDSP Tier 1 
Screening Battery to ``ensure that experience gained from the first 
round of testing is captured.'' EPA is currently reviewing the public 
comments we received on the amendment to the original EDSP Information 
Collection Request. A full review of the EDSP Tier 1 Battery cannot 
occur until data from the first list of chemicals have been submitted 
and reviewed. The first sets of data from EDSP List 1 are not due until 
October of this year. The last due date for the submission of data from 
EDSP List 1 is May 2013. After submission of the data, the individual 
studies will be reviewed and integrated into decisions about the 
potential of the chemical to interact with the endocrine system. Only 
after completion of these chemical-by-chemical evaluations can EPA 
scientists most effectively evaluate the battery and coordinate a 
scientific peer review. The earliest timeframe for the completion of 
the scientific peer review would be 2014.

ENDOCRINE DISRUPTION SCREENING PROGRAM UNDER THE SAFE WATER DRINKING 
        ACT

Q7.  In developing the list of chemicals for the second round of EDSP 
screening test orders under the Safe Drinking Water Act, the Agency 
must demonstrate that the chemicals ``may be a contaminant in drinking 
water'' and/or that ``a substantial population must be exposed'' to the 
chemicals. However, when it published the proposed second list of 
chemicals the Agency simply used the unregulated contaminant list from 
the third Containment Candidate List (CCL3) without conducting any 
effort to see if each of the chemicals on the CCL3 met the critical 
factors that the Agency is required to consider under the SDWA.

a.  What is the EPA doing to ensure that EDSP testing orders are only 
given to the manufacturers and distributors of specific chemicals that 
meet the criteria for EDSP testing established under the Safe Drinking 
Water Act?

A7. Section 1457 of SDWA provides that ``in addition to the 
substances'' referred to in FFDCA section 408(p)(3)(B), ``the 
Administrator may provide for testing under the screening program 
authorized by section 408(p) of such Act, in accordance with the 
provisions of section 408(p) of such Act, of any other substance that 
may be found in sources of drinking water if the Administrator 
determines that a substantial population may be exposed to such 
substance.'' (42 U.S.C. 300j-17). The Agency used the third Contaminant 
Candidate List (CCL 3) and the list of regulated drinking water 
contaminants as the starting point to develop the second EDSP list 
because these compounds represent the priority chemicals for the Office 
of Water and the chemicals that are most likely to meet the criteria 
specified by SDWA 1457.
    In developing the CCL 3, the Agency considered not only public 
water system occurrence data but also the occurrence data for ambient 
concentrations in surface and ground water, and release to the 
environment. The Agency believes these data are sufficient to 
anticipate contaminants that ``may'' occur in public water systems and 
furthermore, also represent those substances that may be found in 
sources of drinking water to which a substantial population may be 
exposed.
    When the Agency published the second EDSP list in November of 2010, 
we encouraged the public to submit comments and information related to 
the inclusion and exclusion of chemicals from the second list. The 
Agency is in the process of reviewing the public comments and 
information it received on the list and will consider this information 
before finalizing the second list and the schedule for issuing test 
orders. If our evaluation of the public comments and information 
submitted by commenters indicate that we should reconsider the 
inclusion of contaminants that may not meet the SDWA 1457 criteria, we 
plan to make any necessary changes before finalizing the second EDSP 
list.

STAR PROGRAM vs OTHER FEDERAL GRANT PROGRAMS

Q8.  Your testimony stated that ``EPA will enhance its outreach to the 
broader scientific community through its STAR program, which funds 
competitive research grants across a broad range of scientific and 
engineering disciplines.'' Does this program overlap with other 
scientific programs that offer research grants? If so, can you 
distinguish the STAR program from other federal programs?

A8. EPA coordinates its research with other federal agencies and EPA 
programs through all stages of the STAR grant process to ensure we are 
funding unique research that meets the needs of the Agency. A number of 
steps are built into EPA's grant solicitation and award process that 
provide a high level of confidence that we are not funding research 
that overlaps with the missions of other federal agencies in a 
duplicative way:

    <bullet>  First, EPA chooses research topics based on projected 
future policy needs, current investments across the government, and 
available resources. When EPA pursues research in areas where other 
agencies have large investments, EPA consults these agencies during the 
solicitation development process.

    <bullet>  Second, EPA's collaboration with other federal agencies 
supporting related research ensures that roles are clearly defined and 
that EPA supports environmental research uniquely targeted to its 
science needs. For example, EPA's membership on the OSTP 
Intergovernmental Panel on Climate Change (IPCC) ensures that EPA's 
research is coordinated with the larger federal efforts in global 
change research.

    <bullet>  Third, EPA frequently involves experts from other 
agencies to serve on its external peer panels for reviewing grant 
proposals. These rigorous peer-reviews are performed by panelists from 
the National Science Foundation (NSF), the National Institutes of 
Health (NIH), and the Department of Homeland Security, (DHS) among 
others, and are a key part of the foundation on which excellence is 
achieved in all research programs.

    <bullet>  Finally, EPA coordinates scientific research with other 
agencies through informal interactions at scientific meetings and 
workshops and also works closely with other agencies to communicate 
research progress and results. For example, EPA's Nanotechnology 
Research Program has held research planning workshops with researchers 
from government, industry and academia to identify gaps in society's 
understanding of nanotechnology in relation to human and environmental 
health, and to guide EPA's research planning. In addition, EPA's 
Computational Toxicology Research Program has a Memorandum of 
Understanding with the U.S. Department of Health and Human Services 
(HHS), the National Institute of Health (NIH), the National Institutes 
of Environmental Health Sciences (NIEHS), the National Toxicology 
Program (NTP) and the U.S. Food and Drug Administration (FDA) to study 
high throughput screening, toxicity pathway profiling, and biological 
interpretation of the research findings.

    EPA's Science to Achieve Results (STAR) program was evaluated by 
the National Academy of Sciences (NAS) who released its findings in a 
report titled ``The Measure of STAR.'' According to the report, EPA's 
STAR program fills a unique niche by supporting ``important research 
that is not conducted or funded by other agencies'' and is ``directly 
relevant'' to the EPA's mission to protect human health and the 
environment \5\. The report goes on to say that ``the agency has taken 
effective steps to ensure that the process does not suffer from 
conflicts of interest'' by providing a ``firewall that shields the 
peer-review process from the influence of the project officers and 
staff who oversee the individual-investigator, fellowship, and center 
awards.''
---------------------------------------------------------------------------
    \5\ The Measure of STAR: Review of the U.S. Environmental 
Protection Agency's Science to Achieve Results (STAR) Research Grants 
Program
---------------------------------------------------------------------------
    The Board of Scientific Counselors (BOSC) also reviewed EPA's STAR 
program and claimed that STAR fellows have made ``excellent 
contributions in environmental science and engineering. The BOSC's 
review highlighted the STAR program's unique ability to perform 
targeted and unduplicated research: ``Although other federal agencies 
fund a number of fellowship programs, none are dedicated exclusively to 
the environmental sciences and engineering.'' Based on this finding, 
the Chair of the BOSC claimed that EPA's STAR program is ``clearly are 
of value to the Agency and the nation in helping to educate the next 
generation of environmental scientists and engineers.'' \6\
---------------------------------------------------------------------------
    \6\ James H. Johnson, BOSC Review--http://www.epa.gov/osp/bosc/pdf/
star0610ltr.pdf

---------------------------------------------------------------------------
Questions submitted by Representative Judy Biggert

NATIONAL CONTINGENCY PLAN SCHEDULE

Q1.  I understand EPA plans to revise the National Contingency Plan 
(NCP) Schedule for dispersants in 2012. Can you indicate what the 
timeline and plans are around this revision?

A1. EPA plans to propose revisions to the National Contingency Plan 
(NCP) Subpart J Product Schedule regulations by the end of this 
calendar year. EPA projects a publication date (in the Federal 
Register) of December 2011. Incorporating lessons learned from the BP 
Deepwater Horizon Oil Spill, EPA is developing revisions to the Subpart 
J regulations under the NCP that govern the Product Schedule. These 
regulations identify the tests and information required of product 
manufacturers to list dispersants and other chemical agents on the 
Product Schedule for use on oil spills in U.S. waters. Additional 
toxicity testing, toxicity thresholds, and more rigorous efficacy 
testing parameters are some of the priority issues being examined.

HYDRAULIC FRACTURING

Q2.  As you know, natural gas development in the Marcellus shale, and 
related debate around the process of hydraulic fracturing, have 
received a lot of attention. There is a lot of support for this natural 
gas development and making sure it is done in a manner that protects 
the environment--specifically--water resources. How does EPA intend to 
support innovative technologies that can responsibly develop this 
resource?

A2. EPA fully supports the development of innovative, responsible 
technologies for extracting natural gas deposits. We are working with 
the Department of Energy (DOE), particularly the National Energy 
Technology Laboratory (NETL), on this issue. NETL has both experience 
and the lead at the Federal level to assess the efficacy and impacts of 
technologies related to hydraulic fracturing. This joint research 
includes wastewater treatment of produced and flowback waters. EPA and 
DOE wish to identify and assess the performance of options for 
wastewater treatment of produced and flowback waters.

Q3.  As an example, your testimony mentions ``green chemistry'' 
research. Are there potential green chemistry technologies that EPA is 
considering for water treatment in fracturing?

A3. EPA's research efforts are currently focused on its hydraulic 
fracture study. In addition to our research efforts, through the 
voluntary Design for the Environment Program, EPA may work with 
industry to evaluate alternative fracturing fluid systems. The goal is 
to see if there are greener chemical combinations that are at least as 
effective as current fracturing fluids.

EPA GUIDANCE ON SELECTIVE CATALYTIC REDUCTION

Q4.  On September 29, 2010, I joined several of my colleagues in a 
letter to acknowledge the EPA's finding that SCR systems are vulnerable 
to tampering and to encourage the Agency to review the rules governing 
the operation of such systems.

    On November 19, 2010, the Assistant Administrator for Air and 
Radiation responded to our letter with a letter of her own. In that 
correspondence, Ms. Gina McCarthy indicated that the EPA planned ``to 
issue new [SCR] guidance by the end of the year.''

    To date, EPA has not acted on any new guidance. Can EPA provide any 
idea what their timeline might be for new SCR guidance?

A4. Since July 2010, EPA has been reviewing comments and information 
submitted in response to the public workshop and drafting updated 
guidance. We plan to publish the guidance in the Federal Register for 
public comment within the next few months. Question for the Record by 
Representative Neugebauer

ENSURING SCIENTIFIC INTEGRITY

Q5.  In my view the Environmental Protection Agency has recently 
imposed multiple costly regulations that have been based on unsettled 
science. Most notably, hundreds of scientists have opposed the science 
upon which the EPA based its greenhouse gas regulations. Moving 
forward, how will your agency ensure that research contains a variety 
of scientific input, including views that may diverge from the 
Administration's agenda?

A5. It is essential that the EPA's scientific and technical activities 
are of the highest quality and credibility for the American people to 
have trust and confidence in EPA decisions and actions. We welcome 
differing views and opinions on scientific and technical matters as an 
important, legitimate and necessary part of the process to provide the 
best possible information to regulatory and policy decisions.

    Regarding your specific reference to climate change science:

    EPA Administrator made Lisa Jackson made the Greenhouse Gas 
Endangerment Finding on the basis of the science in the 
Intergovernmental Panel on Climate Change (IPCC) Fourth Assessment 
Report, the work of the United States Global Change Research Program 
(USGCRP), and the work of the National Academy of Sciences (NAS) 
National Research Council (NRC). The products from all three of these 
groups were peer-reviewed. These reports and peer reviews involved 
thousands of scientists.
    Most recently, in 2010 the NAS/NRC published a report- Advancing 
the Science of Climate Change--which stated that ``Climate change is 
occurring, is caused largely by human activities, and poses significant 
risks for-and in many cases is already affecting-a broad range of human 
and natural systems.'' This is only the latest report by preeminent 
scientists that come to the same conclusion.
    The report further states: ``Most of the warming over the last 
several decades can be attributed to human activities that release 
carbon dioxide (CO<INF>2</INF>) and other heat-trapping greenhouse 
gases (GHGs) into the atmosphere. The burning of fossil fuels-coal, 
oil, and natural gas-for energy is the single largest human driver of 
climate change, but agriculture, forest clearing, and certain 
industrial activities also make significant contributions.''
    Further, two recent publications, looking at both surveys of 
scientists and the scientific literature, found that 97-98% of the 
climate researchers most actively publishing in the field agreed on 
anthropogenic climate change. \7\ \8\ EPA is charged with making its 
decisions on science and in using that science for the good of the 
public and the environment. As such, EPA relied on the vast scientific 
literature, from a huge number and diversity of scientists, to develop 
its assessment reports and ultimately inform its endangerment finding.
---------------------------------------------------------------------------
    \7\ Anderegg, W.R.L., J.W. Prall, J. Harold, and S.H. Schneider, 
2010: Expert credibility in climate change, Proc. Natl. Acad. Sci., 107 
(27), 12107-12109.
    \8\ Doran, P.T., and M.K. Zimmerman, 2009: Examining the scientific 
consensus on climate change, EOS Trans. AGU, 90 (3), 22-23.
---------------------------------------------------------------------------
    In addition, EPA's Technical Support Document (TSD) for the 
Endangerment Finding was peer reviewed and the Endangerment Finding was 
subject to public comment. The peer review was conducted by a panel of 
federal experts, including one expert from EPA, to assure consistency 
with the underlying assessment reports. There were two opportunities 
for public comment on the Endangerment Finding, once during the 
Advanced Notice of Proposed Rulemaking (ANPR) process and once after 
publication of the Proposed Finding. The public comment period for the 
Proposed Finding, including formal public hearings, was held after the 
proposal was issued but prior to the final action being developed. 
Public engagement was significant: over 380,000 public comments were 
received. EPA responded in depth to all the arguments raised within the 
approximately 11,000 unique and substantive comments in a comprehensive 
11-volume Response to Comments document. EPA reviewed individual 
submitted studies that were not included in the major assessments, with 
an overall conclusion that the studies did not change the judgments EPA 
would draw based on the assessment reports. A limited number of 
appropriate revisions were made to the TSD in response to the public 
process, usually where public comments revealed that the TSD summary of 
the underlying assessments could be improved. These activities 
demonstrate that the development of EPA's Greenhouse Gas Endangerment 
Finding included a broad variety of scientific input, including views 
that were divergent from the ultimate conclusion of the Finding.

Questions submitted by Ranking Member Eddie Bernice Johnson

E15

Q1.  Several U.S. ethanol associations submitted a waiver to the EPA to 
increase the ethanol blend up to E15 from E10. (That is a blend of 15 
percent ethanol and 85 percent gasoline.) EPA has partially granted a 
waiver to allow manufacturers to introduce gasoline that contains 
greater than ten percent ethanol and up to 15 percent ethanol (E15) for 
use in motor vehicles newer than model year 2001, subject to several 
conditions. It is the Committee's understanding that EPA is not 
finished with its work on this issue. What kind of research went into 
making the decision and what role did the Department of Energy play in 
conducting this research?

A1. We based our decisions primarily on key data provided by the 
Department of Energy's (DOE) Catalyst Study which was designed to 
evaluate the long-term effects of gasoline-ethanol blends, including 
E15, on the durability of emissions control systems, including 
catalysts, used in passenger cars and light trucks to control 
emissions. The test fleets were designed to be reasonably 
representative of the national passenger vehicle fleet. They included 
several high sales volume vehicle models and models selected for their 
expected sensitivity to ethanol so that any potential problems would be 
more likely to become apparent. The results of the DOE study coupled 
with the results of other relevant test programs, including studies 
conducted by the Coordinating Research Council (sustaining members 
include the American Petroleum Institute and a group of automobile 
manufacturers), confirmed the Agency's engineering assessment that the 
changes in regulatory requirements for MY2001 and newer light-duty 
motor vehicles led manufacturers to design and build vehicles able to 
use E15 without a significant impact on the performance of light duty 
vehicle emissions control systems. EPA believes that the available data 
and information were sufficient to grant the waiver request for MY2001 
and newer light-duty motor vehicles.

Q2.  Can you provide us with a timeline of the expected additional 
studies underway or planned for ethanol blends?

A2. As discussed in the partial waiver decisions, it is our 
understanding that the results of additional testing conducted by the 
Coordinating Research Council on E10 and E20 are expected by the end of 
2011. We did not believe it was necessary to await these program 
results to decide the waiver request for MY2001 and newer light-duty 
motor vehicles given the lack of documented problems in our motor 
vehicle compliance program, the results of the DOE Catalyst Study and 
other studies, and EPA's engineering assessment of vehicle emissions 
systems compatibility with E15. Based on this combined body of 
knowledge, we expect that MY2001 and newer light-duty motor vehicles 
will be able to operate on E15 without experiencing long-term 
deterioration.

Q3.  What is the long-term impact on our economic competitiveness?

A3. The increased use of renewable fuels required by the RFS2 standards 
is expected to reduce dependence on foreign sources of crude oil and 
increase domestic sources of energy. We expect that the increased use 
of renewable fuels needed to reach the 36 billion gallons mandated by 
2022 will displace a significant amount of petroleum-based gasoline and 
diesel fuel relative to market projections of gasoline and diesel use 
in the absence of the mandate. Furthermore, we expect the rule to 
decrease oil imports and sustain the market for U.S. agricultural 
products, including corn.

HYDRAULIC FRACTURING

Q4.  At the hearing in response to a question on the Hydraulic 
Fracturing Study Plan, you mentioned EPA would ensure that strong and 
thorough consideration would be given to all stakeholders concerns in 
an objective and transparent manner? You further committed to providing 
opportunities for input by stakeholders, including states, industry and 
academia about concerns after the study has been initiated. a. Please 
describe how you intend to do this while maintaining scientific 
integrity and meeting tight time deadlines for the report.

A4. EPA has committed to conducting the study of the potential impacts 
of hydraulic fracturing on drinking water resources in an objective and 
transparent manner. The Agency's study will be conducted under EPA's 
most rigorous quality assurance guidelines, which will ensure that all 
of the study results will be reported objectively. EPA has encouraged 
stakeholders to play an active role in the development of the study 
plan and will continue to communicate with all interested stakeholders 
regarding our progress.

    EPA has already undertaken efforts to ensure stakeholder 
engagement, as well as transparency in our deliberations and 
implementation actions. These efforts include:

    <bullet>  Public meetings held in Texas, Colorado, Pennsylvania, 
and New York in 2010.

    <bullet>  Webinars and meetings with federal, state, interstate, 
and tribal partners during 2010.

    <bullet>  An e-mail inbox dedicated to receiving comments from all 
interested stakeholders.

    <bullet>  Webinars regarding the release of the draft study plan in 
February and March 2011

    <bullet>  A period for stakeholders to comment on the draft study 
plan to the Science Advisory Board in March 2011. We will continue to 
engage interested stakeholders throughout the course of the study by:

            Providing opportunities for public comment during the SAB 
        review process. The SAB Review Panel held public 
        teleconferences on May 19 and 25th to discuss their draft 
        report of the review of EPA's draft Hydraulic Fracturing Study 
        Plan. Stakeholders were provided an opportunity to submit oral 
        or written comments for consideration by the Panel.
            Holding additional webinars-or other forms of 
        communication-to report on the progress of the study. Providing 
        the public with an opportunity to comment to the SAB during 
        their review of the 2012 and 2014 reports.

    Summaries of all of these interactions can be found on EPA's 
website at http://water.epa.gov/type/groundwater/uic/class2/
hydraulicfracturing/wells_hydroout.cfm, or on the SAB website at http:/
/yosemite.epa.gov/sab/sabproduct.nsf/MeetingCal/
153AC7DF8D2626F98525781000648075?OpenDocument.
                              Appendix II:

                              ----------                              


                   Additional Material for the Record

         Submitted Materials by Representative Dana Rohrabacher


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Submitted Materials by Representative Brad Miller

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Submitted Materials by Representative Brad Miller

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
